<html>
<title> - ENERGY EFFICIENCY LIGHTING</title>
<body><pre>[Senate Hearing 110-195]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-195
 
                       ENERGY EFFICIENCY LIGHTING

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

     RECEIVE TESTIMONY ON THE STATUS OF ENERGY EFFICIENT LIGHTING 
   TECHNOLOGIES AND ON S. 2017, THE ENERGY EFFICIENT LIGHTING FOR A 
                         BRIGHTER TOMORROW ACT

                               __________

                           SEPTEMBER 12, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources



                     U.S. GOVERNMENT PRINTING OFFICE

39-385 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
California Energy Commission.....................................    58
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     6
Harman, Hon. Jane, U.S. Representative From California...........     3
Karsner, Alexander, Assistant Secretary, Energy Efficiency and 
  Renewable Energy, Department of Energy.........................     9
Nadel, Steven, Executive Director, American Council for an Energy 
  Efficient Economy..............................................    40
Pitsor, Kyle, Vice President, National Electrical Manufacturers 
  Association, Rosslyn, VA.......................................    36
Salazar, Hon. Ken, U.S. Senator From Colorado....................     2
Sanders, Hon. Bernard, U.S. Senator From Vermont.................     2
Upton, Hon. Fred, U.S. Representative From Michigan..............     7
Waide, Paul, Senior Policy Analyst, Energy Efficiency and 
  Environmental Division International Energy Agency, Paris, 
  France.........................................................    23

                                APPENDIX

Responses to additional questions................................    59


                       ENERGY EFFICIENCY LIGHTING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:32 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Let's go ahead and start the hearing. I 
apologize to everybody for the lateness of our beginning time. 
The Senate was having votes. I understand Senator Domenici and 
Senator Murkowski are on their way, but in order to expedite 
things, let me very briefly give a statement, and then call on 
our two Members of Congress to make their statements. They 
represent our first panel today.
    This is a hearing to take testimony of S. 2017, the Energy 
Efficient Lighting for a Brighter Tomorrow Act, and to review 
the status of emerging energy efficiency lighting technologies.
    S. 2017 establishes a process to begin the transformation 
of the U.S. lighting market by phasing out inefficient 
incandescent lamps and replacing them with more efficient 
technologies. In June, the Senate passed an energy bill. We 
included in there a sense of the Senate, Section 214, that 
said, ``a provision that the Senate should pass a set of 
mandatory technology-neutral standards to establish energy 
efficient performance targets for lighting products, ensuring 
that the standards become effective within the next 10 years, 
ensure that replacement lamps will provide consumers with the 
same quantity of light, while using significantly less energy, 
ensuring that consumers will continue to have multiple product 
choice, and work on measures than can assist consumers and 
businesses in making the transition to more efficient 
lighting.''
    S. 2017 was introduced last week with Senator Stevens, 
Carper, Snowe, Landrieu, and myself. It's intended to meet the 
requirements of that sense of the Senate provision. It was 
developed with the active participation of energy efficiency 
advocates and lighting manufactures. The House energy bill, S. 
3221, includes a lighting provision with similar goals. These 
are complex provisions and I believe the witnesses are well-
equipped to talk to us about some of the details of them.
    This morning, we will first hear from Representative Jane 
Harman and from Representative Fred Upton, who are the authors 
of the House provision. Following the House members, Assistant 
Secretary Karsner will provide the Administration's view on the 
legislation and the status of the new energy efficient lighting 
technologies.
    Finally we'll hear from a panel of experts on lighting 
efficiency. I'm very pleased that Dr. Paul Waide is able to 
join us from the IEA in Paris. He is the resident expert on 
lighting for the OECD and he can place our efforts within the 
global context. Kyle Pitsor of NEMA, will represent the views 
of the U.S. lighting manufacturers. Steve Nadel of ACEEE will 
testify on behalf of several energy efficiency advocacy groups.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman and Ranking Member Domenici for holding 
today's hearing on S. 2107, the Energy Efficient Lighting for a 
Brighter Tomorrow Act. I want to thank Chairman Bingaman for the work 
he and his staff did to introduce S. 2107. I also want to thank our 
witnesses for their time today, and our international expert who 
traveled so far to be with us.
    The lighting we use in our homes today has changed little since the 
early 1900s. Most residential lighting is from inefficient incandescent 
light bulbs. It is estimated there are over 3 billion incandescent 
light bulbs in use in homes across our country today, and almost a 
billion incandescent light bulbs used in businesses. Incandescent light 
bulbs are energy inefficient because only about 10% of the power used 
by an incandescent light bulb goes to producing light, and the 
remaining 90% of the power is given off as heat.
    Improved lighting technology exists today that allows us to get the 
same amount of light using far less energy. By simply switching to a 
more energy-efficient compact fluorescent light bulb, we can use almost 
75 percent less energy, and the light bulb will last ten times longer 
than the traditional incandescent light bulb.
    Energy efficiency is the quickest, cheapest, and cleanest way to 
extend our country's energy supplies. To date, most of our country's 
efforts to encourage people to switch to more energy efficient lighting 
have been through voluntary programs like the Change a Light, Change 
the World campaign lead by the Environmental Protection Agency.
    However, we can and must do more to speed the transition to more 
energy-efficient lighting technology. Based on Department of Energy 
data, 765 billion kWh of energy is used annually in the U.S. by 
lighting systems. Approximately 30% of the energy consumed in an office 
building is from lighting use, and 5-10% of residential energy use is 
for lighting. It is estimated that consumers and businesses spend 
approximately $58 billion annually for lighting. Far too much energy is 
consumed today for lighting, especially in light of the fact that much 
more energy-efficient lighting exists today.
    While we do have the know-how to transition to more efficient 
lighting, there will be challenges for industry. I look forward to 
hearing from our witnesses today to learn how we can best make this 
transition to more efficient lighting.
    Changing the world does start with simple actions. I want to thank 
again Chairman Bingaman and Ranking Member Domenici for holding today's 
hearing on this important bill to change the way our nation lights its 
homes and businesses.

    [The prepared statement of Senator Sanders follows:]
 Prepared Statement of Hon. Bernard Sanders, U.S. Senator From Vermont
    Chairman Bingaman, Ranking Member Domenici, efficiency is the 
lowest of the low-hanging fruit. Vermont is a leader in energy 
efficiency and is the only state with its own Efficiency Utility, but 
my state and our country still need to do more.
    I believe that we must be bold and aggressive in making every 
aspect of our country more efficient in its energy use and not just 
take baby steps. That's why I am glad that we are having a hearing on 
S. 2017 today--this bill is historic and is huge. It will reduce energy 
use, energy costs and pollution more than all the Federal appliance 
standards issued in the 20th century. Why do we, the technology leaders 
of the world, have to be led into the future by other countries, like 
Australia, Canada, Europe, and even Cuba? We should have done this long 
ago, but it is not too late to join these nations in leading the rest 
of the world.
    Chairman Bingaman, I salute you for your role in brokering the 
agreement between the interested parties and I also salute those 
parties for working together to help fashion this legislation. However, 
as I understand it, there are some aspects of the House bill that we 
should consider including over here. On the issue of preemption of 
prior states standards, as Representatives Harman pointed out, the 
House was able to achieve a compromise on eliminating grandfathering of 
California and Nevada's standards because the standards are aggressive, 
at levels that California and Nevada could embrace. Our House 
colleagues exhorted us to stand firm on aggressive standards so that we 
can realize the energy and environmental improvements that this effort 
is designed to achieve.
    I am also concerned about the issue raised by one of the witnesses, 
Mr. Nadel from the American Council for an Energy Efficient Economy, 
that issue being loopholes. If my understanding is correct that 
lighting manufacturers have avoided efficiency standards through design 
tricks, we must make sure that this does not happen again. If we allow 
such tricks in the future, we will undermine the good work of the 
responsible companies who are leading the way on efficiency. Therefore, 
I believe that all bulbs should be covered, with limited exceptions.
    The hearing was an excellent opportunity to learn more about this 
very important topic and I hope that the lessons learned will be 
incorporated into energy legislation pending in Congress.

    Let me just, with that, call on Congresswoman Harman and 
Congressman Upton to describe what their efforts have been in 
the House bill and any views they have on what the Senate bill 
provides.
    Representative Harman, go right ahead.

    STATEMENT OF HON. JANE HARMAN, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. It's a rare 
opportunity to be invited to come over to the Senate and 
testify on behalf of legislation that is very similar to House 
legislation and I appreciate the invitation. I know my partner 
in all things light bulbs, Representative Upton appreciates it 
as well. Hopefully we can shed some light, not just some heat, 
on this subject.
    As you said, lighting efficiency is a complicated and 
esoteric field. I'm not sure I've mastered all of its 
intricacies, but I am now fairly up to speed on the deals we 
struck in our bill, which we did get out of the House Commerce 
Committee on a bipartisan basis and which was part of the 
bipartisan legislation that the House passed before we recessed 
for August.
    There is a point of view that the House hasn't done much in 
the last year. I might agree with that point of view, but the 
energy legislation that we passed, I would say, is very strong. 
I do appreciate the fact that you are introducing legislation 
that substantially mirrors the light bulb provisions in our 
bill. I think that that will be very helpful to the effort to 
get them enacted into law.
    Congressman Upton and I have lived and breathed lighting 
issues for a while now. Our spouses complain that we've started 
to glow in the dark. But we are the co-authors, along with 
Representatives Hastert and Wynn, a bipartisan duo, of the 
amendment to the House Energy Bill, that sets out new 
efficiency standards for light bulbs. We also worked with 
Representatives Lipinski and English, again, on a bipartisan 
basis, to add a provision to every Appropriations bill that 
passed the House, requiring the Federal Government to purchase 
more energy efficient light bulbs.
    There is a reason that this issue has become so important. 
Most Americans, as you pointed out, still use essentially the 
same incandescent light bulbs invented by Thomas Edison more 
than 120 years ago. These bulbs are famously inefficient, only 
10 percent of the energy that they generate becomes light. The 
remaining 90 percent is wasted as heat. I would observe that 
that sounds like Congress.
    But lighting technology has changed. There are alternatives 
on the market now that are far more energy efficient. I see 
some of them right next to me at this table. There are 
alternatives right around the corner, such as advanced halogen 
bulbs and light emitting diodes, so called LEDs, that will 
fundamentally change the way we light our homes and businesses.
    The energy that could be gained by switching to these more 
efficient alternatives is staggering. The energy that could be 
saved is staggering. The Lighting Efficiency Advocacy Group, 
18seconds.org, estimates that if every American swapped just 
one incandescent bulb, which takes approximately 18 seconds, 
for a compact fluorescent, we would save more than $8 billion 
in energy costs, prevent burning 30 billion pounds of coal, and 
prevent 2 million cars-worth of greenhouse gas emissions from 
entering our atmosphere. These potential savings served as the 
inspiration for our legislative efforts. As I mentioned, these 
efforts were bipartisan, something again, rare in Congress 
these years.
    Our amendment also was the result of months of negotiations 
with the lighting industry and environmental groups. I know 
that the lighting industry is here and they will testify, but 
they were part of a dramatic, 11th-hour, negotiating session on 
the morning of our full committee mark-up. The resulting 
amendment was supported, both by the industry and the 
environmental community, including the Natural Resources 
Defense Council, the NRDC. I think it was that combined support 
that generated the member support we got.
    Our amendment bans the outdated 100-watt incandescent light 
bulb by 2012, phases out all inefficient lighting by 2014, and 
requires that light bulbs sold in the United States be at 300 
percent as efficient as today's 100-watt incandescence by 2020. 
I know all of those things are in a slightly different format 
in your bill. The amendment also requires the study of ways to 
prevent the release of mercury in the production or sale of 
light bulbs, and to encourage the lighting industry to 
manufacture these new, efficient light bulbs in the United 
States.
    We are aware that there is a work force now in the United 
States, in a variety of companies, that produces lighting 
appliances, and we want that work force to stay productively 
employed. Our goal, however, is to make sure that it is making 
products that are also energy efficient.
    My time has expired, so let me just summarize about one 
provision and that is the Preemption Provision in our 
legislation. Preemption is something that Californians don't 
like. We think we do everything better and usually we're right. 
But we did agreement, from the environmental community in 
California, to included a preemption provision, which I 
support. The reason we included it is two-fold. No. 1, it 
seemed to us really burdensome to have different requirements 
for light bulbs in different States. But No. 2, the standards 
in our bill are high enough to justify a national preemption 
clause.
    So, let me just close by saying that I think this is sound 
legislation, the House on a bipartisan basis supports it. I 
think you, on a bipartisan basis in your committee, you're 
doing the right thing. I urge the inclusion of your 
legislation, in whatever package emerges on energy, hopefully 
this fall.
    Thank you.
    [The prepared statement of Ms. Harman follows:]
      Prepared Statement of Hon. Jane Harman, U.S. Representative 
                            From California
    Thank you for inviting us to testify before the Committee.
    Lighting efficiency is a complicated and esoteric field, and I 
congratulate you, Chairman, for crafting a solid piece of legislation--
the Energy Efficient Light for a Brighter Tomorrow Act (S. 2017).
    I'd also like to recognize my colleague on the Energy & Commerce 
Committee and partner in all things light bulbs, Congressman Fred 
Upton.
    Congressman Upton and I have lived and breathed lighting issues for 
several months now--our spouses complain that we glow in the dark at 
this point. We are the co-authors--along with Representatives Hastert 
and Wynn--of an amendment to the House's Energy Bill that sets out new 
efficiency standards for light bulbs. That bill passed the House just 
before the August recess.
    We also worked with Reps. Lipinski and Inglis to add a provision to 
every appropriations bill requiring the federal government to purchase 
more energy efficient light bulbs.
    There is a reason this issue has become so important to us. Most 
Americans still use essentially the same incandescent light bulbs 
invented by Thomas Edison more than 120 years ago.
    These bulbs are famously inefficient. Only 10% of the energy these 
bulbs consume becomes light. The remaining 90% is wasted as heat. 
Sounds like Congress . . . .
    But lighting technology has changed. There are alternatives on the 
market now that are far more energy efficient. And there are 
alternatives right around the corner--such as advanced halogen bulbs 
and light emitting diodes--that will fundamentally change the way we 
light our homes and businesses.
    The energy that could be gained by switching to these more 
efficient alternatives is staggering.
    The lighting efficiency advocacy group 18seconds.org estimates that 
if every American swapped one incandescent bulb for a compact 
fluorescent, we would save more than $8 billion in energy costs, 
prevent burning 30 billion pounds of coal, and prevent 2 million cars 
worth of greenhouse gas emissions from entering our atmosphere.
    These potential savings served as the inspiration for our 
legislative efforts.
    And I am proud to say that these efforts were bipartisan. Rep. 
Upton and I worked side by side in crafting our amendment, which was 
widely supported by Members of both parties.
    Our amendment was also the result of months of negotiations with 
the lighting industry and environmental groups. We actually finalized 
the language in a dramatic 11th hour negotiating session on the morning 
of the full committee markup. The resulting amendment was supported by 
both the lighting industry and the environmental community, including 
the NRDC.
    Our amendment bans the outdated 100-watt incandescent light bulb, 
phases out all inefficient lighting by 2014, and requires that light 
bulbs sold in the United States be at least 300% as efficient as 
today's 100-watt incandescents by 2020.
    The amendment also requires the study of ways to prevent the 
release of mercury in the production or sale of light bulbs, and to 
encourage the lighting industry to manufacture these new, efficient 
bulbs here in the United States.
    S. 2017 generally reflects this consensus forged on the House side.
    I would like to emphasize one important issue--preemption.
    I am from California and--as this Committee is no doubt aware--
California, ahead of the national curve on emissions standards, 
zealously guards its prerogative to set its own regulations on a range 
of issues.
    The preemption provisions in our bill were not a concession that 
I--or members of the environmental community--were willing to agree to 
easily.
    But we did so for two reasons. Appliance efficiency standards have 
traditionally been treated differently than other regulatory areas. 
Inclusion of preemption for light bulb standards should not be 
considered a sign that the State or its representatives in Congress 
will relent on preemption in other areas.
    Second, in exchange for preemption, our language requires that the 
lighting industry meet very tough efficiency standards--approximately 
45-50 lumens per watt by 2020, which is roughly the efficiency of 
today's compact fluorescent bulbs.
    S. 2017 includes a comparable provision, and I commend Chairman 
Bingaman for including an aggressive standard. I urge the Senate to 
keep the bar high. It is worth preemption; a lesser standard is not.
    The preemption language in the House version also grandfathers-in 
states that adopt tougher standards before the effective date of the 
bill.
    Several western states such as California and Nevada have adopted 
or are considering lighting standards that go slightly further than the 
new federal standards proposed in both bills. The House language would 
allow these standards to remain in place, even after the new federal 
standards are effective. I understand that S. 2017 would not.
    The House grandfather clause was well understood by the parties to 
our consensus, and was crucial to building support for our bill. I urge 
the Senate to adopt a similar provision as this bill moves forward.
    With that, let me thank you again for inviting me here today. I 
look forward to working with all of you on these issues in the coming 
months.

    The Chairman. Thank you very much.
    Senator Domenici has come in since we started and these 
are, of course, Representative Harman and Representative Upton 
are the two main sponsors of the provision that the House 
passed on lighting. Did you wish to make your opening statement 
now, and then we'll hear from Representative Upton?

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Mr. Chairman, I think we've all been sort 
of the cause of some delay. I've been part of that so I don't 
want to make a very long statement. I first would ask that the 
statement I have be made a part of the record.
    The Chairman. It will be included.
    [The prepared statement of Senator Domenici follows:]
  Prepared Statement of Hon. Pete V. Domenici, U.S. Senator From New 
                                 Mexico
    Good Morning. I'd like to thank Senator Bingaman for holding this 
hearing. I'd also like to add my thanks to our witnesses for being with 
us today.
    The purpose of today's hearing is to receive testimony on S. 2017, 
a bill recently introduced by Senator Bingaman to phase-out the use of 
incandescent lighting in this country. I commend the lighting industry 
for working with efficiency advocates to craft this proposal. If 
adopted, it would transform the nation's lighting market by calling for 
the replacement of 4 billion general service light bulbs currently 
installed in the United States.
    The potential energy savings from this proposal are indeed 
impressive. The Alliance to Save Energy estimates that new light bulb 
standards would save 88 billion kilowatt hours per year.
    That being said, however, during my initial evaluation of this 
legislation a number of concerns have come to mind that I hope will be 
addressed during today's hearing.

  <bullet> I believe that consumers must continue to have multiple 
        product choices, including energy-saving halogen, efficient 
        incandescent, compact fluorescent, and LED light bulbs.
  <bullet> A phase-out period of only two years, as suggested in the 
        bill, appears unnecessarily onerous. In my opinion, if such a 
        phase-out is to occur, it must be done in a responsible manner 
        that provides lighting manufacturers with enough time to 
        complete the market transformation, while ensuring multiple 
        product choices for the consumer.
  <bullet> Dictating a ``back-stop'' lighting standard for the year 
        2020--before the phase-out is even underway--is unreasonable. 
        As most of you know, I believe wholeheartedly that we are a 
        nation of innovation. Setting a lighting standard 13 years in 
        advance based on today's technology may not be a wise course of 
        action.
  <bullet> With regard to CFLs, consumers are concerned not only with 
        the cost, but with the potential mercury release. With the 
        increased use of CFLs called for in this bill, we will need to 
        address the mercury disposal issue.

    Unfortunately, I must attend a very important mark-up of the 
Defense Appropriations bill this morning, so I have to leave shortly. 
However, I look forward to reviewing today's testimony and I will 
continue to work on lighting issues as Congress considers energy 
legislation. Thank you.

    Senator Domenici. Then I just would like to say that, it is 
rather amazing that we have this bird in the hand, that it's 
rather genuine and certainly, we are able to get this 
conversion to take place. It's kind of an interesting thing--in 
the midst of a great and fantastic manufacturing movement, 
we've got this new light bulb that has to be manufactured by 
hand. I started reading about it and I said, you know, is 
somebody pulling my leg? No, it's true. Of course, that 
presents some interesting problems that we haven't thought of.
    I mean, what it's done is it's presented the manufacturing 
world with new lighting source that's legit. It causes us to 
take what we've been using and throw it away. It does also 
clearly provide for a new one to take it's place, but in order 
to properly use it, we've to use thousands of hand workers to 
put it together. You know, almost like we're getting taken. But 
no, we're not. It's pretty serious business. So I'm, for 
working with you Mr. Leader, Mr. Chairman, there's no joke to 
any of this. This is a big, big event, right there in front of 
this, saying we can do this. If we want to fight about it, we 
can take 10 years. We want to just sit down with the smartest 
people we've got on our committees and say, ``How do we get it 
done?'' We might even, because its facts are all known, put 
them out on the table and maybe work together, both sides, and 
do something--since this is so different, just do it different. 
Maybe we can have a group from House and Senate meet together 
and figure out how to do it. As I say, we're here to show that 
we can do it a different way than we've ever done it and save a 
lot of time and have one shot at it and not two, and get the 
thing done.
    In any event, with my statement added to the statements 
that are here, there will be plenty of reading for those who 
wonder what we're doing. I just added a little bit of some very 
good reading that I saw, that was already present.
    With that, Mr. Chairman, I have nothing further, except to 
proceed. Thank you for proceeding with this hearing and I'm 
hoping that the very best will happen to this bill, it is this 
little bill that's going to do something very big. Let's hope 
we can do it together.
    Thank you.
    The Chairman. Thank you very much.
    Representative Upton, why don't you go right ahead.

STATEMENT OF HON. FRED UPTON, U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. I intend just summarize 
my full statement.
    First of all, I have to tell you it has been a real delight 
to work with my friend and colleague, Jane Harman. I think we 
came to the idea about at the same time. We were encouraged to 
move forward together as a team, by both Mr. Dingle, as well as 
Mr. Haster, former Speaker of the House. We worked very closely 
with all parties, particularly with the industry, and 
environmental crowd, as well.
    Our idea shifted a little bit as we moved forward, in terms 
of the legislation that we ultimately presented before the 
House. Along the way, we made significant strides with the 
Government, as well, as Mrs. Harman indicated. We offered an 
amendment on every single one of the Appropriation bills, to 
mandate that beginning October 1st, a couple of weeks from now, 
that the Federal Government--the largest purchaser of light 
bulbs in the world--will only purchase Energy Star light bulbs. 
That standard, of course, dictated by the Department of Energy.
    We know that it will save hundreds of millions of dollars 
to the taxpayers, beginning in just a couple of weeks, in lots 
of different ways. All of those amendments, but one, passed on 
a voice vote. We thought on one amendment we ought to actually 
see where the sense of the Congress is, as it related to that. 
We got nearly 400 votes in support of the amendment mandating 
that. And so as we look at the CR and Omnibus, in terms of 
what's going on, we hope that that provision will stick in each 
of the Appropriation bills.
    We worked with industry, in terms of the standard. And I 
have to say, that one of the ideas, of course, that came from 
your sense of the Congress resolution over here, was to, in 
essence, make the 100-watt incandescent bulb go away, obsolete, 
by the year 2012. That actually didn't come from the two of us, 
it came from the industry, and because they're worried, I 
think, that some different, maybe fly by-night group, that will 
come in, ultimately, and have a cheaper light bulb at the, on 
the shelf at the store. But in fact, the cost to the consumer 
will be, who knows, 15 or 20 times more by buying that obsolete 
incandescent bulb versus the new standard that we're going to 
see.
    So they were the ones that came up with that idea and we 
wrote that right into the amendment, as it passed in the Energy 
Committee.
    I think this legislation that we've done is balanced, the 
preemption work was a great credit, kudos to my colleague from 
California, again, making sure that it was properly structured, 
all sides, in essence, coming to the agreement. We pushed both 
sides, they know that. Now, we may need to see some tweaking 
here at the end of the day, but I'd to think that what we were 
able to get through the House, working with you now in the 
Senate, we're going to see some significant savings.
    The bottom line is this, by improving the standard, which 
is what we're doing, we will save American consumers 65 billion 
kilowatts of energy, just because of the light bulb changes, 
when this comes into affect beginning in 2012, 2013.
    Sixty-five billion kilowatts is the equivalent of 80 coal-
fired electricity plants. That's pretty significant. This is 
more than just one light bulb at a time, it is in fact, a 
shining amendment in terms of what we can do together, House 
and Senate, Republicans and Democrats, environmentalists and 
industry, to make sure that we're getting the biggest bang for 
our buck.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you both for coming over and testifying 
and thanks for your leadership on this important issue. I do 
think this is one of the great opportunities we've got in this 
Congress, to go ahead and get this enacted. So, that was our 
purpose in introducing the bill we've introduced here in the 
Senate. I know it was your purpose in moving ahead with your 
bill as part of the energy package.
    So, I have no questions at this point. Let me just see if 
Senator Corker has any questions he wanted to ask.
    Senator Corker. Mr. Chairman, I do not. I know they have a 
tight schedule, leaving early today. But sounds like you all 
have done an excellent job in trying to balance various 
interests, but to move our country ahead in a pretty dramatic 
way over a very simple concept. I wish we could do more of that 
here in Congress. Thank you for your great testimony. It's been 
a pleasure listening to you and to watch you all play off of 
each other and also play off of words, if you will, that have a 
lot to do with light, I've noticed. But you all have a good----
    Mr. Upton. Just wait, just wait. We've got a lot of ideas 
more that you don't know.
    Senator Corker. Thank you. Thank you very much.
    The Chairman. All right. Thank you very much. We will go on 
to our next panel, then. Assistant Secretary Karsner, who is 
the Assistant Secretary for Energy Efficiency and Renewable 
Energy in the Department of Energy, is a frequent witness 
before this committee and we always welcome him and 
congratulate him on his efforts at the Department. We're 
anxious to hear your views on this legislation and what can be 
done in this Congress on the subject.

  STATEMENT OF ALEXANDER KARSNER, ASSISTANT SECRETARY, ENERGY 
     EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Mr. Karsner. Thank you, sir. Mr. Chairman and members of 
the committee, thank you for the opportunity to appear before 
you today to discuss the Department's work on energy efficient 
lighting technologies and provide comments on S. 2017, the 
Energy Efficient Lighting for a Brighter Tomorrow Act. Before I 
begin, sir, I'd like to introduce to my left, Deputy Assistant 
Secretary for Energy Efficiency, David Rodgers, and appreciate 
him being able to join me at the witness table, in the event 
that we have any technical questions that we need to be 
responsive to, given the highly technical nature of the 
testimony.
    While the Administration has not had the opportunity to 
coordinate all interagency views on the legislation, I'm happy 
to provide you with some preliminary comments this morning. The 
Department strongly agrees with the essence and overall goal of 
S. 2017, which would increase efficiency levels for lighting 
and provide significant energy savings for our nation. But we 
also have some concerns related to the schedule and timelines, 
which I have elaborated on in my written testimony.
    The Department looks forward to working closely with the 
committee to resolve any outstanding concerns. DOE's Building 
Technologies Program is presently working on efficacy appliance 
standards for general service incandescent lamps, general 
service incandescent reflector lamps and fluorescent lamps, as 
was required by the Energy Policy Act of 2005 and consistent 
with our published time table. The Department, as always, is 
willing to share technical analysis to inform the ongoing 
discussions amongst industry members and other stakeholders on 
voluntary consensus standards.
    Our Building Technologies Program is focused on rapid 
deployment and market penetration of compact fluorescent 
lighting, as well as significant technological breakthroughs 
for solid-state lightings and LEDs. Compact fluorescent lamps, 
CFLs, can easily replace most general service incandescent 
bulbs, saving up to 75 percent of the initial lighting energy. 
Although CFLs are priced marginally higher today than 
comparable incandescent bulbs, they last 8,000 to 15,000 hours, 
up to 10 times longer than incandescent bulbs. If every home in 
America replaced just one incandescent light bulb with an 
Energy Star-qualified CFL, the Nation would save enough energy 
to light more than 3 million homes annually.
    In order to encourage adoption of technologies like CFLs, 
DOE announced on June 14, that it has teamed up, for the first 
time ever, with the Walt Disney Corporation in a nationwide 
campaign to promote energy efficiency through a TV spot and 
other media, based on the Disney Pixar film, Ratatouille. The 
30-second animated spot was showcased nationwide during 
primetime viewing hours, and has reached more than 117 million 
households thus far, through several different--several 
familiar targeted, segmented networks, including CNN, HGTV, The 
Food Network, The DIY Channel, even appearing during NBC's 
``Meet the Press.''
    Mr. Chairman, with your permission, I'd like to show the 
committee this public service announcement, as an example of 
DOE's unprecedented efforts at outreach for multigenerational 
education and communication. I'm sure the Disney Corporation 
will be happy to have that on the record.
    [Laughter.]
    Mr. Karsner. Additionally, DOE created and produced 
education posters in conjunction with the campaign, that are 
included in the upcoming DVD release, with a projected 
distribution of 10 million units. The animated video spot and 
campaign poster are available online and at the Department of 
Energy's Web site, and will be refreshed regularly with 
contemporary media as new campaigns are available.
    Another prominent example of DOE's education efforts was 
mentioned in Congresswoman Harman's testimony, the 18second.org 
campaign, which engages the artistic, creative, and 
entertainment community to join together with the Federal 
Government in a multigenerational effort to go beyond preaching 
to the converted segment of our population and create an 
enduring campaign to promote energy efficiency through 
lighting. Based on this premise, that it takes the consumer 
only 18 seconds to change a bulb, the campaign partners with 
Yahoo and the A.C. Nielsen Company, using new media to put 
consumer efficiency decisions on par with our national 
campaigns earlier, that have been such a success to fight 
pollution in the 1970s, drug use in the 1980s, and antismoking 
campaign efforts today.
    The Web site, www.18seconds.org, allows consumers to enter 
their zip code and immediately learn how many CFLs have been 
purchased, accurately, in their statistical area and the 
economic, energy, and environmental benefits that are available 
to them, where they live, on a contemporaneous basis.
    Turning now to the future of lighting, DOE is working to 
advance efficient white-light sources for general illumination 
using solid-state lighting, which differs very fundamentally 
from today's lighting technologies. DOE partners with research 
from industry, academia, and our National Laboratories to 
accelerate advances in solid-state lighting. These researchers 
have made dramatic progress in just the last few years, 
achieving world records as well as national and international 
recognition.
    Since 2000, DOE funded SSL research projects have thus far 
applied for more than 64 patents. DOE's goal for general 
illumination SSL is 200 lumens per watt, more than double the 
efficacy of today's best fluorescent lamps, by 2025. This year, 
DOE and its partners announced a breakthrough laboratory 
performance of 79 lumens per watt, surpassing CFL's white-light 
performance for the first time.
    To ensure the investments in core technology research lead 
to SSL market penetration, DOE has developed a national 
strategy to guide market introduction, working with 
approximately 150 partner organizations. As part of that 
national strategy, the Department is leading Energy Star 
management, specification development, and partner relations 
for SSL devices using general illumination.
    In December 2006, DOE released draft SSL Energy Star 
criteria. Following public review and comment periods, DOE 
issued a second draft criteria in April 2007. Mr. Chairman, I 
am pleased to report today, that the final criteria for Energy 
Star SSL have been approved just this morning and will be 
released later today.
    As I have indicated, we at the Department are focused on 
advancing technical, commercial, and consumer outreach efforts 
on lighting. But I want to stress that lighting alone is not 
sufficient to address our urgent energy security needs. In 
fact, I encourage the committee to continue and strengthen its 
focus on comprehensive energy efficiency management efforts to 
radically transform the built environment.
    DOE has begun a historic and important transformation of 
its own in this respect. On August 8, Secretary Bodman launched 
the Transformational Energy Action Management Initiative, 
better known as TEAM, a Department-wide effort aimed at, 
amongst other things, reducing the energy intensity across the 
DOE's national complex and assets by at least 30 percent. This 
initiative will meet or exceed and lead with all energy 
efficiency goals mandated by the Energy Policy Act of 2005, as 
well as President Bush's Executive Order 13423 announced in 
January of this year.
    The TEAM initiative adopts an even more ambitious timeline 
than has been required by the Executive Order. It establishes, 
for the first time, a model of aggregated demand pull by the 
Federal Government. Upgraded efficient lighting, including 
advanced fluorescents, solid-state lighting controls, day-
lighting, and integrated systems are requisite and one of the 
most cost-effective options for achieving the TEAM initiative, 
both in DOE and across the Federal Government.
    Secretary Bodman expects the Department to lead by example 
throughout the Federal Government, deploying immediately a wide 
variety of lighting and other advanced technologies to achieve 
maximum energy savings. The Secretary's TEAM initiative is 
bold, and similarly, as Congress looks to green its Capitol 
complex, we have been pleased to provide the technical support 
and will continue to extend the information and periodic 
updates to this committee on all these efforts and actions.
    I would like to conclude by thanking this committee for its 
commitment to improving energy--and prioritizing--energy 
efficiency. The Administration is committed to diversifying our 
Nation's energy portfolio, and efficiency gains, particularly 
within lighting, are the most easily accessible, abundant, and 
affordable new energy.
    The Department looks forward to working with this committee 
to resolve the technical aspects of S. 2017 and to continue 
advancing the state-of-the-art in lighting technologies.
    Mr. Chairman, this concludes my prepared statement and I'd 
be happy to ask--answer any questions the committee may have.
    [The prepared statement of Mr. Karsner follows:]
 Prepared Statement of Alexander Karsner, Assistant Secretary, Energy 
         Efficiency and Renewable Energy, Department of Energy
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the Department's work 
on energy efficient lighting technologies, and to provide comments on 
S. 2017, the Energy Efficient Lighting for a Brighter Tomorrow Act. 
While the Administration has not had the opportunity to coordinate all 
interagency views on the legislation, I am happy to provide you with 
some preliminary comments.
    The Department generally agrees with the overall goal of S. 2017, 
which would increase efficiency levels for lighting and provide 
significant energy savings for our nation. DOE is presently working on 
standards for General Service Incandescent Lamps, General Service 
Incandescent Reflector Lamps and Fluorescent Lamps. These activities 
are included in the January 31, 2006 report to Congress and are covered 
by the Consent Decree requirements for appliance standards.\1\ The 
analyses that DOE is performing will reveal both technical improvement 
opportunities and potential economic impacts for manufacturers and 
consumers. The Department, as always, is willing to share our technical 
analysis to help inform on-going discussions among industry members and 
other stakeholders on voluntary consensus standards.
---------------------------------------------------------------------------
    \1\ The Consent Decree was filed in the Southern District of New 
York to settle the consolidated cases, State of New York, et al. v. 
Bodman and Natural Resources Defense Council, Inc. v. Bodman, which 
claimed that DOE missed statutory deadlines for rulemakings on 
appliance efficiency standards.
---------------------------------------------------------------------------
    In Section 101, the efficacy standards in the legislation are 
aggressive, and may require that manufacturers convert their 
incandescent production lines to halogen capsule/infrared coated lamps 
requiring substantial capital investment and cost increases to the 
consumer. The Department also has concerns with the schedule in section 
101 for issuing standards. First the time allotted is not sufficient to 
accomplish the required activities. Secondly, the timing of a follow-up 
standard would not provide DOE, or the markets, time to gain sufficient 
experience and understanding of the previous standard. Since there 
would be very limited knowledge derived through implementation of the 
first standard, the second standard could be locked into the same 
technologies or efficiency levels as the standard just put into place.
    In Section 107, DOE is concerned that Congress is directing $60 
million of R&D investment into ``general service lamps'', a term that 
is not defined in the draft legislation. DOE recommends that this R&D 
program be authorized for a range of lighting technologies, not 
exclusively incandescent technologies.
    Our Building Technologies Program is focused on rapid deployment 
and market penetration of compact fluorescent lighting, technological 
breakthroughs for solid-state lighting, and long-term research into 
next generation lighting. In addition, the Department is conducting 
national publicity campaigns to encourage consumer adoption of energy 
efficient technologies.
                      compact fluorescent lighting
    Compact fluorescent lamps (CFLs) combine the energy efficiency of 
fluorescent lighting with the convenience and popularity of 
incandescent fixtures. CFLs can easily replace most incandescent bulbs, 
saving up to 75% of the initial lighting energy. Although CFLs cost 
more initially than comparable incandescent bulbs, they last 6,000-
15,000 hours, up to 10 times longer than incandescent bulbs. Lighting 
accounts for approximately 12 percent of the average home's electricity 
bill. If every home in America replaced just one incandescent light 
bulb withan ENERGY STAR-qualified CFL, the Nation would save enough 
energy to light more than 3 million homes annually. That's $600 million 
in annual energy cost savings, and a reduction in greenhouse gas 
emissions equivalent to taking 800,000 cars off the road. Industry and 
civic leaders have recognized this cost-effective appeal, and annually 
join the Department's continuous efforts to educate and energize the 
general public through efforts such as October's Change a Light, Change 
the World program. In addition, we have worked closely this year with 
Wal-Mart and other major national and local retailers to launch 
significant outreach campaigns that have improved store layouts to 
promote CFL sales and recycling.
    One prominent example of DOE's education efforts is the 
18seconds.org campaign, which engages the artistic, creative, and 
entertainment industry in a national, multi-generational effort to go 
beyond preaching to the converted and create an enduring educational 
campaign to promote energy efficiency through lighting. Based on the 
premise that it takes a consumer only 18 seconds to change a light 
bulb, the campaign partners with Yahoo and A.C. Nielson to elevate the 
prominence of energy efficiency, using new media to put consumer 
efficiency decisions on par with national efforts to reduce pollution 
in the 1970s, drug use in the 1980s, and smoking today. The website, 
www.18seconds.org, allows consumers to enter a zip code and immediately 
learn how many CFLs have been purchased in the area, and the economic, 
energy, and environmental benefits of that activity.
    In order to further encourage consumer adoption of energy efficient 
technologies like CFLs, the Department has recently embarked upon an 
innovative partnership with the Walt Disney Corporation. DOE announced 
on June 14th that it has teamed up with Disney in a nationwide campaign 
to promote energy efficiency through a TV spot based on the 
Disney<bullet>Pixar film ``Ratatouille.'' The 30-second animated spot 
features the characters from the movie, and urges viewers to make the 
switch from incandescent bulbs to ENERGY STAR compact fluorescent 
lights. The spot, showcased nationwide during primetime viewing hours, 
reached more than 117 million households between June 15 and August 15, 
2007, through networks including HGTV, Food Network and DIY.
    Additionally, DOE created and produced posters using the main 
animation character, Remy, holding a CFL with the message, ``Saving 
energy is easy. Make the switch today.'' The posters were distributed 
to state energy offices and will also be distributed to embassies. They 
are also available upon request through the EERE Resource Center. The 
poster is currently being translated into Chinese, Russian, French, 
Spanish and Arabic.
    DOE is sponsoring a second round of public service announcements 
for national television network distribution for the fall DVD rollout. 
This additional advertising will air in October/November. In addition, 
the DOE--Disney CFL poster will be included in the DVD booklet with a 
projected distribution of 10 million units. The video spot and campaign 
poster are available online at the Department's website 
(www.energy.gov).
                          solid state lighting
    DOE is working to advance the development and market introduction 
of energy-efficient white-light sources for general illumination using 
solid-state lighting (SSL), which differs fundamentally from today's 
lighting technologies. DOE has developed a coordinated approach that 
guides technology advances from laboratory to marketplace by breaking 
out efforts into the following activities: Basic Energy Science, Core 
Technology Research, Product Development, Commercialization Support, 
Standards Development, and an SSL Partnership (competitively selected 
in 2005, the Next Generation Lighting Industry Alliance).
    DOE partners with leading researchers from industry, academia, and 
national laboratories to accelerate advances in solid-state lighting. 
These researchers have made dramatic progress in just a few years, 
achieving several world records as well as national recognition. Since 
2000, DOE-funded SSL research projects have applied for a total of 64 
patents. DOE's goal is for general illumination SSL at 200 lumen/Watt, 
double the efficacy of today's best fluorescent lamps, by 2025. This 
year, DOE and its partners announced a breakthrough laboratory 
performance of 79 lumens/watt.
    Collaborative, cost-shared, competitively-selected DOE R&D projects 
combine the technical resources of premier research institutions and 
national laboratories with the product development, manufacturing, and 
commercialization expertise of industry leaders. DOE invests in 
research projects that target the needed improvements in price, 
performance, and manufacturability to speed SSL technologies to market. 
The investments in research and development have led to major 
technological breakthroughs, including record brightness and efficacy 
levels for white light emitting diodes, as well as significant 
fabrication and packing advances. About 55 R&D projects are now in 
progress.
    To ensure that DOE investments in core technology research and 
product development lead to SSL market penetration, DOE has developed a 
national strategy to guide market introduction of SSL for general 
illumination, including ENERGY STAR labeling for SSL technologies and 
products, Lighting for Tomorrow design competition, LED product 
testing, standards and test procedures development, product 
demonstrations in buildings, and Fact Sheets for those who desire to 
learn the trade. The Department has about 150 partner organizations 
involved in our commercialization support activities.
    The ENERGY STAR label is a highly valued and widely recognized 
mark of energy efficiency that helps guide the American public to 
select cost-effective, energy-efficient products. The ENERGY STAR 
program is jointly managed by the Department of Energy and the 
Environmental Protection Agency, with each agency taking the lead on a 
specific set of technologies.
    As part of DOE's national strategy to accelerate market 
introduction of high efficiency SSL products, the Department is leading 
ENERGY STAR management, specification development, and partner 
relations for SSL devices used for general illumination. The 
Department's ENERGY STAR strategy for SSL general illumination 
products establishes a transitional two-category approach. Category A 
addresses near-term applications, where SSL technology can be 
appropriately applied. Category B establishes efficacy targets for a 
wider range of future applications, which will take effect once solid-
state lighting technology is more mature. Eventually, Category A will 
be dropped, and category B will become the sole basis for the ENERGY 
STAR criteria.
    In December 2006, DOE released draft ENERGY STAR criteria for SSL 
luminaires intended for general illumination. Following public review 
and comment, DOE issued second draft criteria in April 2007. The 
Department anticipates releasing final criteria shortly.
    In addition, the Department is partnering with the Consortium for 
Energy Efficiency and American Lighting Association to challenge 
designers to develop high quality lighting fixtures that take advantage 
of the unique advantages of SSL through the Lighting for Tomorrow 
Competition. In 2006, eight SSL products were selected for recognition 
and we have the 2007 competition in progress.
                            team initiative
    As I have indicated, we at the Department are focused on advancing 
the technical, commercial, and consumer outreach efforts on lighting. 
But I want stress that lighting alone is not sufficient to address our 
urgent energy security needs and the market penetration of new energy 
efficiency technologies. In fact, I encourage the Committee to think 
about comprehensive energy management efforts to radically transform 
the built environment.
    DOE has begun an historic and very important transformation of its 
own. On August 8, 2007, Secretary Bodman launched the Transformational 
Energy Action Management (TEAM) Initiative, a Department-wide effort 
aimed at, among other things, reducing energy intensity across the 
national DOE complex by 30 percent. The TEAM Initiative aims to have 
the Department of Energy lead, meet or exceed the aggressive goals 
established by the President for increasing energy efficiency 
throughout the federal government. Reducing energy intensity by 30 
percent across the DOE complex will save millions in taxpayer dollars 
per year, after projects are paid for.
    This Initiative will meet or exceed energy efficiency goals 
mandated by the EPACT 2005, as well as President Bush's Executive Order 
13423, announced in January 2007. The Executive Order directs federal 
agencies to: reduce energy intensity and associated greenhouse gas 
emissions; substantially increase use and efficiency of renewable 
energy technologies; adopt sustainable design practices; and reduce 
petroleum use in Federal fleets. The TEAM Initiative adopts an even 
more ambitious timeline than required in the Executive Order.
    The Secretary has instructed all DOE sites to host private sector 
energy service companies to assess efficiency opportunities across the 
complex, addressing all lifecycle, cost-competitive options. Lighting, 
including advanced fluorescents, solid state lighting, controls, 
daylighting, and integrated systems are easily one of the most cost-
effective options for achieving the TEAM initiative targets. Secretary 
Bodman expects the Department to lead by example throughout the Federal 
Government, deploying a wide variety of lighting and other advanced 
technologies to achieve maximum energy savings.
    The important information that I want to leave with you about the 
TEAM Initiative is that we are NOT stopping with the issue of lighting. 
We're looking at every DOE site, every building, and expecting every 
DOE site, primarily through the use of alternative financing through 
the private sector, to deploy ALL cost-effective energy efficient and 
renewable technologies in the service of obtaining state-of-the-art and 
sustainable results for DOE and to demonstrate these best practices for 
the rest of the Federal government.
    Even with the best lighting improvements, if we did not take 
advantage of those opportunities by pairing them with other energy 
conservation measures, we would not be maximizing the energy savings 
potential of these technologies. For example, heating and cooling 
systems in a building must account for the reduced heating and cooling 
load of new lighting technologies. The savings we are looking for at 
the scale needed to make a dent in our energy use cannot be 
accomplished with only one technology. Buildings are systems and we 
must view them holistically to get the desired results. Energy Saving 
Performance Contracting--established by Congress and endorsed 
repeatedly by this Committee--is the key to our success.
    The Secretary's TEAM Initiative is bold and, as Congress looks to 
``green'' the Capitol Complex, I would be pleased to provide additional 
information and periodic updates to this Committee on our efforts and 
actions. As a first step, the Department is working with an energy 
savings performance contractor to transform its headquarters buildings 
into showcases of energy efficiency and advanced technology. In that 
ESPC, we will showcase the lighting technologies I have discussed in my 
testimony. We will deploy advanced technologies in different locations 
throughout the headquarters complex so that we can learn, while also 
demonstrating how these major improvements can benefit our economy and 
environment.
                               conclusion
    I would like to conclude by thanking the Committee for its 
commitment to improving energy efficiency in so many ways. The 
Administration is committed to diversifying our nation's energy 
portfolio, and efficiency gains are the most easily accessible source 
of ``new energy.'' Increasing the market penetration of efficient 
consumer products provides a very effective step toward reducing energy 
intensity and helping ensure a sustainable energy future. We must focus 
on these technologies and how they fit into the transformation of the 
entire built environment to get the best results. The Department looks 
forward to working with this Committee to resolve technical aspects of 
S. 2017 and to continue advancing the state of the art in lighting 
technologies.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions the Committee Members may have.

    The Chairman. Thank you very much for your testimony. I 
guess one question that occurs to me, is I notice on the first 
page of your testimony here, you say that the Department has 
concerns with the schedule, in Section 101--this is referring 
to the bill that we introduced--schedule in Section 101 for 
issuing standards. Then you go on to say, ``First, the time 
allotted is not sufficient to accomplish the required activity. 
Second, the timing of a follow-up standard would not provide 
DOE or the markets time to gain sufficient experience and 
understanding of the previous standard.'' Maybe you could 
elaborate on that somewhat. What we've tried to do is to come 
up with a standard that we thought industry could meet. I guess 
your conclusion is that we've come up with something they can't 
meet. Is that right?
    Mr. Karsner. Not precisely, sir. It's really not a question 
of what the industry can meet and by when, so much as the, our 
capacity to adhere to the statutory requirements in issuing the 
rules. The statutory requirements demand X amount of data and 
experience when a new rule is published, that then feeds into 
the process for another rule. So, since the legislation, I 
think, contemplates multiple rules over a period of time, it is 
really the spacing in between the process of the rulemaking 
that is the primary concern.
    The Chairman. My sort of layman's approach on this is that, 
what we've done in the legislation is we really imposed backup 
standards. We basically say, ``You shall go ahead and issue 
standards at various points, but to the extent that they are 
not issued, then we legislate what those standards are.'' Is it 
your view that what we are legislating is objectionable--the 
substance of it is objectionable or that the process ought to 
be, to let you folks issue the standards and to give you more 
time to do so?
    Mr. Karsner. I think it's definitely substantially more a 
procedural concern than it is a substantive concern, relative 
to the technology.
    The Chairman. Obviously, I would favor having you folks 
issue the standards, but at the same time, I would favor 
getting the standards in place at the earliest possible date in 
order to get the energy savings that are the result of that. I 
know you've been working hard to address this backlog of 
overdue efficiency standards and you referred to one of those 
in your direct testimony. Could you give a little more 
information on the status of these, this backlog that exists in 
the regulation or the promulgation of these regulations or 
standards?
    Mr. Karsner. Now you're inquiring beyond lighting I 
presume?
    The Chairman. Yes, lighting specifically, but beyond 
lighting also.
    Mr. Karsner. Beyond lighting, I'm pleased to report, sir, 
since you first admonished me during my Senate hearing for 
confirmation on this, we have been able to live up to our 
commitment and have met all of our scheduled timelines, that 
were earlier published. We anticipate that we have the 
management systems in place now and priority, that we should be 
able to maintain the published time table that was agreed and 
confirmed by court order. So, that is the current status. I'd 
be delighted to follow-up, also for the record, on any 
particular of those appliance standards, as they are moving.
    [The information follows:]

    The chart below provides an overview of the status of current 
rulemaking activity for energy efficiency standards under way in the 
Department of Energy's (DOE) Office of Energy Efficiency and Renewable 
Energy.


----------------------------------------------------------------------------------------------------------------
                                                                      Report on Status of Rulemaking Activity
                                Type of Rule      Deadline to                    November 20, 2007
       Product  Category            to be       Publish  Final   -----------------------------------------------
                                  Completed          Rule                        Rulemaking Status
----------------------------------------------------------------------------------------------------------------
Room air conditioners           Second                  6/30/11   DOE has initiated the rulemaking for room air
                                 amended                               conditioners during the first quarter of
                                 energy                                      fiscal year 2008. DOE published an
                                 efficiency                             announcement of the availability of the
                                 standard                         framework document in the Federal Register at
                                                                        72FR57254 (October 9, 2007). The public
                                                                      meeting to receive initial comment on the
                                                                     framework document was held on October 24,
                                                                     2007. The final rule with regard to energy
                                                                            conservation standards for room air
                                                                  conditioners remains on schedule for June 30,
                                                                                                           2011
----------------------------------------------------------------------------------------------------------------
Central air conditioners and    Second                  6/30/11   DOE plans to initiate the standards rulemaking
 heat pumps                      amended                           for residential central air conditioners and
                                 energy                           heat pumps during the second quarter of fiscal
                                 efficiency                       year 2008. The final rule remains on schedule
                                 standard                                                     for June 30, 2011
----------------------------------------------------------------------------------------------------------------
Water heaters                   Second                  3/31/10        With reference to these heating products
                                 amended                          (water heaters, direct heating equipment, and
                                 energy                            pool heaters), DOE published an announcement
                                 efficiency                       of the availability of the framework document
                                 standard                         in the Federal Register at 71FR67825 (November
                                                                       24, 2006). The public meeting to receive
                                                                  initial comment on the framework document was
                                                                    held on January 16, 2007. DOE is performing
                                                                  the market assessment and engineering analysis
                                                                    work necessary to prepare for the ANOPR and
                                                                    remains on schedule for issuance of a final
                                                                             rule not later than March 31, 2010
Pool heaters                    First                   3/31/10
                                 amended
                                 energy
                                 efficiency
                                 standard
Direct heating equipment        First                   3/31/10
                                 amended
                                 energy
                                 efficiency
                                 standard
----------------------------------------------------------------------------------------------------------------
Furnaces and boilers            First                   9/30/07    DOE issued the Notice of Proposed Rulemaking
 (including mobile home          amended                            (NOPR) standard for furnaces and boilers on
 furnaces and small furnaces)    energy                           September 25, 2006 which was published in the
                                 efficiency                           Federal Register at 71FR59204 (October 6,
                                 standard                              2006). On February 2, 2007, DOE issued a
                                 for all                                  notice of data availability (NODA) to
                                 products                          requestcomment on a more detailed discussion
                                                                      of data, and that appeared in the Federal
                                                                    Register at 72FR6184 (February 9, 2007). On
                                                                   August 3, 2007, DOE moved the Court pursuant
                                                                   to Section V of the Consent Decree to modify
                                                                  the schedule applicable to the final rule for
                                                                     furnaces and boilers. The motion requested
                                                                    that the existing deadline be extended nine
                                                                       months (until June 30, 2008) in order to
                                                                     enable DOE to develop a more comprehensive
                                                                     rule. Due to unforeseen circumstances, the
                                                                   Court issued an order on September 25, 2007,
                                                                     for a temporary administrative stay of the
                                                                  September 30 deadline. The deadline was stayed
                                                                    until seven calendar days after the date on
                                                                  which the Court enters an order resolving the
                                                                    motion to modify the deadline. If the Court
                                                                      were not to enter an order resolving that
                                                                      motion on or before November 1, 2007, DOE
                                                                    would be required either to issue the final
                                                                  rule pertaining to furnaces and boilers or to
                                                                       seek further modification of the Consent
                                                                    Decree or other appropriate relief from the
                                                                  Court. On November 1, 2007, the Court entered
                                                                  an order denying DOE's motion for modification
                                                                     of the consent decree and requiring DOE to
                                                                      issue the furnaces and boilers final rule
                                                                     within seven calendar days. DOE issued the
                                                                         final rule for furnaces and boilers on
                                                                   November 8, 2007, which was published in the
                                                                    Federal Register at 72FR65136 (November 19,
                                                                                                          2007)
----------------------------------------------------------------------------------------------------------------
Dishwashers                     Second                  3/31/09    The final rule regarding energy conservation
                                 amended                          standards for dishwashers, ranges and ovens is
                                 energy                               scheduled for March 31, 2009. The Advance
                                 efficiency                           Notice of Proposed Rulemaking (ANOPR) was
                                 standard                         published in the Federal Register at 72FR64432
                                                                  (November 15, 2007). The final rule remains on
                                                                  schedule for issuance not later than March 31,
                                                                                                           2009
----------------------------------------------------------------------------------------------------------------
Clothes dryers                  Second                  6/30/11     The Department has initiated the rulemaking
                                 amended                          for clothes dryers during the first quarter of
                                 energy                                      fiscal year 2008. DOE published an
                                 efficiency                             announcement of the availability of the
                                 standard                         framework document in the Federal Register at
                                                                        72FR57254 (October 9, 2007). The public
                                                                      meeting to receive initial comment on the
                                                                     framework document was held on October 24,
                                                                        2007. The final rule for clothes dryers
                                                                          remains on schedule for June 30, 2011
----------------------------------------------------------------------------------------------------------------
Fluorescent lamp ballasts       Second                  6/30/11   DOE plans to initiate the standards rulemaking
                                 amended                          for fluorescent lamp ballasts during the first
                                 energy                             quarter of fiscal year 2008. The final rule
                                 efficiency                          for these products remains on schedule for
                                 standard                                                         June 30, 2011
----------------------------------------------------------------------------------------------------------------
Ranges and ovens                First                   3/31/09    The final rule regarding energy conservation
                                 amended                          standards for dishwashers, ranges and ovens is
                                 energy                               scheduled for March 31, 2009. The Advance
                                 efficiency                           Notice of Proposed Rulemaking (ANOPR) was
                                 standard                         published in the Federal Register at 72FR64432
                                 for gas                          (November 15, 2007). The final rule remains on
                                 products/                        schedule for issuance not later than March 31,
                                 Second                                                                    2009
                                 amended
                                 efficiency
                                 standard
                                 for
                                 electric
                                 products
Fluorescent lamps               First                   6/30/09
                                 amended
                                 energy
                                 efficiency
                                 standard
Incandescent reflector lamps    First                   6/30/09
                                 amended
                                 energy
                                 efficiency
                                 standard
----------------------------------------------------------------------------------------------------------------
Additional fluorescent and      Initial                 6/30/09    The final rule regarding energy conservation
 incandescent lamps              energy                           standards for three broad categories of lamps
                                 efficiency                              is scheduled for June 30, 2009. DOE is
                                 standard                           reviewing the ANOPR and remains on schedule
                                                                    for issuance of a final rule not later than
                                                                                                  June 30, 2009
----------------------------------------------------------------------------------------------------------------
Packaged terminal air           Final action            9/30/08    The final rule regarding energy conservation
 conditioners and heat pumps     with                                       standards for packaged terminal air
                                 respect to                       conditioners and heat pumps is on schedule to
                                 the                              be issued by September 30, 2008. On March 13,
                                 rulemaking                       2006, DOE published in the Federal Register a
                                 duty that                          Notice of Availability (NOA) announcing the
                                 the                               availability of a technical support document
                                 Plaintiffs                            (TSD) that DOE was using in re-assessing
                                 claim was                                whether to adopt, as uniform national
                                 triggered                            standards, amendments to the ASHRAE/IESNA
                                 by the 1999                            Standard 90.1-1999 for certain types of
                                 amendment                         commercial equipment. 71FR12634. In the NOA,
                                 to ASHRAE                         DOE stated that it was inclined to seek more
                                 Standard                         stringent standard levels than the efficiency
                                 90.1                             levels in ASHRAE/IESNA Standard 90.1-1999 for
                                                                  PTACs and PTHPs through a separate rulemaking.
                                                                      71FR12634, 12639 (March 13, 2006). DOE is
                                                                    completing review of the notice of proposed
                                                                         rulemaking and remains on schedule for
                                                                        issuance of a final rule not later than
                                                                                             September 30, 2008
----------------------------------------------------------------------------------------------------------------
Packaged boilers                Final action            2/28/07         DOE took the required final action with
                                 with                               respect to packaged boilers on February 28,
                                 respect to                              2007, and that appeared in the Federal
                                 the actions                              Register at 72FR10038 (March 7, 2007)
                                 described
                                 for these
                                 products in
                                 71 Fed Reg.
                                 12634,
                                 12637-68 &
                                 Table 1.4
                                 (March 13,
                                 2006)
----------------------------------------------------------------------------------------------------------------
Instantaneous water heaters     Final action            2/28/07         DOE took the required final action with
                                 with                                  respect to gas fired instantaneous water
                                 respect to                              heaters on February 28, 2007, and that
                                 the actions                      appeared in the Federal Register at 72FR10038
                                 described                                                      (March 7, 2007)
                                 for these
                                 products in
                                 71 Fed Reg.
                                 12634,
                                 12637-68 &
                                 Table 1.4
                                 (March 13,
                                 2006)
----------------------------------------------------------------------------------------------------------------
Motors (1 to 200 hp)            First                   6/30/11       The final rule for a motors (1 to 200 HP)
                                 amended                                energy conservation standard remains on
                                 energy                             schedule to be published no later than June
                                 efficiency                                                            30, 2011
                                 standard
----------------------------------------------------------------------------------------------------------------
High intensity discharge lamps  Determinatio            6/30/10   DOE is currently undertaking analyses for the
                                 ns(s)                            HID determination. DOE is on track to publish
                                                                  this notice of determination by June 30, 2010
----------------------------------------------------------------------------------------------------------------
Electric distribution           Energy                  9/30/07         DOE took the required final action with
 transformers                    efficiency                             respect to distribution transformers on
                                 standard                          September 28, 2007, and that appeared in the
                                                                  Federal Register at 72FR58190 (Oct. 12, 2007)
----------------------------------------------------------------------------------------------------------------
Small motors                    Test                    6/30/09     DOE issued a positive determination on June
                                 Procedure                        2006 that appeared in the Federal Register at
                                                                   71FR38799 (July 10, 2006) and then initiated
                                                                   an energy conservation standards rulemaking,
                                                                    along with a test procedure rulemaking. DOE
                                                                  published an announcement of the availability
                                                                  of the energy conservation standard framework
                                                                  document in the Federal Register at 72FR44990
                                                                  (August 10, 2007). A public meeting to discuss
                                                                   the framework document was held on September
                                                                          13, 2007. The final rule for the test
                                                                        procedure rulemaking is on schedule for
                                                                      issuance no later than June 30, 2009. The
                                                                     final rule for the rulemaking establishing
                                                                  energy conservation standards for small motors
                                                                      is on schedule for issuance no later than
                                                                                              February 28, 2010
----------------------------------------------------------------------------------------------------------------
Dehumidifiers (residential)     Efficiency              3/31/09       The Advance Notice of Proposed Rulemaking
                                 Standard                         (ANOPR) was published in the Federal Register
                                                                    at 72FR64432 (November 15, 2007). The final
                                                                   rule regarding energy conservation standards
                                                                      for dehumidifiers remains on schedule for
                                                                                                 March 31, 2009
----------------------------------------------------------------------------------------------------------------
Clothes Washers (commercial)    Efficiency              3/31/09       The Advance Notice of Proposed Rulemaking
                                 Standard                         (ANOPR) was published in the Federal Register
                                                                    at 72FR64432 (November 15, 2007). The final
                                                                   rule regarding energy conservation standards
                                                                      for commercial clothes washers remains on
                                                                                    schedule for March 31, 2009
----------------------------------------------------------------------------------------------------------------
Small Motors                    Determinatio            6/30/06     DOE issued a positive determination in June
                                 n                                2006 that appeared in the Federal Register at
                                                                      71FR38799 (July 10, 2006). This initiated
                                                                          DOE's rulemaking for the Small Motors
                                                                                            efficiency standard
----------------------------------------------------------------------------------------------------------------
Distribution Transformers       Test                    4/30/06   DOE completed the rulemaking and published the
                                 Procedure                                final rule in the Federal Register at
                                                                                     71FR24972 (April 27, 2006)
----------------------------------------------------------------------------------------------------------------
Ceiling Fan Light Kits          Efficiency              1/31/07   DOE adopted the efficiency standards proposed
                                 Standard                                 in EPACT 2005 and published the final
                                                                  rulemaking in the Federal Register at 72FR1270
                                                                                             (January 11, 2007)
----------------------------------------------------------------------------------------------------------------
Central Air Conditioners and    Test                    9/30/07   DOE issued the final rule September 28, 2007,
 Heat Pumps                      Procedure                        which was published in the Federal Register at
                                                                                   72FR59906 (October 22, 2007)
----------------------------------------------------------------------------------------------------------------
Refrigerated Beverage Vending   Efficiency              8/31/09    DOE is on schedule to publish the final rule
 Machines                        Standard                         for refrigerated beverage vending machines in
                                                                                                    August 2009
----------------------------------------------------------------------------------------------------------------
Commercial Refrigeration        Efficiency              1/31/09          DOE published the ANOPR in the Federal
 Equipment                       Standard                         Register at 72FR41162 (July 26, 2007). DOE is
                                                                  on schedule to issue the final rule by January
                                                                                                       31, 2009
----------------------------------------------------------------------------------------------------------------
Commercial Refrigeration        Test                    1/31/08   DOE completed the rulemaking and published the
 Equipment                       Procedure                                final rule in the Federal Register at
                                                                                   71FR71340 (December 8, 2006)
----------------------------------------------------------------------------------------------------------------
Automatic Ice Makers            Efficiency              1/31/15   DOE plans to initiate this rulemaking in 2011
 (commercial)                    Standard
----------------------------------------------------------------------------------------------------------------
Battery Chargers and External   Determinatio            8/31/08   DOE is on schedule to issue the final rule by
 Power Supplies                  n                                                              August 31, 2008
----------------------------------------------------------------------------------------------------------------
Battery Chargers and External   Efficiency      To be scheduled   This Standard is contingent upon DOE making a
 Power Supplies                  Standard           following a        positive determination on these products
                                                       positive
                                                  determination
----------------------------------------------------------------------------------------------------------------
Battery Chargers and External   Test                    2/28/07   DOE completed the rulemaking and published the
 Power Supplies                  Procedure                                final rule in the Federal Register at
                                                                                   71FR71340 (December 8, 2006)
----------------------------------------------------------------------------------------------------------------
Test procedures for eleven      Test                   11/30/06   DOE completed the rulemaking and published the
 other products                  Procedure                                final rule in the Federal Register at
                                                                                   71FR71340 (December 8, 2006)
----------------------------------------------------------------------------------------------------------------


    With regard to the lighting, we are presently internally in 
a concurrence process to publish an advanced notice of proposed 
rulemaking for the scheduled lighting, which is due in 2009, 
the scheduled date for the lighting.
    The Chairman. How does that relate to what we have proposed 
in this legislation?
    Mr. Karsner. What I would say, is that the legislation 
would create a new baseline of performance going into that 
rulemaking, but it would not preclude that rule from--if the 
inputs that were, in fact, technological feasible and 
economically justifiable--it would not preclude those standards 
necessarily for being higher in a published Federal rulemaking 
process. But it would certainly add a new baseline of minimum 
performance.
    The Chairman. So it would add a new baseline and it would 
also provide a backup if the deadlines set out in the 
legislation were not met. Is that accurate or not?
    Mr. Karsner. I'm not sure if that is accurate, with regard 
to the first round of proposed rulemaking due out in 2009. I 
know that is what occurs, according to the legislation, with 
regard to the latter years of----
    The Chairman. Right.
    Mr. Karsner [continuing]. 2020, 2025.
    The Chairman. OK.
    Let me defer to Senator Salazar for any questions he has.
    Senator Salazar. Thank you very much, Senator Bingaman and 
thank you very much Andy Karsner for your great work on energy 
issues, especially in this arena of conservation.
    You know, for me, I was thinking about this hearing last 
night as I was preparing for it and reading the materials. I 
grew up in a household that didn't have electricity, and so our 
electricity was, or our lights in our house at night were the 
kerosene lamps. I still remember when, in 1981, the public 
service company of Colorado then extended their power lines out 
to the ranch and we turned on the lights and made a huge 
change. So, I was thinking about the fact that as we've lighted 
up our homes and our buildings to be able to work through the 
night time and in the day time to do the kinds of things that 
we do in these buildings, that we've seen this huge revolution, 
in terms of our culture and really our civilization, with 
respect to lighting.
    Yet, the technology we have, with respect to the lights we 
currently use, is still the technology of 100 years ago. So I 
guess I have two questions for you. I'm very supportive of this 
legislation and I hope that as we get it, get our Energy bill 
through Conference, that this legislation will be included as 
part of that package. But my first question is, why--why is it 
that it has taken us so long to get around to the realization 
that we have to do something with respect to much more energy 
efficient lighting and lighting in our homes and buildings? Why 
is it, for us as Americans, has it taken that long to get 
there?
    Then the second question--Andy, I'd like you also to 
respond to--is, with respect to the manufacturing capabilities 
here at home in the United States, what is it that we--from my 
point of view, we're going to move forward with this agenda, I 
think DOE and this Congress will move forward with this 
agenda--how do we make sure that the manufacturing 
opportunities that we want to create for Americans to have jobs 
here at home, what kinds of incentives can we provide for that 
to happen?
    Mr. Karsner. Thank you, Senator. For the first question, 
why has it taken so long. I can only speculate as much as the 
next guy, really. There's not an official answer that the 
Administration could pose.
    What I typically answer--I was just in London and Berlin 
and people chronically ask this question about why an advanced 
leading technology nation like the United States chronically 
underperforms its efficiency capacity. The only answer I can 
give, as a person who grew up in Texas where we sent postcards 
bragging about oil wells as part of the scenery, is the 
sociological factors. That we grew up in a nation thinking that 
our resources were inexhaustible and without impact. 
Fundamentally, when we put our mind to the notion that they are 
exhaustible and they do have an impact, we can develop the 
technology very rapidly, in a world-beating way.
    So, we saw that in response to the first, earlier energy 
crisis in the 1970s, when compact fluorescents were first 
proliferated, but we also saw that doing so just on the 
technology basis or the encouragement basis wasn't enough, that 
we needed comprehensive certification testing, validation, and 
thus the Energy Star CFL Program was born and has brought great 
success to the reliability and quality of compact fluorescent 
and other fluorescent products that did not earlier exist when 
they were originally proliferated.
    So, we are now taking that same approach, both to the pre-
commercial R&D for solid-state lighting and the need to 
proliferate them with intelligent technology advancement 
outreach education and Energy Star certification and testing, 
et cetera.
    So when we put our mind to it, we get better as we go. I 
think this legislation and this current dialog will contribute 
to a much more rapid evolution of the technology and its 
dissemination.
    As to the second question on manufacturing, I'm less suited 
to address that than the experts that you have in the following 
panel, but I think it is a very important point and it is a 
point that is often neglected, not just with lighting, but with 
renewable energy and efficiency technologies in general. How do 
we account for the manufacturing and economic development 
impacts here at home, because as we are eminently destined to 
incorporate these technologies that the taxpayer invests so 
heavily in, we are seeing a growing trend that the 
manufacturing is occurring someplace else and that tax policy 
is geared for the re-importation cost of this. So, I think you 
will hear from experts far more qualified than myself in the 
next panel and I will defer to them, but I commend you and this 
committee for holding out the importance of the manufacturing 
impacts.
    Senator Salazar. I appreciate your response to that. I 
think on that second question, it's a very important question 
for us to explore, you know, for me in Colorado as a--I've seen 
the work of this committee under the leadership of Senator 
Bingaman and Senator Domenici. I see real impacts that are 
happening in Colorado where today we have almost 1,500 
megawatts of wind power being created and have been able to 
bring a company in that's helping now produce some of the wind 
turbines and blades in the State of Colorado.
    So, as I think about this clean energy revolution that 
we're embarking upon here, I think it's always important for us 
to keep thinking about how that clean energy revolution can 
help create jobs here in the United States and how we 
incentivize those jobs in being created. So that would include 
what we do with efficiency, in terms of our lighting.
    Thank you.
    Thank you, Senator Bingaman.
    The Chairman. Thank you very much. Let me just go ahead and 
stop with that.
    Thank you very much for being here and thanks for your 
continued work with the committee on trying to get this 
legislation into a form that makes sense.
    Mr. Karsner. Thank you, sir.
    The Chairman. All right. Why don't we go ahead with the 
next panel? We have three witnesses on the next panel, Paul 
Waide with International Energy Agency in Paris, Kyle Pitsor, 
with the National Electrical Manufacturers Association, and 
Steve Nadel, who's with the American Council for an Energy 
Efficient Economy.
    Thank you all for being here. Why don't we have you go in 
the order that I just described, with Mr. Waide from the 
International Energy Agency first, and then Kyle Pitsor, and 
then Steve Nadel.
    Mr. Waide, thank you for coming all this distance.

    STATEMENT OF PAUL WAIDE, SENIOR POLICY ANALYST, ENERGY 
  EFFICIENCY AND ENVIRONMENTAL DIVISION, INTERNATIONAL ENERGY 
                     AGENCY, PARIS, FRANCE

    Mr. Waide. Thank you very much for inviting and I have to 
comment the Senate and the Congress for developing the 
legislation you are in this regard, which I think is going to 
be landmark legislation in energy efficiency terms, is going to 
have very important impacts internationally, and domestically, 
of course. I think is really marking a sea change in the 
importance given to energy efficiency as a topic, 
internationally.
    My agency, the International Energy Agency, is an 
intergovernmental body. We have 26 member countries, the United 
States is one of them, and we are based in the city of Lights, 
as was featured in the Ratatouille promotion just seen 
recently. I'm pleased to be able to inform you, that least the 
Eiffel Tower in Paris is now lit up by LEDs and rather than by 
incandescent lamps. So progress is being made in many different 
fronts.
    Since 2005, we've been invited by the G-8 group of 
countries to support them in developing their plan of action 
for a clean and competitive energy future. One of the first 
products we put out was a book called ``Lights, Labors, Lost: 
Policies for Energy Efficient Lighting,'' and as you can see 
from the title, we're not immune to using bad word play on watt 
lighting as well, shamelessly borrowing from a Shakespearian 
play. This publication documents, as best as we understand it, 
the international use of lighting in the current time, globally 
and by regions, looks at all of the opportunities to save 
energy in lighting, what technologies can be deployed, what 
practices can be deployed and the economics and environmental 
impacts of doing that--and energy impact, of course--and also 
looked at the policy sets which were being, had been deployed, 
what they'd achieved, and what more could be done to try and 
move things forward.
    Now from this we determined that lighting accounts for 
roughly 19 percent of global electricity consumption. To put 
that into context, that's roughly the entire production of gas-
fired generation internationally. Within that, incandescent 
lighting is about 7 percent of global electricity consumption, 
and that's approximately half of the output of the world's 
nuclear power plants at the current time. So, this is the sort 
of rough magnitude of the arena that we're working in here.
    There are globally about 12.5 billion incandescent lamps 
sold every year and, has already been mentioned, they are very 
low efficiency. They only have 5 percent of their--of their 
input energy is converted to visible light, and the rest is to 
heat. The technology is little changed since it was first 
introduced. We, of course, have many more efficient 
technologies coming into the market now. The compact 
fluorescent lamps have been mentioned.
    It was also asked why are things not moved forward faster 
in that domain. I think there are several reasons, but as the 
speaker said, it was speculation about really what they are. 
But partly, we have to acknowledge that the technology itself 
has actually improved in recent years. I just brought some 
examples to illustrate that. When they first came out they were 
very bulky. You can now get them down to this size or smaller, 
even. So they fit into all screw-based sockets and into all 
fixtures much better than was previously the case.
    Also the quality of these lamps has improved dramatically 
as well. Although there are still some issues that are 
important to bear in mind about quality between different types 
of lamp technologies. I think the next speaker's going to be 
talking--giving some illustrations of these, so I won't dwell 
on that.
    What we found, as well, is that obviously were everybody 
internationally to move to using compact fluorescent lamps 
instead of incandescents--now maybe there will be some blend of 
technologies moved instead or adopted instead--this would save 
roughly 75 percent of that 7 percent of electricity consumption 
and to put that in context of CO<INF>2</INF> on a global level. 
It's roughly equivalent to replacing a hundred times the 
current installed wind capacity in the United States in lieu of 
unsequestered coal, in terms of abating CO<INF>2</INF>. Or, 
according to our estimates, it's approximately equivalent to 
almost three-quarters of the--of CO<INF>2</INF> abatement 
commitments of the Annex-1 CO<INF>2</INF> signatures. So this 
is very large amounts of CO<INF>2</INF> that are being 
potentially--be abated from these, from adopting this kind of 
technology.
    What I'd like to do and my testimony does, is summarize 
what's been happening internationally. Our industry deserves a 
tremendous amount of credit for what they've done in the last 
12 months on this topic. They've endorsed the objective of 
moving away from incandescent lighting over a reasonable 
timeframe, and that actually happened, both at individual 
companies announcement, initially in Brussels in December last 
year, and then at a workshop we organized in Paris in February 
where other major players came together and agreed on that 
objective.
    Since then, we've seen an explosion of activity in terms of 
policy measures internationally. The week prior to our 
workshop, the government of Australia made their famous 
announcement that they wanted to see incandescent lighting or 
inefficient incandescent lighting phased out by 2011. They are 
currently developing their precise plans, but as it stands, 
they're planning to phaseout the majority of lamps next year, 
in 2008, and then various of the monish products by--in the 
intervening period up to 2014, in fact. They are setting a 
second-tier standard as well, although they haven't quite 
decided though exactly what the level that should be at the 
moment.
    We've also seen that, in March, the European Council of 
Ministers, this is the heads of state meeting, which takes 
place periodically in Europe. For the first time ever, 
actually, made a pronouncement about energy efficiency. What 
they did, is they asked the European Commission to develop a 
regulation by 2009 at the latest, within the terms of an 
existing regulatory framework called the Ecodesign Directive, 
to facilitate the phase-out of inefficient incandescent 
lighting.
    We've also seen, although that will apply EU-wide minimum 
efficiency standards presumably, although the regulations are 
still being developed at this current time, so we don't have 
anything on the table as yet from the Commission. They've hired 
a consultant. The consultant's due to report in November. There 
will be consultation process taking place next year with all of 
the member States, and that's when the--the steps that you are 
already looking at here, will start to be crystallized in the 
European process.
    But in the meantime, the European industry's actually come 
forward with their own proposal. They're proposing staged 
phase-out of incandescent lighting beginning in 2009, they have 
a tier-one and a tier-two level. So 2009 to 2015, depending on 
the wattage of the lamps, and then going from 2011 to 2017, 
depending on, again, the wattage of the lamp for the tier two 
levels. That's presumably in the base proposal and then the 
member States will discuss that with them, about what their 
final position will be.
    But we actually have, now five EU member States, first the 
UK, then Ireland, Portugal, Belgium, the Netherlands, who've 
also made it clear that they intend to phase-out incandescent 
lamps by 2011, at the latest. Because they are not by EU law, 
able to introduce minimum efficiency standards, which are not 
applicable EU-wide, it has to be an EU process for that, in the 
terms of the single market. They're doing this in ways by which 
they are working with the supply chains, get agreement that 
they will stop stocking incandescent lamps, and some retailers 
have already announced that they will do that in the UK.
    They are also subsidizing compact fluorescent lamps, only 
the high-quality ones, not the low-quality ones. In the UK 
right now, you can buy those lamps for the same price as an 
incandescent lamp, effectively. They are proposing, although 
this isn't finalized, to potentially introduce taxes, import 
duties on incandescent lamps, as another way of pricing them 
out of the market. So, there are many ways by which you can 
influence the market to reach this kind of outcome.
    Canada has also come forward. They've made a pronouncement 
that they want incandescent lights phased-out by 2012. Natural 
Resources Canada has come forward with a specific proposal on 
how that should happen. Some of the details are put forward in 
my testimony, but they will obviously give you more details. As 
proposing a lumen per watts approach for a standard and there 
will be a tier-one and tier-two approach within that.
    We've also seen Switzerland, most recently, coming forward, 
that linking it to the energy label, which is used on European 
lamps sold in the European Union and also in Switzerland. Just 
to show you an example, this is what it looks like. You have an 
A to G rating. It works in any language in Europe, which is why 
it's phase simplified. You could have more information were 
there not the linguistic problems. Their proposal is to ban 
certain classes, of inefficient classes over a certain period 
of time and to ramp that up so that by 2012, all lamps would be 
reaching class B efficiency on this. That's again linked to a 
lumens per watt type approach.
    Now, if we add all of this up and what's happening here, 
we're looking at roughly half of the lamps in the world, the 
incandescent lamps in the world being subject to some sort of 
regulatory measures coming into effect over the next decade, at 
various time levels. That means a huge transformation in the 
lamp industry.
    Lamps are traded globally. The--as has already been 
mentioned--the majority of the world's compact fluorescent, for 
example, are sourced from China at the moment. What happens in 
one part of the world has a significant impact potentially on 
the markets in other parts of the world.
    So one of the issues that we have been bringing to people's 
attention and we're starting to discuss this with our member 
governments, is potentially the need to coordinate some of 
these measures, to ensure that there are no shocks in the 
supply chain. Because this is a massive transformation that is 
to be required, replacing billions of lamps by billions of 
other kinds of lamps, having lamps with very different 
replacement cycles, some which might be 1,000 hours for a 
standard incandescent lamp now, as opposed to 6,000 upwards for 
incandescent lamps, implies a totally different volume of lamp 
production. It implies transforming the capacity for 
production, which may have implications for stranded assets in 
the new capacity. There is a risk in certain situations that 
that could arise. That's something that OECD is engaged in this 
process, is keen to avoid.
    But it actually, just to conclude my testimony, just to say 
that this isn't limited to the OECD. Many of the measures are 
actually being adopted elsewhere. Funny enough, the first 
country to have actually phased-out incandescent lighting is 
Cuba. They did this periodically, starting last year, and I 
believe it's already happened now. They introduced a ban and 
they also, actually, went around households and delamped the 
old incandescent lamps and replaced them with--with compact 
fluorescent. They are reporting significant drops in 
electricity demand, as a result of that step. Now I don't 
imagine that kind of measure's going to be happening in the 
OECD, but it just shows that, what countries can do.
    China is seriously considering this issue. They are--with 
the EU--are the joint second-largest market in the world, 
they're about a sixth of the world market for incandescent 
lamps. They are starting work now, looking at whether or not 
they will follow suit and introduce policy measures to bring 
them in line.
    We've seen in many other large non-OECD economies--
Indonesia, Egypt, South Africa, Brazil--they've all introduced 
major compact fluorescent lamp programs over the years and they 
have been ramping those up. Some of those economies, such as 
Brazil for example, half of their screw-based lamps are now 
CFLs and they've saved a significant amount of power by making 
that transformation.
    I understand that the Global Environmental Facility in the 
process of developing a--what they hope will be a global 
project to support, not only OECD countries to phase-out 
incandescent lighting. So it's not inconceivable that over the 
10 to 15 years, that maybe all of the incandescent lamps or in 
the conventional form or the conventional efficiencies of 
today, will be removed from the global market. This is 
obviously a tremendous undertaking and I think you need to be 
commended for your efforts in contributing to that process.
    Thank you.
    [The prepared statement of Mr. Waide follows:]
    Prepared Statement of Paul Waide, Senior Policy Analyst, Energy 
   Efficiency and Environment Division, International Energy Agency, 
                             Paris, France
                               disclaimer
    The information and views expressed in this testimony reflect the 
personal understanding and opinion of Dr Paul Waide. He accepts no 
liability for the accuracy of the information presented or any 
subsequent use that is made of it, but offers this testimony in good 
faith according to his best understanding of the topic at the time of 
writing.
                                synopsis
    This testimony summarises the international status of policy 
efforts to phase-out inefficient incandescent lighting, provides 
estimates of potential energy and CO<INF>2</INF> savings, gives a 
timeline of the developments to date, explains broader international 
policy dynamics and how they may influence the US lamp market and 
provides comments on some issues pertinent to the proposed US 
legislation.
                                 summary
    Since early 2007 almost all OECD governments have begun to develop 
policies aimed at phasing-out inefficient incandescent lighting. The 
intention of the regulations already adopted or under consideration is 
to encourage energy savings through the usage of higher efficiency 
lamps and most notably the use of compact fluorescent lamps (CFLs) in 
place of standard incandescent lamps (known as GLS, which is an 
abbreviation of general service lamps).\1\ The countries which are 
currently actively developing policy measures to phase-out incandescent 
lamps account for roughly half the global GLS market and consume about 
6.5 billion GLS per year out of a global market volume of approximately 
12.5 billion lamps. Other countries may also be poised to introduce 
similar initiatives in the near future, such that it is conceivable 
that standard GLS lamps could be phased-out globally within a decade. 
The USA is the largest single GLS market and accounts for almost a 
third of the global market by volume. The next largest markets are the 
European Union and China, which each account for about a sixth of the 
global GLS market. The global market for screw-based CFLs is estimated 
to have been roughly 1.6 billion lamps in 2006 of which approximately 
four-fifths were manufactured in China. CFL sales are growing strongly 
internationally, with growth in demand in almost all markets, but GLS 
sales are likely to remain high and even increase without policy 
intervention.
---------------------------------------------------------------------------
    \1\ On average a CFL uses a quarter of the energy of a GLS lamp for 
the equivalent light output and hence leads to very significant and 
cost effective energy savings. GLS and most CFLs have screw-base or 
bayonet-base caps but are collectively called ``screw-based lamps.''
---------------------------------------------------------------------------
    Incandescent lamps consume about 7% of global electricity 
consumption and give rise to approximately 2% of global energy-related 
CO<INF>2</INF> emissions.\2\ First commercialised in 1879 the 
technology is little changed since the 1920s and has a physical energy 
efficiency of about 5%, which means that only 5% of the input power is 
converted to visible light and the rest is converted into heat. Compact 
fluorescent lamps are typically between four and five times more 
energy-efficient i.e. they convert between 20 and 25% of the input 
power into visible light. Were people around the world to universally 
stop using incandescent lamps from 2012 onwards and instead use lamps 
with an efficiency of CFLs it would save 5.5% of global power demand 
and avoid roughly 500 million metric tonnes of CO<INF>2</INF> 
emissions.\3\ This magnitude of CO<INF>2</INF> abatement is equivalent 
to what would be achieved by installing one hundred times current US 
wind generation capacity in lieu of unsequestered coal-fired power 
plants, or alternatively from building 77 one-gigawatt nuclear power 
plants in lieu of unsequestered coal-fired power plants. To give an 
alternative context were these savings to be realised it would amount 
to abatement of CO<INF>2</INF> emissions equivalent to almost three-
quarters of the 2012 reduction commitment of the Kyoto Protocol 
signatories.\4\
---------------------------------------------------------------------------
    \2\ This is just their direct electricity use and does not take 
account of any additional energy that may be used or saved for space 
conditioning purposes as a result of the heat emitted by these lamps.
    \3\ These figures are IEA estimates derived from projections made 
in a global lighting model developed for the 2006 publication, Light's 
Labour's Lost: Policies for Energy Efficient Lighting, IEA, Paris.
    \4\ The IEA has estimated that Annex 1 Kyoto protocol signatory 
countries need to abate about 700Mt of CO<INF>2</INF> in 2012 to 
satisfy their reduction commitments under the treaty. Reference: Act 
Locally, Trade Globally, IEA, Paris 2005.
---------------------------------------------------------------------------
    However, CFLs are not the only alternative to conventional general 
service incandescent lamps and there are other lamp technologies which 
could be used in place of GLS lamps that have higher (or slightly 
higher) energy efficiency but are not as efficient as CFLs. They 
include: halogen lamps, which can have efficiencies that are between a 
few percent better than GLS to up to twice as high as GLS depending on 
the technology used; and light emitting diodes (LEDs), which are just 
beginning to appear on the market. LED technology is making great 
advances; however, it is still unclear how viable it will eventually be 
as a replacement for general service incandescent lamps. There is 
uncertainty about the future rate of product development and the 
eventual market acceptance of LED costs, light level and distribution 
characteristics, heat dissipation and chromatic properties.
    Regulations could thus be promulgated, which would phase-out 
conventional general service incandescent lamps but could still be met 
by significantly less efficient lamps than CFLs. Under such 
circumstances the magnitude of energy savings resulting from the 
regulations would depend on the relative preference expressed in the 
market place for the less-efficient compliant lamp options and for 
CFLs. In the lower extreme energy savings could be as little as 10 to 
20% of GLS lamp energy consumption as compared to roughly 75% with the 
full adoption of CFLs. Some of the factors to be considered when 
developing such regulations are discussed in Section 4 of this 
testimony, including a summary of the issues pertaining to current 
screw-based lamp technology discussed in Section 5. The following 
section gives a chronology of international regulatory developments in 
relation to the phase-out of standard incandescent lamps and provides 
information on their current status.
           chronology of international regulatory developments
    Regulations in place in 2006.--In 2006 the only economies that had 
adopted any kind of regulation to influence the efficiency of general 
purpose standard incandescent lamps with screw-caps were the Republic 
of Korea and California. In both cases the regulations are set at a 
level of stringency that continues to allow conventional GLS lamps to 
be sold but excludes the least efficient varieties. These measures are 
expected to result in energy savings for screw-based lamps of a few 
percent which reflects the narrow spread in energy efficiency of 
currently available GLS lamps.
    With current commercially available lamps designed to use existing 
screw-base sockets it is only possible to get much larger energy 
savings by the use of fundamentally different lamp technologies.\5\ 
Energy savings of 75-80% can be achieved through the use of compact 
fluorescent lamps (CFLs) in place of GLS and lesser savings of from 0-
50% can be realised through the use of halogen lamp technology.
---------------------------------------------------------------------------
    \5\ Note this does not preclude the possibility of more efficient 
incandescent lamps being commercialized in the future.
---------------------------------------------------------------------------
Policy Developments From 2006 to the Present
    Light's Labour's Lost.--In June 2006, as part of its work for the 
G8 Plan of Action on a Clean, Clever and Competitive Energy Future the 
IEA released a 558 page publication on lighting energy use and energy 
efficiency issues around the world, entitled Light's Labour's Lost: 
Policies for Energy Efficient Lighting.\6\ The book's findings received 
widespread media attention and were widely circulated among lamp 
manufacturers and policy makers. The key findings are:
---------------------------------------------------------------------------
    \6\ Light's Labour's Lost: Policies for Energy Efficient Lighting, 
IEA, Paris, 2006. http://www.iea.org/Textbase/publications/free--new--
Desc.asp?PUBS--ID=1695

  <bullet> Some 19% of global power consumption and some 3% of global 
        oil demand is attributable to lighting.\7\
---------------------------------------------------------------------------
    \7\ About 1.1 million barrels of oil a day are used in road 
vehicles to power their lights and some 1.3 mb/d is used in liquid 
petroleum products, such as kerosene, to provide lighting in households 
without access to the electricity grid. Approximately 1/5th of the 
world's population rely on fuel-based lighting in their homes.
---------------------------------------------------------------------------
  <bullet> Overall lighting gives rise to 1900 million metric tonnes of 
        CO<INF>2</INF> emissions, which is roughly 70% of the 
        CO<INF>2</INF> emitted by light duty vehicles (cars, SUVs, 
        motorcycles etc.)
  <bullet> Without new policy measures global energy consumption for 
        lighting is projected to grow by 60% from 2005 to 2030.
  <bullet> Over 38% of future global lighting energy demand could be 
        avoided by the use of more efficient lamps and ballasts\8\ 
        which are routinely available on today's market.
---------------------------------------------------------------------------
    \8\ Ballasts are devices used by some types of lamps to regulate 
the input current and voltage so that the lamp operates properly. 
Ballasts consume power to operate and some types are more efficient 
than others.
---------------------------------------------------------------------------
  <bullet> Were the global phase-in of such high-efficiency lamps and 
        ballasts to start in 2008 following natural equipment 
        replacement cycles it would give rise to 16.6 billion metric 
        tonnes of CO<INF>2</INF> savings globally by 2030 and reduce 
        the total cost of lighting over the same period by some 2.6 
        trillion US$ due to reduced energy costs.
  <bullet> Each metric tonne of CO<INF>2</INF> abated would provide a 
        net economic benefit of US$156.

    The key findings regarding phasing-out inefficient incandescent 
lamps in favour of more efficient technologies, such as CFLs, are:

  <bullet> Globally incandescent lamps are estimated to have accounted 
        for 970 TWh of final electricity consumption in 2005 and given 
        rise to about 560 million metric tonnes of CO<INF>2</INF> 
        emissions.
  <bullet> About 61% of this consumption is in the residential sector 
        with most of the rest in commercial and public buildings.
  <bullet> The IEA estimates that incandescent lamps used in the USA 
        and Canada jointly consumed about 350 TWh of delivered 
        electricity in 2005 and gave rise to about 217 million metric 
        tonnes of CO<INF>2</INF> emissions.
  <bullet> If current trends continue incandescent lamps could use 1610 
        TWh of final electricity globally by 2030.
  <bullet> In the hypothetical case that all standard incandescent 
        lamps were to be replaced by CFLs it would save roughly 800 TWh 
        and 470 million metric tonnes of CO<INF>2</INF> emissions in 
        2010 rising to 1200 TWh and 700 million metric tonnes of 
        CO<INF>2</INF> in 2030.
  <bullet> Cumulatively this would reduce global net lighting costs by 
        US$1.3 trillion from 2008 to 2030, and avoid 6.4 billion metric 
        tonnes of CO<INF>2</INF> emissions at a negative abatement cost 
        of -US$205 per tonne.
  <bullet> The typical rate of return on investment\9\ in a CFL 
        compared with a standard GLS lamp is in excess of 180%.
---------------------------------------------------------------------------
    \9\ The Internal Rate of Return.
---------------------------------------------------------------------------
Time Line of International Policy Developments Since 2006
    In May 2006, under the terms of the 1992 Energy Policy Act the US 
DOE initiated a rulemaking process to determine the case for Federal 
standards applicable to general service incandescent lamps, 
incandescent reflector lamps and general service fluorescent lamps. 
Under the original timetable it was expected that an advance notice of 
proposed rulemaking would be issued by November 2007 and a final rule 
by June 2009, to take effect by June 2012.
    Also in May 2006 and within the rubric of the G8 Plan of Action, 
which was launched following the 2005 Summit of the G8 in Gleneagles, 
the IEA made four concrete policy recommendations on energy efficiency 
for consideration by the G8 at the St Petersburg summit in July. The 
recommendation regarding lighting encouraged G8 and plus-5\10\ leaders 
to enact policies to raise the energy efficiency of lighting in line 
with international best practice. The G8 welcomed the recommendations 
and asked the IEA to elaborate on them with more explicit proposals.
---------------------------------------------------------------------------
    \10\ The ``Plus 5'' are Brazil, China, India, Mexico and South 
Africa.
---------------------------------------------------------------------------
    In the USA, Wal-Mart and Home Depot launched programmes to 
dramatically increase the sale of CFLs in their retail outlets.
    Cuba banned the sale of incandescent lamps and implemented a 
programme of direct substitution of GLS with CFLs in households. It is 
understood that this was completed sometime in 2007 making Cuba the 
first country in the world to have phased-out incandescent lighting. 
Another 10 Caribbean countries and Venezuela are reported to be 
implementing similar measures.
    In December 2006 Philips Lighting, the worlds largest lamp 
manufacturer, held a press conference in Brussels at which they 
announced they would welcome the global phase-out of general service 
incandescent lamps over a 10 year period under proviso that the same 
regulatory conditions apply to all market actors.
    On January 30, 2007, California Assemblyman Lloyd Levine proposed a 
bill to ban the sale of general service incandescent lamps in the state 
by 2012.
    On February 26th 2007 the IEA and European Commission held a joint 
workshop in Paris on CFL Quality and Strategies to Phase-out 
Incandescent Lighting which was attended by energy efficiency policy 
makers and industry. At this workshop the other major international 
lamp producers,\11\ who supply the majority of lamps sold within the 
economies of the OECD, announced their support for the objective of 
phasing-out of inefficient incandescent lamps within a reasonable 
timeframe.
---------------------------------------------------------------------------
    \11\ The major international lamp companies who jointly supply the 
majority of lamps currently sold in the economies of the OECD are: 
Philips, Osram-Sylvania and General Electric--note in Europe Osram and 
Sylvania are separate companies whereas in North America they are a 
joint company.
---------------------------------------------------------------------------
    In the week preceding the IEA workshop (on February 20th) the 
government of Australia held a press conference announcing their 
intention to phase-out inefficient incandescent lighting by 2011. The 
Government of New Zealand has since confirmed that they support the 
policy and will harmonise their requirements with Australia. The final 
details of the regulation are still being settled but as of the end of 
August 2007 the structure of the regulations appeared to be as follows. 
From 1 October 2008 the majority of screw-based lamps imported into 
Australia would need to have an efficacy\12\ of 20 lumens per Watt 
(denoted (lm/W)).\13\ The intended result of these regulations is that 
conventional GLS lamps will effectively be eliminated from the 
Australian marketplace and that CFLs will dominate screw-based lamp 
sales afterwards, although some mains voltage halogen lamps would 
remain. From 2010 the scope will be expanded so that decorative screw-
based lamps such as candle-shaped, ``fancy rounds'', etc. have to meet 
the 20 lm/W requirement. From 2012 mains voltage halogen lamps and 
incandescent reflector lamps (PAR, R, ER, etc.) will also be required 
to attain 20 lm/W. From 2014 pilot lamps, refrigerator and oven lamps 
will need to satisfy 20 lm/W.\14\
---------------------------------------------------------------------------
    \12\ The efficacy of a lamp is the standard metric denoting its 
functional efficiency and is the amount of visible light it emits 
(expressed in lumens (lm)) divided by the power it consumes (expressed 
in watts (W)).
    \13\ Note that 20 lm/w is for 1200 lm (60w) lamp. The precise 
efficacy requirement is expected to be a curve based on lamp light 
output. Lamps required to meet this requirement would include IEC bulb 
designations A55-A60-PS60, M50 and M60 (& possibly others) designed to 
operate at >220V and with screw-caps of E26, E27 or B22d. When 
comparing these proposals with those under consideration in the USA 
account needs to be taken of the difference in operating voltage. Due 
to physical laws incandescent lamps operating at higher voltages are 
less efficient than when operating at lower voltages. Incandescent 
lamps designed to operate at 220-240V electricity networks, such as in 
Europe and Australia, are roughly 15 to 20% less efficient than 
comparable products designed for 120V systems such as those used in 
North America.
    \14\ Source: Australian Phase-out of Incandescent Lamps, 
presentation by Shane Holt, Australian Greenhouse Gas Office, 
Government of Australia.
---------------------------------------------------------------------------
    In the same week (on February 22) the ``How Many Legislators Does 
it Take to Change a Light Bulb Act (AB 722)'', was introduced in the 
California State Legislature. This proposed that GLS lamps would not be 
sold after 2012.
    On March 9th, 2007, the EU Council of Ministers\15\ called on the 
European Commission to establish a regulation addressing incandescent 
lighting by 2009 within the framework of the already existing Eco-
design for Energy Using Products Directive 2005/32/EC. This Directive 
is a regulatory framework which grants the European Commission 
authority to set mandatory (or voluntary) energy performance standards 
for tradable goods sold across the EU.
---------------------------------------------------------------------------
    \15\ The regular meeting of EU heads of state.
---------------------------------------------------------------------------
    On March 12th, 2007, the UK government announced a plan to complete 
the phase-out of inefficient incandescent lamps within the UK by 2011, 
even if this is in advance of the provisions that are ultimately set in 
the EU Eco-Design Directive. Under the terms of the European Single 
Market individual EU member states do not have the authority to set 
non-EU harmonised performance requirements for tradable goods. 
Accordingly it is understood that the UK government are considering a 
mixture of: voluntary agreements with lamp suppliers and retailers; 
subsidies to encourage the sale of high quality compact fluorescent 
lamps; and fiscal measures to discourage the sale of low efficiency 
incandescent lamps. Some major UK retailers have already announced that 
they will stop stocking GLS lamps.
    During the period of March to May 2007 the governments of the 
Republic of Ireland, Portugal, Belgium and the Netherlands announced 
similar policies and initiatives to the UK.
    On March 15, 2007, US Representative Jane Harman proposed a bill 
(HR1547) in the House of Congress that would impose efficacy standards 
for general service lamps sold within the USA. This has since been 
modified and entered within the House energy bill (S. 3221--Sec 109).
    On March 28th, 2007, a cross-party group of members of the European 
Parliament urged EU governments and the European Commission to quickly 
introduce new energy efficiency standards for lighting and to introduce 
market surveillance measures to prevent existing product quality 
standards from being flouted by importers.
    Also in March 2007 California assemblyman Jared Huffman submitted a 
competing bill (AB 1109) to the Levine bill (AB 722) based-on 
technology-neutral performance standards for various categories of 
lighting.
    Shortly afterwards several other bills were introduced in other US 
states. These include: bills in Rhode Island (SB 806), Nevada (AB 178), 
New York (#A07944 and AB 6190) and North Carolina (DRH30218-RT-5) of a 
similar nature to the CA Levine bill; a bill introduced in Minnesota 
(SB 1442) which proposed to tax the sale or transfer of incandescent 
lamps by a wholesaler at $0.25 per lamp; a bill entitled, ``Act 
Concerning Inefficient Incandescent Lamps'' in Connecticut (HB 6550); 
bills that would require all state buildings to switch to CFLs over the 
next three years were introduced in New Jersey (A 3983), South Carolina 
(SB 97), Illinois (HB 1460), Hawaii (SCR 53 and SR 28) and Arkansas (HB 
2551). The Nevada bill AB178 was approved by the Governor in June and 
requires lamps sold in the state from 2012 to attain an efficacy of 25 
lm/W or higher.
    April 18th, 2007, the government of Ontario announced a policy to 
phase-out the sale of incandescent lamps within the province by 2012.
    April 25th, 2007, the government of Canada announced a policy to 
set performance standards for all lighting to phase-out the use of 
inefficient light bulbs in common applications by 2012. The intention 
is to have defined details of the requirements by the end of 2007. At a 
workshop held in Toronto on June 26th staff from the Office of Energy 
Efficiency in Natural Resources Canada set out a provisional rulemaking 
proposal containing the following elements. The standard is expressed 
by an equation that represents the shape of a curve of lamp efficacy 
(lumens per watt) to lumen output (lumens) where E (expressed in lumens 
per watt) = 4.2375 * ln(Lumens)--13.7912. This equation is intended to 
be approximately 50% higher than the best fit curve through existing 
general service lighting products. The proposal also includes a lower 
standard (at 30% higher than best fit) for ``enhanced spectrum lamps''. 
A second Tier was proposed that would be approximately 100% higher than 
current efficacy levels to come into effect in 2015. The following 
table summarises the required efficacy thresholds that would apply were 
this proposal to be adopted.

PROVISIONAL CANADIAN GOVERNMENT REGULATORY PROPOSALS FOR MINIMUM EFFICACY LEVELS APPLICABLE TO SCREW-BASED LAMPS
                                               SOLD IN CANADA\16\
----------------------------------------------------------------------------------------------------------------
                               Current                                         Proposed               Current
----------------------------------------------------------------------------------------------------------------
                                                                                                    Energy Star
                                             Typical      Efficacy                                 Qualified CFL
            Typical  Wattages              Lumen Level   (best fit)      Tier 1        Tier 2       (equivalent
                                                                                                      lumens)
----------------------------------------------------------------------------------------------------------------
Effective                                                                    2012          2015
----------------------------------------------------------------------------------------------------------------
25                                                210           8.4          12.7          21.1              45
----------------------------------------------------------------------------------------------------------------
40                                                490          12.3          17.8          29.7              45
----------------------------------------------------------------------------------------------------------------
60                                                840            14          21.1          35.1              45
----------------------------------------------------------------------------------------------------------------
75                                               1170          15.6          23.1          38.4              60
----------------------------------------------------------------------------------------------------------------
100                                              1690          16.9          25.3          42.2              60
----------------------------------------------------------------------------------------------------------------
>100                                             2850            19          28.5          47.4              60
----------------------------------------------------------------------------------------------------------------
\16\ Source: minutes of the National Lighting Summit: Summary of the first consultation on the Government of
  Canada's proposed national performance standard for general service incandescent light bulbs--Toronto, June
  27, 2007. Natural Resources Canada.

    On 5th June 2007 the European Lamp Companies Federation, an 
industry association which includes Philips, Osram, GE and Havells 
Sylvania, issued a press release setting out a voluntary proposal to 
phase-out the sale of GLS lamps in Europe. Under the proposal, by 2015, 
85% of the total EU traditional incandescent lamp market of 2.1 billion 
lamps would need to meet new efficiency requirements. The proposal 
envisages a staggered phase-out of GLS lamps such that lamps above 100W 
would have to meet an initial efficacy limit of 18 lm/W by 2009 and a 
more stringent one of 20 lm/W by 2011, lamps of 100W to 75W power would 
have to meet a first efficacy requirement of 14 lm/W by 2011 and of 17 
lm/W by 2013, lamps of 60W to 75W would have to meet a first efficacy 
requirement of 13 lm/W by 2013 and one of 15 lm/W by 2015, lamps of 40W 
to 25W would need to satisfy a first efficacy requirement of 11 lm/W by 
2015 and 14 lm/W by 2017 and lamps of less than 25W would need to 
satisfy a first efficacy requirement of 10 lm/W by 2015 and 12 lm/W by 
2017.\17\ There has yet to be any consideration of this proposal within 
the European Commission's rulemaking process under the rubric of the 
Eco-design of Energy Using Products Directive, 2005/32/EC. To date the 
Commission has hired consultants to examine all the technical issues 
pertinent to the preparation of a rule-making and they are planning to 
report their first results in November 2007. The Commission has been 
instructed by the EU Council of Ministers to issue a final rulemaking 
on the topic before 2009 and is expected to begin a consultation 
process with representatives of EU Member States in early 2008.
---------------------------------------------------------------------------
    \17\ When comparing these proposals with those under consideration 
in the USA account needs to be taken of the difference in operating 
voltage. Due to physical laws incandescent lamps operating at higher 
voltages are less efficient than when operating at lower voltages. 
Incandescent lamps designed to operate at 220-240V electricity 
networks, such as in Europe and Australia, are roughly 15 to 20% less 
efficient than comparable products designed for 120V systems such as 
those used in North America.
---------------------------------------------------------------------------
    On 6-8 June 2007 the G8 Summit met at Heiligendamm in Germany and 
endorsed twelve concrete energy efficiency policy recommendations from 
the IEA. In the case of lighting the IEA recommended that:

  <bullet> Governments should move to phase-out the most inefficient 
        incandescent bulbs as soon as commercially and economically 
        viable.

    These recommendations were also circulated to the 26 IEA energy 
ministers for consideration at the 2007 IEA Ministerial held in Paris 
on May 15th 2007 and were strongly supported.
    On June 12th US Senator Bingaman introduced a Senate Bill 1115 the 
Energy Efficiency Promotion Act that is subsequently renumbered as 
S1419 and then S.2017 (the subject of the current hearing). The bill 
includes measures aimed at phasing-out inefficient general purpose 
lighting.
    In August 2007 the Government of Switzerland published an Energy 
Efficiency Action Plan which included a proposal for regulations to 
phase-out inefficient incandescent lamps. Under the proposal all 
incandescent lamps sold from 2008 onwards will need to be of an 
efficiency of class E or higher according to the EU household lamps 
energy label\18\ (e.g. requires a minimum efficacy of 11.2 lm/W for a 
750 lm lamp), from 2010 onwards to be class D or higher (e.g. requires 
a minimum efficacy of 13.0 lm/W for a 750 lm lamp) and from 2012 to be 
class B or higher (e.g. requires a minimum efficacy of 20.5 lm/W for a 
750 lm lamp). Fluorescent lamps must perform to level A from 2010 
onwards (e.g. requires a minimum efficacy of 65.9 lm/W for a 750 lm 
lamp). This proposal is currently entering into a consultation process.
---------------------------------------------------------------------------
    \18\ Commission Directive 98/11/EC, OJ L 71 10.3.1998, p. 1-8.
---------------------------------------------------------------------------
    Beyond the economies of the OECD the governments of Thailand and of 
Ghana have recently announced policies to phase-out incandescent lamps. 
Government and utilities in Egypt, India, Indonesia, South Africa and 
Vietnam are all strengthening existing major CFL promotional 
programmes. Several other countries including Brazil and Mexico have 
previously launched successful large scale programmes to promote the 
use of CFLs in place of incandescent lamps.
    The Government of China is understood to be in the process of 
initiating a project to investigate the issues associated with phasing-
out incandescent lamps to help them to determine whether to introduce 
new policy measures to that effect.
    The Global Environment Facility of the UNFCCC is currently in the 
process of developing a global project to support non-OECD economies to 
phase-out incandescent lighting. It is anticipated this project will be 
formally launched before the end of 2007.
                 issues being considered by legislators
    Legislators around the world considering the adoption of 
regulations to phase-out inefficient incandescent lighting are facing 
similar issues. They need to weigh in the balance the potential for 
energy performance requirements to deliver significant energy savings, 
and their associated environmental and economic benefits, with the 
desire to ensure there is an on-going supply of lamps that satisfy 
consumer needs. Setting general energy performance requirements in a 
manner that facilitates the required industrial and commercial 
transition but doesn't result in unintended consequences is a 
challenge. In particular, determining appropriate treatment for niche 
applications without creating substantive loopholes is one of the 
biggest technical issues to be addressed and reaching and a 
satisfactory resolution will require careful attention to detail during 
the policy making process.
    A recurrent issue is whether to set requirements that allow more 
than one type of currently-available screw-based lamp technology to be 
deployed, or whether to set them at a level which guarantees maximum 
energy savings but may exclude some genres of lamp technologies. The 
response will depend on how regulators and the market view the 
suitability of the various higher-efficiency alternatives to standard 
incandescent lamps and on the relative importance given to the trade-
offs implied. To provide some sense of what these are the main 
characteristics of the principal alternative technologies to general 
service incandescent lamps are briefly described in section 5. Some 
thoughts are also offered about complementary measures which can help 
to minimise some of the trade-offs.
    When developing regulations care needs to be taken to ensure that 
regulatory lead times and market rewards are sufficient for industry to 
adjust their manufacturing base to produce compliant lamps in the 
required volumes. At present, most regulatory discussions have been 
taking place independently of those in other jurisdictions and there 
has been relatively limited discussion between regulatory authorities 
about the combined impact of their measures on global lamp supply. As 
lamps are internationally traded products and a large proportion of 
lamps sold in any one jurisdiction are often sourced from elsewhere 
there may be a need to ensure that international regulatory 
developments are coordinated to minimise the risk of lamp shortages 
once the regulations come into effect. Specifically the risk of a 
shortage in regulatory-compliant lamps arises from the following 
concerns:

          a) The substantially different average lifetimes of CFLs 
        compared to incandescent lamps means that, dependent on the 
        rate of transition to CFLs, there is a possibility of the 
        development of a short-lived peak in global demand for CFLs 
        followed by a depression as lamp markets move to significantly 
        longer replacement cycles.\19\ Were this to occur it would 
        create a risk of those manufacturers investing in new CFL 
        production capacity being left with stranded assets. From a 
        regulators perspective the concern is that industry might not 
        invest sufficiently in meeting the peak in global CFL demand 
        and thus bring about a shortfall in lamps at the moment of 
        inflection in global compliant-lamp demand.
---------------------------------------------------------------------------
    \19\ The average GLS lasts for 1000 hours and the average CFL for 
6000 hours, therefore the lamp sockets currently supplied by global 
sales of 12.5 billion GLS per annum could be supplied by sales of 2.1 
billion CFLs per annum once all GLS had been replaced by CFLs and a CFL 
replacement market were operational; however, during the transition 
period much higher volumes of CFLs could be required depending on how 
short the transition period were to be.
---------------------------------------------------------------------------
          b) There are technical limits to the rate at which the global 
        lamp industry is capable of increasing CFL production capacity 
        mostly due to the time it takes to increase production and 
        supply of key materials and components (notably glass of an 
        appropriate grade, phosphors and electronics). This is a 
        particular concern for the supply of higher quality CFLs, such 
        are currently sold in the economies of the OECD.

    Performing simulations of the potential impacts of current global 
regulatory developments on demand for CFLs and other regulatory-
compliant lamp types would be one means of assessing the seriousness of 
these risks and determining if greater coordination in policy setting 
may be required. The IEA is developing a project to examine this issue.
    Lastly, not only do near-term regulatory performance thresholds 
need to be achievable with current technology but regulators must also 
be mindful about the signals they send regarding investment in future 
technology. It is appropriate to consider the degree to which the 
regulatory framework put in place in the short-term may influence near 
and medium-term investment decisions in lamp production capacity and 
the extent to which this is consistent with longer-term public policy 
objectives. To this end regulators will need to decide whether to 
specify longer-term performance objectives at the same time as 
announcing near-term regulatory requirements or not.
                    suitability of replacement lamps
    CFLs.--The suitability of CFLs as replacements for incandescent 
lamps has increased significantly in the last decade due to on-going 
improvements in the lamp technology and their production. CFLs are now 
available at much lower prices than hitherto, they come in a much 
larger range of dimensions and thus models can be found which will fit 
into almost all light fixtures using a screw-based socket, and their 
light quality has improved substantially. Because they require only a 
quarter to a fifth of the energy of conventional GLS lamps CFLs are far 
more economical to operate and hence are more cost-effective for the 
end-user. They also last between five and fifteen times as long as a 
standard GLS lamp (5000 to 15000 hours for CFLs compared with 750-1500 
hours for GLS). The limitations of CFLs compared with GLS lamps are as 
follows:

  <bullet> Good CFLs give out light with a colour-rendering index (CRI) 
        of about 85 as compared with that from an incandescent or 
        halogen lamp of 100. This means that they are not quite as good 
        at producing a faithful rendering of colour as are incandescent 
        lamps. For most applications a CRI of 85 is perfectly adequate 
        for end-users but there may be some cases where end-users would 
        prefer a higher CRI.
  <bullet> While an incandescent lamp produces light as soon as they 
        are switched on there is a very short delay for CFLs and the 
        lamps take slightly longer to produce their full light output.
  <bullet> While CFLs are available in much smaller sizes than was 
        previously the case there is a limit to how small they can be 
        made. Incandescent lamps and halogen capsules can be produced 
        that are even smaller still and these may be better suited to 
        certain kinds of lamp fixtures.
  <bullet> CFLs contain trace levels of mercury. The levels included in 
        modern lamps are much less than was previously the case but 
        some economies, most notably the EU, are introducing 
        requirements for their safe disposal at end of life. The 
        corollary to this issue is that in economies that use a 
        significant amount of coal-fired generation in the electricity 
        mix there is likely to be a significant overall reduction in 
        mercury release to the environment from the use of CFLs. This 
        is because the avoided power demand reduces coal-derived 
        airborne mercury emissions by levels that significantly exceed 
        the amount of mercury used in the lamp.
  <bullet> CFLs can be produced to have a light colour (referred to as 
        the colour temperature) which matches that of GLS lamps but 
        they can also be produced to emit light of a different colour 
        temperature. To avoid confusion among consumers, many of whom 
        will be seeking to have lamps with identical colour temperature 
        characteristics to the GLS lamps they have always used, some 
        additional effort may be required to communicate the colour 
        temperature characteristics in a user-friendly way at the point 
        of sale.
  <bullet> CFLs are not as well-suited to provide well directed beams 
        of light as are certain types of incandescent lamps (most 
        notably halogen reflector lamps) and hence are not adapted to 
        provide some types of reflector lamp applications.

    Halogen Lamps.--Halogen lamps are a type of improved incandescent 
lamp which can have higher energy efficiency than conventional GLS 
lamps but cannot attain the levels of CFLs with today's technology. The 
most efficient halogen lamps, which are just in the process of being 
commercialised on OECD markets, have an efficiency that is roughly 
twice as high as for a comparable GLS lamp. They have the same high 
colour rendering (i.e. a CRI of 100) and last two to three times as 
long as a GLS (2000 to 3000 hours compared with 750-1500 hours for GLS 
lamps). With today's lamp technology it is possible to produce halogen 
lamps that could substitute for almost all conventional GLS 
applications and that would give energy-savings of from 0 to 50% 
depending on the explicit halogen technology used. It is expected that 
the most efficient varieties will be significantly more expensive than 
GLS and even CFLs when first entered on the market and that their price 
will decline as and when their market volumes increase. It is not easy 
to estimate whether halogen or CFL lamps would be the cheapest in a 
market where no conventional GLS lamps were permitted to be sold, but 
it seems likely that CFLs would be cheaper than the most efficient 
halogen lamps at least in the short term.
    Light Emitting Diodes (LEDs).--Light emitting diodes are rapidly 
evolving but are not yet widely available as substitutes for screw-
based GLS lamps. Current lamps can be produced with a higher efficacy 
than GLS lamps and with very long lifespans (tens of thousands of 
hours) but the lamp costs are very high and there appear to be ongoing 
problems with:

  <bullet> providing adequate amounts of light
  <bullet> providing light distribution in a manner which satisfies 
        consumer needs
  <bullet> ensuring chromatic properties are sufficiently stable from 
        batch to batch and that the light colour matches consumer 
        requirements
  <bullet> adequately addressing heat dissipation

    The pace of development of the technology is such that many, if not 
all, of these issues may be overcome in the next few years but the 
outlook is still somewhat uncertain.
    Ensuring and Communicating the Quality of Compliant Lamps.--Some of 
the lamp characteristic issues raised above can be addressed by taking 
steps to ensure the quality of high efficiency lamps sold in a market 
is sufficiently high for most consumer needs to be met. This can be 
done by setting and enforcing minimum lamp quality requirements and by 
encouraging higher quality requirements be met through endorsement 
schemes such as Energy Star. Where lamp quality characteristics may 
vary but are not universally important to consumers the relevant 
information could be made available through improved lamp labelling 
designed to communicate pertinent factors in an accessible manner.

    The Chairman. Thank you very much for your testimony.
    Mr. Pitsor, why don't you go right ahead?

STATEMENT OF KYLE PITSOR, VICE PRESIDENT, GOVERNMENT RELATIONS, 
   NATIONAL ELECTRICAL MANUFACTURERS ASSOCIATION, ROSSLYN, VA

    Mr. Pitsor. Chairman Bingaman and members of the committee, 
on behalf of the National Electrical Manufacturers Association, 
I'm Kyle Pitsor, NEMA Vice-President of Government Relations. 
NEMA is the National Association representing the electrical 
manufacturing industry. That's significant for today's hearing, 
representing light bulb or lamp manufacturers that sell over 95 
percent of the light bulbs sold in the United States.
    Mr. Chairman, earlier this year, the NEMA lamp section 
announced a joint industry commitment to advance public 
policies that would transform the U.S. market to more energy 
efficient lighting within a decade.
    NEMA views any lighting market transformation as a matter 
of national importance that must come about through a Federal 
solution by setting technology neutral, performance-based 
standards that would eliminate today's inefficient general 
service light bulbs from the market.
    A Federal regime is crucial in order to maximize national 
energy savings, provide manufacturer certainty in order to 
schedule investments for transforming the market, and to avoid 
a patchwork of conflicting and unworkable State mandates that 
would complicate manufacturing, distribution, retailing, and 
create consumer confusion. We look to the Senate for action.
    We support S. 2017's focus on general service light bulbs. 
There are about 4 billion--4 billion--of these medium screw-
based general service light bulbs installed in the U.S. today, 
with about 79 percent of those in residences. This is where the 
greatest energy savings can be attained on a national scale.
    In the United States, NEMA members sold about 1.7 billion 
medium screw-based light bulbs in 2006. Of that 1.7 billion, 
about 1.5 billion were the general service incandescent bulbs 
very familiar to you today and about 200 million were compact 
fluorescent lamps, or CFLs. CFLs represent about 10 percent of 
the installed base today and have been growing at about 50 
percent--50 percent per year since year 2000.
    NEMA member manufacturers proposed, Mr. Chairman, to 
replace today's inefficient light bulbs with a combination of 
products that will provide consumers product choices. The 
replacement light bulbs will be a combination of the compact 
fluorescent light we see today, along with new technologies, 
including high-efficiency halogen, high-efficiency 
incandescent, and LEDs. This is an example of the new high-
efficiency halogen bulb that our members are looking to 
produce. This is about 40 percent more efficient than today's 
companion incandescent bulb.
    Choice is important for several reasons. These compact 
fluorescent lamps, while relatively efficiency, are relatively 
deficient in color rendering, tend to be larger than 
incandescent lamps, creating fit issues of existing light 
fixtures, have low light output in exceptionally hot or cold 
temperatures and conditions, and in general, are not dimmable. 
Meeting demand for these new replacement bulbs is a difficult, 
challenging, and sustained task. Accordingly, the legislation 
needs to provide for an orderly and phased national approach 
for the transformation to be successful.
    S. 2017 currently proposes to start the phase-in on January 
1, 2012 and for it to be completed in 2 years. NEMA proposes 
that the phase-in start on January 1, 2012 and be completed in 
3 years.
    Neither industry nor regulators will be able to be reliable 
in predicting the dynamics of the market acceptance of these 
new types of replacement light bulbs. Manufacturers must be 
able to learn as we go, in order to be prepared to build the 
right manufacturing and commercial capacity to meet the market 
demand prudently.
    A 3-year transition period, we believe, is eminently 
reasonable to interpret these new market forces heretofore 
unforeseen in this industry. For each of the different 
categories of light bulbs that we're talking about, 
manufacturers have to reposition new equipment, build new 
capacity, invest in new designs, safety test the products, and 
also undertake a significant work force adjustment in the U.S. 
market. Manufacturers also have to undertake a massive 
education campaign to inform consumers and retailers on why 
they should be converting from a 100-watt light bulb to a 72-
watt light bulb, as in the legislation.
    Further, industry projects the new halogen technology that 
we've talked about for the 100-, 75-, and 60-watt bulbs, is not 
going to be suitable for the replacement of the 40-watt light 
bulb, and a new technology will need to be invented for that. 
Accordingly, that's why we propose in the legislation that the 
effective date for the 40-watt light bulb be moved from January 
1, 2014 to January 1, 2015.
    Let me now turn to the bill's efficiency standards. With 
light bulbs, the best way to save energy is to reduce connected 
load, and that is watts. This bill does that by setting a 
maximum wattage that any bulb can consume for a given lumen 
range, or amount of light you get from the bulb, being lumens. 
We estimate that U.S. consumers will save over 50 percent--50 
percent--of the energy they now use annually, if this--if the 
bill's standards become law. This strategy is superior to the 
lumen per watt approach that was passed in the House bill. An 
LPW approach may have the perverse affect of driving consumers 
to buy higher wattage bulbs, which would be--result in more, 
and not less, electrical consumption and this is the wrong 
direction.
    The legislation also provides for lumen ranges, which we 
believe are consistent with consumers experiences buying their 
current bulbs, so they will have the same quantity of light, 
but achieve that at a significantly lower energy consumption. 
As in most other standards applied in this legislation, Mr. 
Chairman, S. 2017 sets the initial standards, and then directs 
the Department of Energy to conduct follow-on rulemakings to 
determine if the standards should be amended. There are two 
follow-on rulemakings proposed in the legislation.
    The bill also includes a backstop standard that would 
automatically become the 2020 standard if DOE missed its 
statutory rulemaking deadline. The bill language would 
essentially establish the 2020 standard at 45 lumens per watt.
    NEMA strongly apposes the setting of a minimum 45 lumens 
per watt performance standard now, to be effective in 2020. An 
LPW standard would essentially permit only these compact 
fluorescent lamps being available based on manufacturers 
projections of technical feasibility and acceptance. Further, 
these CFLs have previous concerns as I noted in my testimony 
and are overwhelmingly sourced from China.
    In addition, the proposed 45 LPW standard would also have 
the affect of outlawing the new high-efficiency halogen product 
and new high-efficiency incandescent products the industry will 
be introducing only five to 8 years earlier. This brings into 
question whether industry would be willing to undertake new 
product investment at all if it becomes law and if so, at what 
price to the consumer.
    Therefore NEMA does not support mandating today, in 2007, 
what the new efficiency standards should be in 2020, given that 
this is 13 years into the future. We are committed to work with 
Congress and stakeholders to ensure that DOE stays on schedule.
    Mr. Chairman, the bill sets up a number of additional 
provisions to track exempted and specialty bulbs, and to impose 
additional standards if there's abnormal growth in those 
products. This is an important step. We also not the bill 
provides an opportunity to petition DOE to undertake a 
rulemaking on products not initially covered by the standards, 
if such products become used in general service applications. 
The bill supports a provision for new consumer labeling for 
light bulbs, and we think this is very important. For the first 
time, the bill allows States, in addition to the Federal 
Government, to enforce these national light bulb standards.
    Mr. Chairman, in closing, let me thank you for introducing 
this significant bill. One estimate that I have seen, suggests 
this bill by itself, is the single largest source of energy 
savings from any appliance standards--standard set to date. 
Moreover, the energy savings are nearly as large as the 
combined standards of all of the Federal standards adopted from 
1987 through 2000, over 88 billion kilowatt-hours.
    NEMA looks forward to working with you and the committee 
and to support legislation for national energy efficiency 
standards for medium screw-based general service light bulbs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pitsor follows:]
     Prepared Statement of Kyle Pitsor, Vice President, Government 
 Relations, National Electrical Manufacturers Association, Rosslyn, VA
    On behalf of the National Electrical Manufacturers Association, I 
am Kyle Pitsor, NEMA vice president of government relations. NEMA is 
the national trade association representing the electrical 
manufacturing industry. Founded in 1926 and headquartered in Rosslyn, 
Virginia, our 450 member companies manufacture products used in the 
generation, transmission, distribution, control, and end-use of 
electricity. These products are used in the utility, medical imaging, 
industrial, commercial, institutional, and residential markets.
    NEMA members are at the very heart of our national effort to reduce 
energy use through the research, development, manufacturing, and 
deployment of energy-efficient products and technologies. Significant 
for today's hearing, NEMA is the association for the U.S. lighting 
industry representing light bulb (lamp) manufacturers. The NEMA Lamp 
Section consists of 15 companies that sell over 95 percent of light 
bulbs used in the U.S. NEMA members are engaged in all the various 
types of light bulb technologies--incandescent (including halogen), 
fluorescent, high intensity discharge, and solid state (e.g., LEDs or 
light emitting diodes)--and serve all lighting application markets.
    Mr. Chairman, earlier this year the NEMA Lamp Section announced a 
joint industry commitment to advance public policies that would 
transform the U.S. market to more energy-efficient lighting within a 
decade. Lighting use in the U.S. consumes 20-22 percent of all 
electricity generated. Based on Department of Energy data, 765 billion 
kWh of energy is used annually in the U.S. by lighting systems, and 
about twice that much is lost as heat in the production and 
transmission of that electricity. Put another way, every time you save 
1 watt with lighting, the utility will also save the equivalent amount 
of fuel it takes to produce 3 watts of power, Thirty percent of the 
energy consumed in an office building is from lighting use, and 5-10 
percent of residential energy use is for lighting. There are about 4 
billion medium screw-base general service light bulbs installed in the 
U.S. with 79% of these found in residences.
    Given the significance of lighting in our economy, NEMA views any 
lighting market transformation as a matter of national importance that 
must come about through a federal solution by setting technology-
neutral, performance-based standards that would eliminate today's 
inefficient general service light bulbs from the market. A Federal 
regime is crucial in this area, since a host of state legislatures 
stretching from Connecticut and Rhode Island to California and Nevada 
have been considering widely varied state regulations that are 
sometimes unworkable, raising the specter of a patchwork of unwieldy 
and conflicting mandates that would complicate manufacturing, 
distribution and retailing, and create customer confusion. We look to 
the Senate for action due the ambiguity in the preemption provision for 
light bulbs in the recently passed House energy bill.
    We support S. 2017's focus on general service light bulbs. This is 
where the greatest energy savings can be attained on a national scale. 
The entire discussion of ``phase out of least efficient general service 
light bulbs'' has been at the industry's initiative. This is not a case 
of manufacturers dragging their heels, but of leading the way. New 
standards-setting legislation is needed in order to further educate 
consumers on the benefits of energy-efficient products. Importantly, 
the legislation will provide manufacturers certainty in order to 
schedule investments for transforming the market.
    In the U.S., NEMA members sold about 1.7 billion medium screw-based 
light bulbs in 2006. Of that 1.7 billion, about 1.5 billion were 
incandescent bulbs and 200 million were compact fluorescent lights 
(CFLs). CFL screw-based types represented about 10% of the market in 
2006, having grown about 50% per year since 2000. U.S. production is 
over 4 million light bulbs daily, with CFLs and additional bulbs 
imported. NEMA member manufacturers propose replacing today's least 
efficient light bulbs with a combination of products that will provide 
consumers multiple product choices. The replacement light sources will 
be a combination of compact fluorescent and new technologies, including 
high-efficiency halogen, high-efficiency incandescent, and high-
brightness light emitting diodes (LEDs). This choice is important for 
several reasons. Compact fluorescent lamps, while relatively efficient, 
are relatively deficient in color rendering (especially red), tend to 
be larger than incandescent lamps (giving rise to ``fit'' issues in 
existing lighting fixtures), have low light output in exceptionally hot 
or cold conditions, and, in general, cannot be dimmed since they are 
not compatible with dimmers.
    Meeting demand for replacement products and providing consumer 
education on the new lighting products will be a difficult, 
challenging, and sustained task. Accordingly, the legislation needs to 
provide for an orderly and phased national approach in order for the 
transformation to be successful. S. 2107 currently proposes to start 
the phase-in on January 1, 2012, and for it to be complete in 2 years 
(by January 1, 2014). NEMA proposes that the phase-in begin on January 
1, 2012, and be completed in 3 years (by January 1, 2015).
    Neither industry nor regulators will be able to reliably predict 
the dynamics of market acceptance of the different kinds of replacement 
lamps. Manufacturers must be able to ``learn as we go'' in order to be 
prepared to build the right manufacturing and commercial capacity to 
meet market demand prudently. A sound phase-in period would allow 
industry to evaluate market responses and act accordingly. A 3-year 
transition period would be eminently reasonable for the interpretation 
of such new (and likely strong) market forces which necessitate 
manufacturing responses of a magnitude not previously seen in this 
industry. Timing and learning are crucial factors for an orderly and 
cost effective transition to a new array of products that are taken for 
granted in today's vast consumer market.
    While we support the beginning of the phase-in on January 1, 2012, 
the bill also targets the 40 watt category to be effective January 1, 
2014. The 2014 target date presents a serious problem for the 
manufacturers. For the reasons below, NEMA recommends that a one-year 
interval between the 60 and 40 watt effective dates be adopted, with 
the 40 watt category effective date set at January 1, 2015.
    This timetable is absolutely crucial for U.S. manufacturing 
conversion. Industry projects that the halogen technology suitable for 
replacing the 100 watt, 75 watt, and 60 watt general service lamps will 
not likely be applicable for the 40 watt replacement. For good color 
rendering and dimmable replacement light bulbs, an entirely new 
technology will have to be introduced. Moreover, pegging the phase-out 
to 2015 only impacts 12 percent of general service light bulbs sold 
today.
    For each of the product categories, before the new halogen and high 
efficiency incandescent bulbs can be sold, the manufacturers must 
design, build, and install new production equipment for each product 
line, retire or re-purpose existing equipment, determine the cost 
impact of stranded investments, ensure suppliers of new raw materials 
and components are evaluated, invest in new packaging designs, safety 
test and qualify the new products for market, and address production 
capacity needs. In addition, extensive work force adjustments must be 
undertaken for the new facilities.
    Phasing is also needed for retailers and consumers. Manufacturers 
will need to undertake massive education programs to ensure that 
retailers and consumers understand how the new lower wattage products 
should be promoted and used. Furthermore, phasing helps consumers 
transition from today's world where a 25 cent light bulb is taken for 
granted to a new world where a light bulb is an investment.
    Let me now turn to the bill's efficiency standards. With light 
bulbs, the best way to save energy is to reduce connected load; that is 
``watts.'' This bill does that by setting a maximum wattage that any 
bulb can consume for a given lumen range (amount of light from the 
bulb). We estimate that U.S. consumers will save over 50% of the energy 
now used annually if the bill's standards become law. This strategy is 
superior to a minimum lumens-per-watt (LPW) approach which was made 
part of the House-passed bill (H.R. 3221). An LPW approach may have the 
perverse effect of driving consumers to buying higher wattage light 
bulbs which would result in more--not less--electrical consumption. 
This is the wrong direction.
    The Senate's proposed wattage cap with a lumen range approach is 
also technology neutral and allows manufacturers the ability to offer a 
range of products to consumers using different technologies. The lumen 
ranges proposed in the bill are consistent with consumer experience 
with today's general service categories of 100, 75, 60 and 40 watt 
light bulbs thereby providing consumers with the same quantity of light 
while using significantly less energy.
    As in most other appliance standards legislation, S. 2017 sets the 
initial standards levels, and then directs the Department of Energy 
(DOE) to conduct follow-on rulemakings to determine if the standards 
should be amended in the future. In this bill, two follow-on 
rulemakings are included. One is scheduled to be effective on January 
2, 2020, and a second to be effective on January 1, 2025. The bill 
includes a ``back-stop standard'' that would automatically become the 
2020 standard if DOE missed its statutory rulemaking deadline. The 
bill's language would establish the 2020 standard at 45 LPW.
    NEMA strongly opposes setting a minimum 45 LPW performance standard 
now, to be effective in 2020. A 45 LPW standard would essentially 
permit only compact fluorescent lights (CFLs), based on today's 
manufacturers' projection of technical feasibility and market 
acceptance, including cost. Manufacturers have the expertise necessary 
to best make those assessments. Further, these CFLs have the previously 
mentioned performance limitations and are overwhelmingly sourced from 
China. The proposed 45 LPW standard would also have the effect of 
outlawing the new high-efficiency halogen and new high-efficiency 
incandescent products that the industry will be introducing only 5-8 
years earlier. This brings into question whether industry would be 
willing to undertake new product investment at all if this becomes law, 
and if so, at what price to the consumer. NEMA does not support 
mandating in 2007 what the new product efficiency standard should be in 
2020, given that this is 13 years into the future. We are committed to 
work with the Congress and stakeholders to ensure that DOE stays on 
schedule.
    We note that while the bill is properly focused on transforming the 
general service light bulb market, it also does set up a process to 
track exempted or specialty light bulbs, and for additional standards 
to be imposed if abnormal market growth develops. This is important to 
ensure that non-general service application bulbs do not become a means 
to circumvent the transformation to energy-efficient products for 
general lighting applications. We also note that the bill provides the 
opportunity to petition DOE to undertake a rulemaking on products not 
initially covered by the standards if such products become used in 
general service applications.
    NEMA supports the bill's provision for new consumer labeling of 
these new light bulbs to better assist consumers in making the right 
choices for their lighting needs, and the bill's provision to allow 
States, as well as the Federal Government, to enforce these national 
light bulb standards.
    Title II of the bill incorporates a consensus standard developed by 
NEMA and the American Council for an Energy-Efficient Economy (ACEEE). 
This consensus standard would set for the first time new federal 
standards on certain metal halide lighting fixtures. A similar 
provision was incorporated in H.R. 3221 which passed the House of 
Representatives on August 4, 2007. NEMA supports this provision.
    Mr. Chairman, in closing, let me thank you for introducing this 
significant bill. One estimate that I have seen suggests this bill, by 
itself, is the single largest source of energy savings from any 
appliance efficiency standard to date. Moreover, the energy savings are 
nearly as large as the combined energy savings from ALL federal 
appliance standards adopted from 1987 through 2000 (88 billion kWh/
year).
    NEMA looks forward to working with you and the Committee to address 
the issues we raised in our testimony, and to support legislation to 
provide for national energy efficiency standards for medium screw-base 
general service lamps. I would be pleased to address any questions. 
Thank you.

    The Chairman. Thank you very much for your testimony.
    Now we'll hear from Mr. Nadel, and then we'll have some 
questions. Go right ahead.

STATEMENT OF STEVEN NADEL, EXECUTIVE DIRECTOR, AMERICAN COUNCIL 
                FOR AN ENERGY-EFFICIENT ECONOMY

    Mr. Nadel. OK. Thank you, Mr. Chairman, Senator Murkowski, 
my name is Steve Nadel, I'm the Executive Director of the 
American Council for an Energy Efficient Economy. We're a non-
profit organization dedicated to increasing energy efficiency 
as a means to promoting both economic prosperity and 
environmental protection.
    I'm here today representing not only ACEEE, but also a 
variety of other energy efficiency groups, including the 
Alliance to Save Energy, The Appliance Standards Awareness 
Project, The Earthday Network, The Natural Resources Defense 
Council, and the Southwest Energy Efficiency Project.
    Our coalition believes that this is a big step in the right 
direction for improving the efficient use of energy in the 
United States. We thank you, Senator Bingaman, as well as 
Senator Stevens and the other co-sponsors for introducing this 
bill and moving this dialog along. However, we also think this 
bill can and should be improved in several ways, as I discuss 
in my written testimony.
    In the brief time here today, I just wanted to concentrate 
on two issues. First, I wanted to talk about the tier-two or 
the stage-two standard, the 2020 standard. We think this is 
vitally important. About half of the savings in the bill are in 
this tier-two. As Representative Harman testified earlier, this 
was an essential ingredient to lock in this tier-two, if you 
will, for their agreeing in the House to the preemption 
language.
    As you noted, Senator Bingaman, this calls for DOE 
rulemaking, but then has a backstop. If the backstop were to be 
called for, there are a variety of ways that manufacturers can 
meet it. Obviously there are compact fluorescent lamps, there 
are also LEDs. Assistant Secretary Karsner earlier testified 
that we're already up to 79 lumens per watt for LEDs in the lab 
and they're targeting 200. So those, by 2020, should be widely 
available.
    There were also other advanced incandescent products. To 
just quote from a recent GE press release on their new high-
efficient product. They say, ``Ultimately, the high-efficiency 
lamp technology is expected to be about four times as efficient 
as current incandescent bulbs and comparable to CFL bulbs.'' So 
GE has already gone public on an incandescent product that 
would meet this backstop standard.
    Also, I should point out, in the Senate bill, unlike the 
House bill, it doesn't mandate as a backstop, 45 lumens per 
watt, it says that--it says that the DOE rulemaking should save 
an average of 45 lumens per watt. So there is the flexibility 
for DOE to say, for certain product classes it will be below 45 
lumens per watt, as long as it's higher than others. So these 
details can be worked out by DOE.
    I think by setting a floor now, Congress is providing firm 
direction to manufacturers about what products they need to 
develop by 2020. As we just heard, manufacturers believe they 
need until 2015 in order to complete the transition to the 
tier-one standard. They need multiple years to prepare. If we 
delay a decision to the very end, manufacturers don't have 
advanced warning, they could again be saying, ``Oops, sorry, 
there's not enough time to prepare.'' By providing this 
backstop, we give them plenty of time to know about where we're 
heading and then the details can be worked out.
    The second area I wanted to concentrate on is about 
loopholes. This bill regulates the most common types of lamps, 
but less common lamps, that still can be used in general 
service applications, are not regulated. So you're still free 
to sell a 60-, 100-, 150-watt version of these unregulated 
products and put them in a normal fixture. We think this needs 
to be addressed.
    The bill does contain a petition process, under which 
someone can petition DOE to set standards for new product 
classes, but it's a time-consuming and burdensome process. For 
example, you need to provide sales data on the exempted 
products, you need to provide data on how these products are 
being used in homes. Only manufacturers have the sales data, 
other people don't. It would require a field survey, an 
expensive process, if you want to show actually how bulbs are 
being used in homes. So we think this process doesn't really 
achieve its intended purpose.
    The bill also does have a process where manufacturers can 
petition to add exemptions to the bill. We think this is a much 
better process to put most of these bulbs through, rather than 
having to close loopholes, we much prefer a manufacturer having 
to petition to open a loophole, or to petition to say we're not 
opening a loophole. So, we recommend that as a general rule, 
you regulate all the products, list a whole bunch of specific 
exemptions we can identify now that won't be used in general 
service applications, but if someone comes up with new product, 
rather than just assume it's exempt, they need to show that 
it's needed for an application, it can't meet the standard, and 
wouldn't be used in general service applications.
    What I wanted to show is a couple of examples of this. This 
is a BR lamp. It's a type of lamp that was exempted in the 1992 
Energy Policy Act. It was a niche product at the time, but the 
slight little bulge made it exempt. It's now over half of the 
sales of reflector lamps for residences, become a major 
loophole. Likewise, this is what's called an intermediate-base 
ceiling fan lamp. These things weren't even invented when the 
Energy Policy Act of 2005 was passed. That Act required--only 
regulates medium-base bulbs. So, some manufacturers came out 
with these intermediate-base bulbs. They're half an inch in 
diameter. They're not regulated at all, and virtually all of 
the savings from the ceiling fan standard are now being lost 
due to bulbs like this.
    Turning now to this bill, we have the G lamp. It's a round 
lamp, a globe lamp, but you can fit it into most of the 
existing fixtures, not regulated, you can still sell a 60-watt, 
a 100-watt version of these. We recommend that these be 
covered, as well.
    To provide a couple of other examples. Here I have what are 
called the CP19 and a BT15. These are both products you can fit 
in most fixtures. These happen to be regulated. What if someone 
were to come up with a CP15, slightly smaller, or a BT19, 
slightly larger. They're totally unregulated. There are lots of 
ways to get around this standard. So that's why we recommend 
that instead of just regulating a narrow group, regulate them 
broadly. You can meet these standards with these products, but 
allow, both for additional exemptions in this bill and for a 
process for people to petition for a new exemptions.
    With that, I wrap up my testimony and welcome any questions 
you may have. Thank you.
    [The prepared statement of Mr. Nadel follows:]
   Prepared Statement of Steven Nadel, Executive Director, American 
                Council for an Energy-Efficient Economy
                                summary
    This testimony is presented on behalf of a coalition of energy 
efficiency advocacy organizations. We believe that S. 2017 is a huge 
step in the right direction for improving the efficient use of energy 
in the United States. The version of the bill as introduced is a 
substantial improvement over earlier drafts, particularly in how it 
sets a floor for the DOE rulemaking that will set a revised standard 
that takes effect in 2020. We think it is vitally important to set such 
a floor so that large savings are ensured (nearly half the savings are 
from the second stage standard) and so that manufacturers have ample 
time to prepare for the product changes that will be needed to meet 
this new standard.
    While there are many provisions we like in the bill, we also think 
it can and should be improved in order to:

          1. Expand coverage of the bill to additional lamp types and 
        take other steps that are needed to plug loopholes that would 
        allow low-efficiency exempted products to be sold in place of 
        the higher efficiency products called for by the bill. If these 
        loopholes are not addressed, much of the savings projected for 
        the bill could evaporate.
          2. Include lumen per Watt requirements and/or adjust lumen 
        output bins in order to reduce the likelihood that lamps with 
        low light output will be sold that consumers think are too dim. 
        If consumers find that lamps are too dim, some of them will 
        switch to higher wattage lamps, eliminating significant energy 
        savings.
          3. Modify the preemption of state standard provisions in 
        order to protect states that have adopted or are in the process 
        of adopting state standards on general service incandescent 
        lamps.
          4. Make a variety of technical changes so that intent is not 
        misunderstood and implementation can proceed in a logical 
        fashion.
          5. Consider a new section on fluorescent tube efficiency 
        standards based on discussions between ACEEE and lamp 
        manufacturers. This new provision would update standards set by 
        Congress in the Energy Policy Act of 1992.

    With our recommended changes we estimate that this bill will, by 
2030, reduce annual electricity use by nearly 200 billion kWh, reduce 
peak demand by 31,000 MW (equivalent to capacity of more than 100 power 
plants of 300 MW each) and reduce consumer and business energy bills by 
about $18 billion per year. These are very large savings. In addition, 
these provisions will reduce greenhouse gas emissions by nearly 40 
million metric tonnes, adding to the substantial savings in the Senate-
passed energy bill and making a useful downpayment in efforts to 
address global warming. We urge you to include these improved 
provisions in an energy bill reported out of this Committee and the 
upcoming House-Senate energy bill conference.
                              introduction
    My name is Steven Nadel and I am the Executive Director of the 
American Council for an Energy-Efficient Economy (ACEEE), a nonprofit 
organization dedicated to increasing energy efficiency as a means of 
promoting both economic prosperity and environmental protection. I am 
here today representing a coalition of energy efficiency organizations 
that has been working together on lamp standard issues for many months. 
In addition to ACEEE, other members of this coalition are the Alliance 
to Save Energy, Appliance Standards Awareness Project, Earth Day 
Network, Natural Resources Defense Council, and Southwest Energy 
Efficiency Project. Our coalition thanks you for the opportunity to 
testify today.
    S. 2017 is an important step forward in efforts to secure large 
energy savings and greenhouse gas reductions by reducing the energy now 
used by general service incandescent lamps and also metal halide 
lighting fixtures. The provisions on consumer education will also be 
very useful as are the sections on research and development and mercury 
use. We thank Senators Bingaman and Stevens for introducing this bill 
and moving the discussion forward on how best to regulate lighting 
products to produce energy savings in a way that provides consumers 
with the light and amenities they need and that is workable for 
manufacturers.
    In my testimony here today I will discuss each of the bill's 
sections in turn--what we like about this bill and how it can be 
improved. I will also recommend that a new section be added to adopt 
updated standards on fluorescent tubes, based on discussions between 
ACEEE and the National Electrical Manufacturers Association (NEMA).
                   general service incandescent lamps
    General service incandescent lamps are a very important target for 
energy savings. According to a recent study commissioned by the U.S. 
Department of Energy (DOE), there are approximately 4 billion general 
incandescent lamps in use in the U.S. that consume approximately 286 
billion kWh of electricity annually. At the current national average 
electricity price of about 9 cents per kWh, this means consumers and 
businesses are paying more than $25 billion per year to operate general 
service incandescent lamps. Of this energy use, 58% is in the 
residential sector, making these standards particularly important to 
individual consumers.\1\
---------------------------------------------------------------------------
    \1\ Navigant Consulting, 2002, U.S. Lighting Market 
Characterization, Volume 1: National Lighting Inventory and Energy 
Consumption Estimate. Washington, DC: Office of Energy Efficiency and 
Renewable Energy, USDOE.
---------------------------------------------------------------------------
    S. 2017 will save energy from general service incandescent lamps in 
several stages. In the first stage, effective 2012-2014, it will phase 
out the most common types of incandescent lamps in favor of products 
that use about 25-30% less energy (e.g., a 60 Watt bulb will be 
replaced with a bulb using 43 Watts or less). In addition, because 
these 43 Watt bulbs likely will cost somewhat more than today's 60 Watt 
bulbs, many consumers will choose to purchase a compact fluorescent 
lamp (CFL), saving additional energy (e.g., one using about 15 Watts 
instead of 43 Watts) at little additional cost. In the second stage, 
the bill requires the DOE to set a new standard, but provides an 
important backstop by requiring that the new standard save at least as 
much energy as a standard that would require 45 lumens of light output 
per Watt of energy input. Using the same example of a current 60 Watt 
bulb, this means that in stage 2, energy use will be reduced to about 
20 Watts, more than doubling the energy savings from the first stage. 
The bill also calls for a third stage, with the standard to be set by 
DOE.
    Our coalition believes this bill is a huge step in the right 
direction for improving the efficient use of energy in the United 
States. However, we also think it can and should be improved, primarily 
by plugging potential loopholes in the bill that would allow low-
efficiency exempted products to be sold in place of the higher 
efficiency products called for by the bill. In addition, we think that 
refinements are needed to reduce the likelihood that lamps with low 
light output will be sold that consumers think are too dim and to 
protect states that have adopted or are in the process of adopting 
state standards on general service lamps. Later in my testimony I 
elaborate on these points, as well as several recommended technical 
corrections.
    As most of you probably know, the energy bill recently adopted by 
the House of Representatives includes a section on general service 
incandescent lamp standards authored by Representatives Jane Harman and 
Fred Upton. This provision is broadly similar to S. 2017 in that it 
requires efficiency improvements to these lamps in two stages with 
effects similar to the first two stages in S. 2017. However, there are 
quite a few differences in the details of these bills, some of which 
are important.
    For example, S. 2017 was drafted to fit into existing appliance and 
equipment standards law while the House bill is a stand-alone section. 
We support the S. 2017 approach since it takes advantage of the many 
important implementation details now in current law. We also like the 
fact that S. 2017 includes phase 1 standards based on maximum power 
(watts) for each range of light output (lumens) that is comparable to 
today's incandescent lamps. By contrast, the House bill used a lumens-
per-watt approach that, unless Watt caps are also added, could allow 
improved efficiency to be translated into more light (i.e., higher-
output lamps) rather than lamps that use less electricity while 
providing about the same amount of light. On the other hand, there are 
several provisions in the House bill that are superior and should be 
incorporated in S. 2017 as I discuss later in my testimony.
    ACEEE, with help from the Alliance to Save Energy, has estimated 
that the House general service incandescent lamp standard provision 
will reduce U.S. electricity use by about 81 billion kWh in 2020, peak 
electric demand by nearly 10,000 MW (the capacity of 33 power plants of 
300 MW each), and greenhouse gas emissions by 16 million metric tonnes 
of carbon. By 2030, due to the stage two standards in the bill, these 
annual savings increase to 143 billion kWh, 17,500 MW of peak power 
(the capacity of 58 power plants), and 28.5 million metric tonnes of 
carbon. At 9 cents per kWh, annual energy bill savings from these 
standards will be about $7 billion from stage 1 and $13 billion from 
stage 2.
    By comparison, our estimate is that S. 2017 will save a little more 
energy in 2020 and a little less in 2030 than the House bill. Savings 
in 2020 are higher since S. 2017 includes watt limits on intermediate 
and candelabra base lamps and also includes wattage caps on all lamps 
(these items are not in the House bill). Savings are lower in 2030 
since the guaranteed second stage standard is stronger in the House 
bill. Specifically, our estimates of savings from S. 2017 are as 
follows:

  <bullet> In 2020, annual energy savings of 85 billion kWh (reducing 
        bills by $7.7 billion) and peak demand reductions of 10,500 MW 
        (the capacity of 35 power plants of 300 MW each). Greenhouse 
        gas reductions of 17 million metric tonnes of carbon.
  <bullet> In 2030, annual energy savings of 139 billion kWh (reducing 
        bills by $12.6 billion) and peak demand reductions of 11,600 MW 
        (the capacity of 38= power plants of 300 MW each). Greenhouse 
        gas reductions of 27.8 million metric tonnes of carbon.

    Our estimates of savings from both bills are highly approximate as 
they depend on judgments on the second stage standard to be set by DOE 
(our estimate assumes the minimum) and how widely manufacturers and 
importers exploit loopholes that differ between the bills.
    To assure these savings, it is absolutely critical that final 
legislation close the easy-to-exploit loopholes that would allow 
circumvention of the intended standards.
    Turning now to some of the details of S. 2017, our comments fall 
into five categories:

          1. The second stage standard (which takes effect 2020).
          2. Closing potential loopholes.
          3. Discouraging dim lamps.
          4. Preemption of state standards.
          5. Additional technical issues.

                         second stage standard
    Our coalition strongly supports having a guaranteed second stage 
standard in the bill. S. 2017 takes a smart approach by calling for a 
DOE rulemaking but providing a backstop standard in case DOE either 
does not complete the rule in time or the DOE standard fails to achieve 
the same energy savings as a 45 lumen per Watt standard. Effectively, 
this provision puts a floor on the DOE rulemaking, based on current 
known products (e.g., CFLs) and products that are expected to achieve 
these efficiency levels well before 2020 (e.g., light emitting diodes, 
or LEDs).\2\
---------------------------------------------------------------------------
    \2\ Other promising technologies are also in development such as 
ceramic filaments, selective emitters, and photonic lattices. See 
Calwell, Chris, Jan. 25, 2005, ``Technical Basis for General Service 
Incandescent Lamp Standards in California.'' Power Point presentation 
available from Ecos Consulting, Durango, CO. Additional options are 
provided by more efficient fill gases (used today but use could expand) 
and low voltage input (planned for some European products).
---------------------------------------------------------------------------
    As this committee knows, DOE has missed all of its Congressionally-
set deadlines for new efficiency standards since 1990, so it is 
important to have a clear and achievable minimum standard in place if 
DOE does not act in time. Most of the new standards set by Congress in 
the Energy Policy Act of 2005 and in energy bills passed by the House 
and Senate in 2007 either contain such a backstop provision or allow 
states to set standards if DOE misses its deadlines. Also, in the case 
of new lamp standards, in order to achieve the large energy savings 
that can clearly be achieved with stage two, major product changes will 
be needed. The provision to create a floor for the stage 2 standard 
provides a clear direction to manufacturers to work on developing a 
full array of products that can meet this floor by 2020. In other 
words, manufacturers have 13 years to prepare for the new standard.
    Without such clear direction, manufacturers could argue during a 
2014-2017 rulemaking that they are not ready for a strong standard and 
either the standard needs to be weakened or they need many more years 
to prepare, delaying the effective date of the new standard. These 
savings are substantial--ACEEE estimates that nearly half of the annual 
energy and carbon reductions in 2030 from the general service 
incandescent lamp standard in S. 2017 are due to the stage 2 standard.
    The costs of any delay in stage 2 implementation would be enormous. 
Unlike many other products, lamps last a few months to a few years. As 
a result, the total effect in reduced electricity demand and emissions 
reductions from a new standard is attained soon after implementation.
    Our coalition also notes that while we support the approach in S. 
2017, we are also comfortable with the approach in the House bill that 
sets a similar stage 2 standard, but without the DOE rulemaking. (Some 
of our coalition prefer the House approach.)
    While we strongly support the stage 2 lamp standard provision in S. 
2017, we also think it should be refined in a few ways:

          1. The wording on p. 18 (lines 10-16) is ambiguous and should 
        be clarified in order to make clear that the backstop standard 
        goes into effect if DOE either misses the deadline or sets a 
        standard that results in less energy savings than a 45 lumen 
        per Watt standard. We suggest specific rewording in the 
        appendix to my testimony.
          2. The backup standard of 300% of the efficacy of a 100 Watt 
        lamp (p. 18, line 19-23) is imprecise, because there are many 
        types of 100 Watt lamps. The most common 100 Watt lamps on the 
        market today are about 17 lumens per Watt. To eliminate 
        ambiguity, we recommend that 50 lumens per Watt (rounding 300% 
        of 17 lumens per watt) be the backstop standard. This would 
        save a lot of work to interpret this provision and help avoid 
        the prospect of controversy, potential delays, and litigation.
          3. The bill calls for the Secretary to formally set the 
        backstop standard (p. 18, lines 17-23), even if the backstop 
        goes into effect because of DOE inaction. If a specific 
        backstop standard is set as we recommend above, then Congress 
        can and should just set the backstop standard instead of 
        requiring DOE action.
          4. The bill makes clear that DOE, in the stage 2 rulemaking, 
        should not limit consideration of new standards to just those 
        achievable by incandescent technology (p. 17, lines 9-10). We 
        think it would be useful to further clarify that if other 
        provisions of the law are met (including the provision to not 
        reduce consumer utility), it is possible that the new standard 
        will be met only by technologies that are not incandescent. We 
        are not saying such an event is likely, but instead saying that 
        the legislation should be clear about permitting such an event 
        if justified. We suggest specific legislative language in the 
        appendix to this testimony.
          5. In discussing the DOE stages 2 and 3 rulemakings, the bill 
        uses the term ``more stringent maximum wattage than the 
        standards specified [for stage one]'' (p. 17, lines 1-4) and 
        page 19, lines 5-10). We think DOE should have more flexibility 
        to consider other metrics such as lumens per Watt, especially 
        since the default standard is specified in lumens per Watt. 
        More agency flexibility could enable DOE to better meet the 
        underlying legal criteria of economic justification and 
        technical feasibility and may be useful for harmonizing with 
        international standards. To allow such consideration, the words 
        ``maximum wattage than the'' should be deleted. Alternatively, 
        a period could be added after ``amended'' in line 1 on page 17 
        and the rest of the paragraph through the end of line 4 struck.
                      closing potential loopholes
    Past history shows that when Congress sets lamp standards, creative 
manufacturers (not necessarily large companies or even companies in the 
market today) can often find ways to legally evade the law by 
exploiting loopholes. Typically a small manufacturer takes the first 
step to exploit a loophole and evade Congressional intent, and then 
larger manufacturers produce similar ``loophole products'' in order to 
be competitive.
    For example, in the Energy Policy Act of 1992, a small niche 
product known as ``BR'' lamps (BR for ``bulged reflector'') were 
exempted because they were an obscure niche product. However, after 
enactment, the inefficient BR lamp became the dominant reflector lamp 
for the residential market, increasing from niche status to more than 
50% of sales. This loophole is finally being narrowed in the 
incandescent reflector lamp provision of the 2007 House and Senate 
energy bills.
    Likewise, the Energy Policy Act of 2005 required ceiling fan light 
kits to use CFLs, but provided an exception for lamps that do not use 
medium-screw bases (the common 1 inch diameter screw base). Since this 
legislation, intermediate base incandescent lamps (\1/2\ inch in 
diameter) have become prevalent in ceiling fan light kits and use of 
candelabra bases (\1/4\ in diameter) has also increased, defeating the 
intent of the law, which was to ensure use of more efficient CFLs 
rather than inefficient incandescent lamps in ceiling fans.
    Given this history, this new legislation should be especially 
vigilant for potential loopholes. S. 2017 takes important steps in this 
regard, including identifying likely loopholes such as vibration 
service, rough service, and shatter-proof lamps and calling for 
monitoring of sales of these lamps and a procedure to close these 
loopholes if sales of these exempt products double from baseline 
levels. However, much more is needed to prevent loopholes. Below we 
identify a number of potential loopholes and suggest ways to fix these.
    New lamp shapes and bases.--The bill lists specific lamp shapes 
that are regulated or their ``equivalent'' (p. 4, lines 14-18). 
``Equivalent'' can be a very specific term and this appears to us to 
allow manufacturers to develop new shapes that are similar to but not 
equivalent to current shapes in order to get around the law. We 
strongly recommend changing the bill language to cover all screw base 
lamps, and then adding to the list of exemptions as needed--for 
example, exempting T and G40 lamps as well as exempting B, BA, CA, F, 
G16\1/2\, and S lamps less than or equal to 40 Watts. Significantly, if 
all bases are covered, there is no incentive for some manufacturer to 
develop a new base.
    At a minimum, the phrase ``equivalent'' should be changed to 
``similar'' and this section moved to after the reference to the ANSI 
standard, since our understanding is that ANSI does not define either 
``equivalent'' or ``similar.''
    We should note that the House bill also has the same loophole 
problems. Representative Harman's staff have told us they are 
supportive of efforts to address this problem.
    Petitions for extended coverage.--If the Senate elects to stick 
with the narrowly defined approach to coverage in the current bill, we 
recommend that the provision allowing for extension of coverage on page 
14 be clarified. Currently, the language allows for petitions seeking 
extension of coverage to those products ``excluded'' from the 
definition. The bill explicitly defines nineteen ``exclusions.'' 
However, the bill also implicitly excludes dozens of other lamp types, 
shapes and bases (some of which are not yet even invented) but which 
could become common for general service lighting. The law should make 
crystal clear that petitions to close loopholes may apply to both 
explicitly and implicitly exempted products. We suggest language in the 
appendix to the testimony.
    Also, the procedure for interested parties to expand coverage to 
new lamp classes (p. 15, lines 1-10) provides too high a burden on 
petitioners. We recommend that line 5 be amended to insert 
``availability and/or'' in front of ``sales.'' It is hard for 
petitioners outside of lamp companies to have sales data; data on lamp 
availability can be more readily collected. Likewise, on line 9, insert 
``likely'' in front of ``being.'' Without doing an expensive field 
survey, it cannot be determined if a specific type of lamp is widely 
being used. Addition of the word ``likely'' or ``probably'' allows for 
reasonable judgments to be made without definitive evidence. This 
provision only initiates a longer process during which additional data 
can be collected before decisions are made.
    G (globe) and P lamps.--G lamps are round lamps, which are becoming 
more popular. While large lamps of this type (such as G40 lamps, which 
are 5 inches in diameter) cannot be used in the most common lighting 
fixtures, smaller lamps such as G25 and G30 (between 3 and 4 inches in 
diameter) often can. Likewise, P lamps (pear?) can also be used in many 
general lighting fixtures. The change suggested in the paragraph above 
will address these problems. But if the Senate elects not to make this 
change, these lamps should be added to the coverage of this standard so 
they don't become loopholes. At an absolute minimum, these lamps should 
be added to the sales monitoring section of the legislation and if 
sales double relative to the baseline, then these lamps should be 
subject to the same standards as their A-shaped cousins.
    B, BA, CA, F, G16\1/2\, and S lamps over 40 Watts.--These are 
different types of decorative lamps that are generally 40 Watts or 
less, but for most of these products, 60 W lamps are also sold. But 60 
Watts is the most common incandescent lamp size and if 60 Watt lamps of 
these types are allowed, we would expect sales of these lamps to grow 
dramatically, thus undercutting a significant fraction of the energy 
savings expected from phase 1 standards. To address this problem, we 
strongly recommend that these lamps be limited to no more than 40 
Watts, the same as for intermediate base lamps.
    Candelabra bases.--As noted above, candelabra bases are becoming 
more common in ceiling fan light kits in order to get around the new 
standard set in the Energy Policy Act of 2005. If new standards go into 
effect for many of the more common lamps, we expect candelabra bases to 
become even more common. S. 2017 attempts to addresses this problem by 
imposing a 60 W cap on candelabra bases (p. 13, line 12). But, as 
discussed above, 60 Watts is the most common incandescent lamp size and 
if 60 Watt candelabra bases are allowed, we would expect sales of these 
lamps to increase substantially, undercutting the standard. To address 
this problem, we recommend that these lamps be limited to no more than 
40 Watts, the same as for intermediate bases. Candelabra lamps are 
historically designed for decorative purposes, usually in multi-socket 
fixtures, and often with dimming controls, where the extra light output 
of a 60 Watt lamp is not needed.
    Rough, vibration, etc. service.--As discussed above, S. 2017 
requires DOE to monitor the sales of rough and vibration service, and 
shatter-resistant lamps. These lamps are virtually the same shape as 
conventional lamps and can be used in virtually all conventional lamp 
sockets. To help keep sales of these lamps from exploding, we recommend 
that the bill direct that these lamps be exempted from the standards 
only if sold at retail in single-lamp packages. Wholesale sales can 
still be in bulk, but retail sales should be restricted. We have 
already seen 10-packs of low-cost vibration service lamps for sale in 
California in order to get around California's incandescent lamp 
standards. Single-lamp packaging (or at most, two-lamp packaging) will 
keep that from happening nationally. The House bill includes a 
requirement for single-lamp packaging of these lamps. The Senate bill 
should adopt this same provision. S. 2017 includes single-lamp 
packaging as part of the backstop standard for these lamps, but by the 
time the backstop standard is imposed, significant energy savings will 
be lost. It is better to close this door before the horse leaves the 
barn.
    As noted above, S. 2017 calls for an accelerated DOE rulemaking if 
the sales of any of these lamps double relative to the baseline and 
provides a backup standard if DOE does not complete the rulemaking 
within one year. The House bill automatically imposes the backup 
standard without a rulemaking, thereby imposing the backstop standard 
sooner and also saving rulemaking resources for more important matters. 
We recommend that the Senate adopt the House approach and drop the 
rulemaking requirement.
                         discouraging dim lamps
    S. 2017 sets minimum lamp wattages for different lumen bins. The 
bins are meant to be equivalent to conventional 40, 60, 75 and 100 Watt 
lamps, but some of the bins are broad enough that lamps 14% dimmer than 
today's most common lamps can be sold. The approach in S. 2017 
encourages production of dimmer lamps by implicitly reducing the 
efficacy (lumens per watt) requirement as light output declines with 
each lumen bin. As lamps get dimmer, some consumers may be dissatisfied 
and move up to a higher lumen class, eroding much of the savings 
achieved. To address this potential problem, the bill would include 
both wattage caps and lumen per Watt floors in order to keep lamps from 
being too dim or too bright. We recommend adding the following lumen 
per watt (LPW) minimums within the various lumen bins of the tier one 
incandescent lamp standards in the table on p. 11 of the bill: 1490-
2600 lumens: 22.5 LPW, 1050-1489 lumens: 22 LPW, 730-1049 lumens: 20 
LPW, 310-729 lumens: 17 LPW.
    But if this step is not taken, at a minimum, we recommend revising 
several of the lumen classes in order to limit the bottom of the class 
to only 10% dimmer than today's most common bulbs. Specifically, we 
recommend that the 60 Watt equivalent class be 750-1049 lumens (not the 
730-1009 lumens now in the bill) and that the adjoining classes be 
adjusted so that the next lower class ends at 749 lumens and the next 
higher one starts at 1050 lumens (this change should be made in the 
table on p. 11).\3\ A similar change should be made to the lumen ranges 
for modified spectrum lamps (for the table on top of p. 12).
---------------------------------------------------------------------------
    \3\ A soft white 60 W lamp is typically 840 lumens; 10% lower is 
756 lumens. A soft white 75 W lamp is typically 1180 lumens; 10% lower 
is 1062 lumens. We have rounded to the nearest 50 lumens.
---------------------------------------------------------------------------
    Also, regarding the standards for modified spectrum lamps (on top 
of p. 12), these modified spectrum lamps will be considerably dimmer 
than the conventional lamps they replace. The lumen ranges in S. 2017 
for modified spectrum lamps are 25% lower than for standard lamps. 
Given recent technical developments announced by the major manufacturer 
of modified spectrum lamps,\4\ we believe that lower lumen levels are 
not needed, but if lumen levels are relaxed for modified spectrum 
lamps, they should be dropped no more than 15%.
---------------------------------------------------------------------------
    \4\ ``GE Announces Advancement in Incandescent Technology; New 
High-Efficiency Lamps Targeted for Market by 2010.'' Press release 
issued Feb. 23, 2007.http://www.genewscenter.com/Content/
Detail.asp?ReleaseID=1260&NewsAreaID=2&MenuSearchCategoryID=7.
---------------------------------------------------------------------------
                     preemption of state standards
    S. 2017 preempts state lamp standards with one limited exception--
states with standards that precede the legislation (currently 
California and Nevada) are allowed to enforce their standards until the 
federal legislation takes effect (p. 34, lines 16-24). We support the 
ability of states to enforce their existing standards, but believe that 
the preemption language overall is an unacceptable infringement on 
states' rights. What is most troubling is that a strong Nevada standard 
now part of state law will be replaced by a weaker federal standard 
when the initial federal standards in S. 2017 take effect. To our 
knowledge, in the 20 years of federal standards legislation, Congress 
has never done this before. In the past, stronger state standards have 
been grandfathered and preemption does not apply to them. We recommend 
that this approach be taken here and the Nevada standard (and any other 
state standards on general service incandescent lamps adopted prior to 
the enactment of federal standards) be grandfathered.
    In addition, California has begun a proceeding to revise its 
incandescent lamps efficiency standards and would like to continue this 
rulemaking without preemption so that they may meet the requirements of 
existing and pending state laws. California is submitting detailed 
comments to the Committee on this issue. We support California's 
ability to complete their current rulemaking and move up the effective 
dates of the different federal standards, if such action is taken by 
appropriate authorities in the state.
                      additional technical issues
    We have a few other technical corrections to suggest as follows:

          1. General service lamps are defined (p. 4, lines 9-10) to be 
        200-3000 lumens, but the standard in the legislation only 
        covers lamps of 310-2600 lumens. The coverage should be 
        modified to be the same as the specific standards so as not to 
        leave 200-310 and 2600-3000 lumen lamps in a state of limbo.
          2. The definition (p. 4, lines 11-13) includes lamps with ``a 
        voltage range at least partially within 110 to 130 volts.'' It 
        is unclear whether lamps that may be advertised as ``rated for 
        140 volts,'' but that will operate at 110-130 volts, are 
        covered by the standards. They should be covered, to avoid yet 
        another potentially serious loophole. We recommend this 
        sentence be changed to read ``is capable of operating at a 
        voltage at least partially within the range of 110-130 volts.'' 
        We believe this is the intent of the provision. The same change 
        should be made in Section 105 on page 35, lines 22-23. Our 
        understanding is that the major lamp manufacturers agree with 
        this recommendation.
          3. The provision on 150 Watt lamps (p. 27, line 4 through p. 
        28, line 15) should be specified in terms of a lumen range 
        (e.g., 2601-3300 lumens) and not as a specific wattage. As 
        currently written, sales of 149 or 151 Watt lamps, for example, 
        would not be tracked and could become a loophole. Specifically, 
        the words ``150-Watt'' should be replaced with ``2,601-3,300 
        lumens'' each place it appears in this section (p. 27, line 4, 
        p. 27, line 9, and p. 27, line 25).
          4. On page 8, we recommend clarifying the language by 
        deleting ``similar to but not limited to'' in lines 7 and 8 and 
        adding before the comma at the end of line 9, ``or similar 
        configurations.'' We recommend parallel clarifications to lines 
        1 through 4 on page 10.
          5. In the heading to the table at the bottom of page 11, 
        ``INSIDE FROST'' should be changed to ``FROSTED'' to be 
        consistent with the definition on page 4 and usage throughout 
        the rest of the bill.
                     metal halide lighting fixtures
    Metal halide lamps also provide a substantial savings opportunity, 
although not as large as for incandescent lamps. Metal halide lamps are 
commonly used in gymnasiums, big box retail stores, and other high-
ceiling applications. A recent study for DOE estimates there are some 4 
million metal halide fixtures in the U.S. that consume about 54 billion 
kWh per year.\5\ At 9 cents per kWh, these cost nearly $5 billion per 
year to operate.
---------------------------------------------------------------------------
    \5\ See footnote 1 for reference.
---------------------------------------------------------------------------
    Multiple states have adopted standards requiring that new metal 
halide fixtures use ``pulse start'' ballasts instead of the older and 
less efficient ``probe start'' ballasts. Use of pulse start ballasts 
typically reduces energy use by about 15%. States that have enacted 
these standards are Arizona, California, Connecticut, Massachusetts, 
Maryland, New York, Rhode Island, Vermont, and Washington.
    In July, 2007, ACEEE and NEMA completed negotiations on a consensus 
federal standard that would achieve the same purpose but provide a 
little more flexibility to manufacturers. ACEEE estimates that this 
provision will save 14 billion kWh annually by 2030, reducing peak 
power demand by about 3900 MW (the capacity of 13 power plants of 300 
MW each) and greenhouse gas emissions by nearly 3 million metric tonnes 
of carbon. At 9 cents per kWh, this provision will reduce energy bills 
by about $1.4 billion per year after stock turnover gradually replaces 
the existing fixture base. This provision is included in the House-
passed energy bill. We thank you for including this identical provision 
in S. 2017 and support its enactment into law.
                           consumer education
    For incandescent lamp standards to work, consumers need to be 
educated that they are purchasing lamps for their light output, not 
their watt input. Section 102 directs that the FTC review and revise 
current lamp labeling rules to help consumers better understand new 
high-efficiency products. We see this as an essential complement to the 
standards set in the bill.
                           fluorescent tubes
    Fluorescent lamps account for about the same amount of energy use 
in the U.S. as incandescent lamps--313 billion kWh per year according 
to a recent study for DOE. At 9 cents per kWh, consumers and businesses 
spend $28 billion annually to operate fluorescent lamps.\6\
---------------------------------------------------------------------------
    \6\ See footnote 1 for reference.
---------------------------------------------------------------------------
    Congress passed efficiency standards for these lamps in the Energy 
Policy Act of 1992. Revisions to these standards are overdue. ACEEE and 
NEMA have been discussing a set of recommendations that would set new 
standards for fluorescent tubes. The primary effect of these new 
standards will be to encourage consumers and businesses now using T12 
tubes (1.5 inches in diameter) to use the more efficient T8 tubes (1 
inch in diameter). T8 lighting systems are highly cost-effective to 
consumers and businesses, but many (roughly half) have yet to convert 
to T8. Our recommended standard would encourage the change by limiting 
T12 tubes to the very highest efficiency levels on the market. As a 
result, T8 lamps will not only be more efficient than T12, they will 
also be less expensive.
    As this point, ACEEE and NEMA have not reached agreement. The 
primary differences are in the stringency of the new T12 standard. 
ACEEE wants only the most-efficient T12 lamps to meet the standard, 
thereby encouraging further conversions to even more efficient T8 
systems. NEMA is suggesting that only the least-efficient T12 systems 
fail the standard. There is also a difference regarding the effective 
date.
    ACEEE estimates that its version of this provision will reduce U.S. 
energy use by 23.5 billion kWh in 2030, reducing peak demand by 7550 MW 
(the capacity of 25 power plants of 300 MW each). At 9 cents per kWh, 
more than $2 billion in annual energy bill savings will result. 
Greenhouse gas emissions reductions will total nearly 5 million metric 
tonnes of carbon in 2030.
    A copy of our recommended changes to existing law is attached to my 
testimony. If remaining issues can be resolved with manufacturers, we 
urge you to incorporate this language into federal legislation.
                            other provisions
    S. 2017 also includes provisions on research and development, 
market research on ways to increase use of products that exceed the new 
standards, and research on ways to limit the release of mercury from 
lamps. We support all of these provisions.
                               conclusion
    S. 2017 contains important provisions to improve the efficiency of 
general service incandescent lamps and metal halide lighting fixtures. 
In my testimony our coalition recommends crucial ways to improve this 
legislation by minimizing opportunities for loopholes and 
misinterpretation, and addressing technical concerns and protecting 
states' rights for continuing to enforce state efficiency standards. We 
also recommend adding new fluorescent tube standards to the 
legislation. A table summarizing our estimate of savings from S. 2017, 
and savings from our recommended modifications to the bill, is provided 
below.


----------------------------------------------------------------------------------------------------------------
                                                              Annual Savings in 2030
                                 -------------------------------------------------------------------------------
              Item                                                 Power Plants    Energy Bills   Million Metric
                                    Billion kWh       Peak MW      (300 MW ea.)    (@ $.09/kWh)    Tonnes Carbon
----------------------------------------------------------------------------------------------------------------
S. 2017
----------------------------------------------------------------------------------------------------------------
  Incandescent                               139          17,100              57           $12.6            27.8
----------------------------------------------------------------------------------------------------------------
  Metal halide                                14           3,900              13             1.4             2.9
----------------------------------------------------------------------------------------------------------------
    Subtotal                                 153          21,000              70            14.0            30.7
----------------------------------------------------------------------------------------------------------------
Modifications
----------------------------------------------------------------------------------------------------------------
  Incandescent                                20           2,500               8             1.8             4.0
----------------------------------------------------------------------------------------------------------------
  Fluorescent                                 24           7,500              25             2.1             4.7
----------------------------------------------------------------------------------------------------------------
    Subtotal                                  44          10,000              33             3.9             8.7
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
        Total                                197          31,000             103           $17.9            39.4
----------------------------------------------------------------------------------------------------------------

    With our recommended changes we estimate that this bill will, by 
2030, reduce annual electricity use by nearly 200 billion kWh, reduce 
peak demand by 31,000 MW (the capacity of more than 100 power plants) 
and reduce consumer and business energy bills by about $18 billion per 
year. These are very large savings. In addition, these provisions will 
reduce greenhouse gas emissions by nearly 40 million metric tonnes, 
adding to the substantial savings in the Senate-passed energy bill and 
making a useful downpayment in efforts to address global warming. We 
urge you to include these improved provisions in an energy bill 
reported out of this Committee and the upcoming House-Senate energy 
bill conference.
    This concludes my testimony. Thank you for the opportunity to 
present these views.

    The Chairman. Thank you very much.
    Thanks to all three of you for your excellent testimony. 
Let me ask a few questions and then Senator Murkowski, I'm 
sure, will have some questions.
    Mr. Waide, let me ask you first. You referred to the fact 
that Canada is getting ready to establish similar standards, 
requiring more efficient lighting. It would seem to me to make 
good sense for us to be in sync with what they're doing in 
Canada, since our economies are so integrally connected in a 
lot of ways. To your knowledge, what is the extent of the 
difference between what they're likely to be doing there and 
what we're proposing to be doing here?
    Mr. Waide. I think firstly, is to say that my understanding 
is that the Canadian government and the people who are 
preparing the regulations for the Canadian government would 
very much like for there to be harmonization between the two 
economies' requirements, as well. Obviously, as you share the 
same lamp market, that makes perfect sense. They have in mind, 
my understanding is, the main difference, they have a, 
everything by 2012 at the current requirement. They would, I 
believe that includes lamps of 40 watts and below, as well. 
They have a lumen per watt approach that is based on a curve. 
The thinking here is that all lamps, whether you're dealing 
with compact fluorescent lamps or incandescent lamps, they 
actually are less efficient, that means they give out less 
lumens per watt of power going in at lower light output levels, 
than they do at higher light output levels. They typically 
follow a curve of that kind. They've devised an equation, which 
is intended to be 50 percent higher for their tier-one 
standard, than the average current incandescent performance, 
based on that curve. So, they are saying from 2012, lamps 
should meet that.
    This is their proposal and I believe they're in discussions 
about, in consultation process about it, so I'm sure there's 
flexibility to consider some issues on it. But that's what 
they've proposed so far.
    The Chairman. Let me ask Mr. Pitsor and Mr. Nadel, if you 
had any opinion as to whether there should be an effort by us 
here in the United States to coordinate with Canada on the 
standards, or whether it's not a big issue either way?
    Mr. Pitsor. Mr. Chairman, we have been meeting with the 
Canadian authorities of the new lamp member manufacturers and 
are participating in those discussions. We think it's important 
to try to harmonize as much as possible and are participating 
in those discussions.
    The Chairman. OK. Do you know if anyone from our Department 
of Energy is involved or monitoring the details of those 
discussions?
    Mr. Pitsor. I don't have firsthand knowledge as to that, 
no.
    The Chairman. OK. Mr. Nadel, did you have any knowledge 
about this?
    Mr. Nadel. I don't know whether DOE is monitoring the 
Canadian procedures. I know that NRK in Canada usually attends 
most of the DOE procedures. Frankly, the United States market 
is much bigger than the Canadian market and they tend to pay 
close attention and often follow what we do, because we're such 
a larger market.
    The Chairman. OK. Let me ask, Mr. Pitsor especially, one of 
the issues Senator Salazar raised, is concern about how we can 
maintain some of the manufacturing jobs here, that result from 
moving to these newer technologies. Do you have any thoughts? I 
know there is some manufacturing of lighting fixtures and 
products in this country. What will the effect be on that, of 
moving to these higher or different standards, as you see it? 
Will we lose additional manufacturing activity here or can we 
maintain our manufacturing level here and perhaps even grow it 
with these new standards?
    Mr. Pitsor. Mr. Chairman, this is an important part of the 
whole standards efficiency discussion. Because the 
transformation to transform a $4 billion installed base, we 
need a phase-in period in order for us to phase-out our current 
production lines and install new production lines, retrain 
workers, qualify new suppliers. That's why it's important to 
have this 4 year, or this 3 year phase- in period, so we can 
maintain U.S. manufacturing for the new technologies that we 
want to do to replace today's general service incandescent 
light bulb. We're not going to see CFLs being made here. Those 
are sourced from China. These are the products, I think that 
Senator Domenici was referring to. These actually end up being 
hand-assembled. They're very energy efficient, but they're 
labor-intensive. So, that's why these are globally sourced from 
China, I think, for the European market, Canadian market, U.S. 
market.
    So, the phase-in is very important to us, so we can 
reposition equipment to maintain a U.S. manufacturing and 
production base for the new technologies.
    The Chairman. OK. My time is up.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I'm sorry that 
I missed the testimony from Undersecretary Karsner, but I 
appreciate the opportunity to hear the discussion this morning 
from you gentleman.
    Coming from the State of Alaska, I'm very interested in 
understanding where the technology is. Mr. Pitsor, you have 
indicated that the CFLs have low light output, particularly in 
the hot temperatures and the cold temperatures. Can you define 
what the cold temperatures are? I'm sure the people here or in 
the South would be interested in knowing what the range is on 
the hot temperatures, too. But when I've got a family that's 
pulling into their driveway at 6 o'clock at night in the middle 
of winter in Fairbanks, Alaska and it's pitch dark and there's 
ice fog. They need to now that that porch light or that garage 
light is actually working in temperatures that are 40 to 60 
degrees below zero. Can you give me a little more background on 
the adequacy of or performance in the cold and hot 
temperatures?
    Mr. Pitsor. I can supply you with some more technical 
information.
    Senator Murkowski. OK.
    Mr. Pitsor. We refer to some of the technical data from the 
manufacturers. The issue with the heat is that because the CFLs 
have, if you will, the little ballast is built in here, heat 
causes the electronics of this to fail, if it overheats. So in 
hot temperatures or in enclosed fixtures, this base, the 
electronics stop working----
    Senator Murkowski. So does it fail completely? Or is it 
just a dimmer output, if you will.
    Mr. Pitsor. No, no. In an overheating capacity, the 
capacitor basically burns out and it fails completely.
    Senator Murkowski. In cold as well?
    Mr. Pitsor. In cold temperatures, it's an issue of starting 
the light, for it to be excited, in order to provide the light 
in the cold temperature. The actual temperature range I'll have 
to get back to you on.
    Senator Murkowski. Do you know, just from experience now, 
Canada is clearly utilizing these. In Europe, I'm sure you've 
got some Scandinavian countries where they face the same 
issues, in terms of cold. So I'm just wondering how extreme it 
needs to be on either end of it to allow for the failure of the 
technology, really.
    If you could get me the specifics on that, I think 
customers in general would want to know. They're looking at 
these as, we all want to be more efficient in our usage when it 
comes to electricity, but we also recognize that these bulbs 
are a little more expensive. If I'm going to buy it, I want to 
make sure that it's going to be working. So it would be very 
helpful if we could have a better understanding of that. But 
further to that point, is there continuing work with the 
technology to address these inefficiencies in performance at 
the low end and the high end of the thermometer here?
    Mr. Pitsor. Yes, I mean there's work going on, both with 
the compact fluorescent technology, improving the color of the 
light, the quality of the light, as well as in LEDs, the light 
emitting diodes.
    Senator Murkowski. Right.
    Mr. Pitsor. That whole technology, which is, you know, we 
see it in niche applications today, in traffic signal lights, 
for instance, some under-cabinet lighting, getting a white LED 
so that we can convert that into the new general-purpose light 
bulb. That's something which is, we see, proceed down the road. 
All the major manufacturers are investing and studying that 
technology.
    Senator Murkowski. What about dimmers? This is really 
important to my husband.
    Mr. Pitsor. Right. Dimming is very important. The halogen 
and incandescent technologies and the LEDs are fully dimmable 
products.
    Senator Murkowski. But not the CFLs?
    Mr. Pitsor. The CFLs, generally, are not dimmable. You 
can--you can make a dimmable CFL, but you have--it's more 
expensive, it's a larger product and you also have different 
dimmers for them.
    Senator Murkowski. But, I guess my question is, are we 
looking to make those advances in the technology so that will 
ultimately be available to us?
    Mr. Pitsor. Yes. There's work occurring on all those fronts 
by the manufacturers.
    Senator Murkowski. All right.
    Mr. Pitsor. Bringing new products to the market every day.
    Senator Murkowski. Good.
    Let me ask you, Dr. Waide, you noted in your testimony that 
the CFLs contain the small amounts of mercury vapor. If I 
understand correctly, that in Europe you have a recycling 
process of sorts for the CFL bulbs. Can you explain to me how 
much mercury vapor is actually contained in one of the CFLs and 
is it your recommendation that we would want to provide for 
some form of a recycling process in this country as well?
    Mr. Waide. This is quite a sensitive issue, and 
unfortunately I'm not an expert on mercury, critical pathways, 
and human health risks to be able to really answer that 
question competently. What I can say, is that it's roughly up 
to five milligrams or less or mercury, which is a lot less than 
what used to be in fluorescent lamps. In terms of total 
quantity of mercury, or at least to the environment, you will 
see far more when you have coal as your--as a significant 
contributor to your generating mix, as you do in the United 
States, by avoiding power consumption from using a CFL, because 
coal-fired generation gives rise to mercury emissions.
    Now, in terms of the health risk, that depends on the 
critical pathways of airborne versus mercury in lamps and how 
that might potentially get into humans. I'm really not 
qualified to talk about that. I can comment that I understand 
that in Europe, this scheme which is really just getting 
underway, and so I'm waiting to see how it's really going to 
function in practice. But I understand from manufacturers, this 
is going to add about 25 Eurocents per lamp to the cost of a 
CFL, to pay for end-of-life recycling.
    Senator Murkowski. The recycling----
    Mr. Waide. Yes. So that might----
    Senator Murkowski [continuing]. Process?
    Mr. Waide [continuing]. Be a ballpark figure. But I think 
it--the way the recycling is being done is quite different, I 
understand, than in the States, and even in some different 
regions within States, depending on how they're structured. So 
it's really going to be a huge laboratory, and if people are 
interested in looking at that issue, I would suggest that they 
go and have a look at what's happening.
    Senator Murkowski. Does Canada have a recycling program?
    Mr. Waide. Scandinavia?
    Senator Murkowski. Canada?
    Mr. Waide. Canada. Not yet. That's what I understand. 
There's certainly no requirement to. This is quite an important 
issue that was being discussed in their first consultation 
meeting they had on this topic, as to whether or not they 
should be setting up some sort of mandated recycling or not of 
fluorescent lamps.
    Senator Murkowski. Mr. Pitsor, did you want to join in on 
that?
    Mr. Pitsor. A complement on those. The--earlier this year, 
the NEMA manufacturers issued a public statement committing to 
a mercury maximum in CFLs or no more than five milligrams--as 
Mr. Waide has indicated. In actual practice, today these are 
around three to four milligrams of mercury per CFL. There are a 
number of State programs that are being looked at, in terms of 
some recycling. NEMA has supported recycling of fluorescent, 
both compact and linear product. There's a lot more installed, 
in terms of the commercial product, your four-foot linear. But 
today there's not any optimal solution for recycling of these. 
Given the very small amount of mercury in them, it is very 
costly to reclaim that mercury. I think EPA has come out with 
an analysis of a running, between 50 cents to $2 per bulb to 
undertake recycling.
    Senator Murkowski. Wow.
    Mr. Pitsor. So, that's why in this bill, Mr. Chairman, is 
your section 108, which has--which calls for a, the EPA and DOE 
to come back to Congress with recommendations on mercury. We 
think that's an appropriate mechanism, to come back to Congress 
with recommendations and what we might be able to do with 
respect to the mercury and recycling.
    Senator Murkowski. I think that would be an important 
point, to make sure that we fully understand and get those 
systems in place if they will be necessary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me ask on this loophole issue that, Mr. Nadel, you 
talked about there. What's the solution to this? Do we just 
have general authority to DOE to issue regulations to fix these 
problems as they develop, or to cover anything that we're not 
otherwise specifically covering, or what do we do? Maybe Mr. 
Pitsor, you have a point of view as to whether this is a 
serious issue that needs to be addressed as part of our 
legislation. Either one of you.
    Mr. Pitsor. OK.
    Mr. Nadel. I will start and I'm sure he will add a few 
comments.
    What we believe is that the coverage of the bill should be 
broadened, that all screw-base lamps need to meet the standard, 
unless they are specifically exempted. We could come up with 
exemptions for, you know the flame shape bulbs, less than 40 
watts, and various other ones. Get rid of most of the specialty 
products. But that a product that can be used in a general 
service application, that's 60 watts or more, generally should 
meet the standard unless they specifically petition DOE to be 
exempted, and the exemption would say they can't meet the 
standard, they need an exemption for special applications, and 
it won't be used, is unlikely to be used in general purpose 
applications.
    So we think the coverage should be much broader, but then 
deal with these special product for exemptions. Now, we're just 
letting all these special products out. I can think of a dozen 
ways, if I were a manufacturer, that I could evade this 
standard with no trouble at all, and we need to close those.
    The Chairman. Mr. Pitsor, what are your thoughts on that?
    Mr. Pitsor. We--NEMA obviously would be concerned about 
loopholes as well, because our members are making investments 
in these new technologies. We don't want that to be 
circumvented by some other manufacturers, from overseas 
perhaps, trying to skirt the U.S. law by coming up with new 
products that--or coming up with products to, that are not as 
energy efficient.
    However, we think that there's two things to be done here. 
One, is maintain the focus on general service light bulbs. 
That's what we're trying to transform in the U.S., the four 
billion sockets, the four billion of these that we're trying to 
convert out to new efficient products. Keep our focus on 
general service. We think the petition process and having an 
active monitoring of the marketplace will be the way to go 
here, not over regulate decorative and decor and all these 
specialty light bulbs, which we don't see as being, right now, 
a loophole at this time. We would revisit this as we go forward 
through the legislation.
    The Chairman. Let me ask about the one other issue that 
Congresswoman Harman addressed, and that is the preemption 
issue. The House has provisions in their bill, to ensure that 
once we establish Federal standards, they are the standards 
that apply nationwide. I assume that's something the 
manufacturers strongly support and I'd also be interested in 
your view on it, Mr. Nadel. Also, Mr. Waide, if you could give 
us any insights as to how this has been handled in Europe.
    Mr. Pitsor. If we're going to be successful in transforming 
the market, this has to be done at the national level, at a 
Federal level, and we need to then put those standards in 
place. We can allow the States to adopt those standards with 
those same effective dates so they can enforce the in their own 
State. But we need to be able to do this in an orderly for the 
manufacturers to make the changes, make the products, and bring 
them to the market on a national basis. So, that's why we 
support the proposal that's in the bill.
    The Chairman. Mr. Nadel.
    Mr. Nadel. Yes. I'm representing a diverse coalition with 
different views on this issue. I think we all agree with 
Representative Harman that you should not have Federal 
preemption that overrides an existing State standard. In this 
case, the State of Nevada has passed a law that is stronger 
than this bill. They would be preempted and I don't believe 
Congress has ever before preempted a stronger State standard. 
What they typically have done is grandfathered in that specific 
standard. So, our whole coalition supports grandfathering, as 
the House bill did, for existing standards.
    Beyond that, our coalition does vary some, in terms of 
preemption and whether a State like California, which is now 
working on new standards, should be allowed to proceed. I know 
the California Energy Commission was invited to testify here. 
They weren't able to make it, but they'll be submitting 
detailed comments on their desire, effectively, to continue 
with their current rulemaking.
    The Chairman. Mr. Waide, is this an issue in Europe or that 
the European Union is taking on, so everyone understands that 
that preempts everyone else, or how does this work?
    Mr. Waide. I think in a slightly different it is an issue 
in Europe. This is probably why we're seeing some many EU 
member States introducing their own measures to phase-out 
incandescent lighting. Going in parallel with what's happening 
at EU process. But of course, it's not in the technical sense 
because it's quite clear in EU law, that EU member States don't 
have right to introduce performance regulations for tradable 
goods, which are not harmonized at the EU level.
    In reality, what can happen is, and what does happen, is 
that they have the right to set building code requirements, so 
they can say you can't install a product, you can buy it, you 
can sell it, you can trade it, but you can't install it. Or you 
can, and obviously for compliance purposes, that's a very 
complex way of handling something. Or they have the right to 
deal with different duties and to use fiscal measures and 
subsidies as the UK is currently exploring.
    I think, you know, one of the issues that--I haven't heard 
it mentioned here, but I don't know if there's any means by 
which the Federal level subsidies for higher-performing lamps 
could be introduced as a way of dealing with the tradeoff 
between quality, ensuring that lamps of all types of optimum 
light quality are available, but on the other hand, ensuring 
that when the sensitivity of that issue is less important, 
which it is in the majority of cases, that there is an 
incentive to go for the higher-efficiency option. I think we're 
seeing economies starting to introduce blends of measures to 
try and stimulate, get the right balance in terms of getting 
the energy savings outcome, but still permitting lamps of a 
sufficient variety to be available on sale.
    The Chairman. We could go on here, but I think I'll just 
stop with that. I want to thank you all for testifying. I think 
your testimony's been useful. I think the hearing's been useful 
in informing our deliberations on the issue around here. We 
appreciate it. That will conclude the hearing.
    [Whereupon, at 12:32 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]
             Statement of the California Energy Commission
    The California Energy Commission believes that S. 2017 is a 
significant and welcome step to address the inadequate level of energy 
efficiency of existing general service lighting in the United States, 
and will, if passed into law, provide for significant national energy 
savings and accompanying greenhouse gas reductions. That said, however, 
we must register our strong opposition to the proposed law's strict and 
inflexible preemption of state ability to develop strong, early, and 
effective lighting efficiency standards. We believe that such 
limitation challenges California's ability to meet our climate change 
goals.
    We appreciate the commitment of Chairman Bingaman and Senator 
Stevens towards achieving significant national energy savings in 
lighting use. Such energy savings, and more, are an essential part of 
achieving not only national goals for greenhouse gas reductions, but 
also for California's enacted greenhouse gas reduction targets signed 
into law by Governor Schwarzenegger in 2006 (Assembly Bill 32).
    We particularly appreciate the acceptance of the Chair and 
Committee members of this written testimony on S. 2017.
    Our testimony will focus on S. 2017's language preempting state 
standards regulating lighting, an issue of utmost importance to 
California if we are to meet our enacted greenhouse gas targets.
    In addition, we support the recommendations for closing loopholes, 
expanding coverage, changing lumen bin levels, and improving clarity 
that are included in the testimony of Steven Nadel on behalf of the 
ACEEE and a coalition of energy efficiency advocacy organizations.
    S. 2017 preempts all state general service lamp standards with one 
limited exception--states with standards in place prior to the 
enactment date of the legislation are allowed to enforce their 
standards until the federal legislation takes effect (p. 34, lines 16-
24). While we understand that the lighting industry would prefer the 
certainty of one national standard in place at one time, we must 
strongly oppose the preemption language as written in S. 2017.
    Over thirty years ago California took on the mantle of setting 
energy efficiency standards for appliances and buildings--leading the 
nation in this effort. We continue to update our building standards 
every three years, providing--cost-effectively--the most efficient 
homes and buildings in the nation to our citizens. We continue to lead 
the nation in regularly developing and adopting cost-effective 
appliance standards--where not preempted by Federal standards. The 
majority of current federal appliance standards have been built upon 
California's previous efforts, often using the same language. We 
believe that it is valuable to the nation, not just California, to 
continue to allow strong state leadership and innovation in lighting 
regulations. S. 2017 would shut down this path to better national 
lighting policies.
    In 2006, we adopted standards for general service lighting that go 
into effect at the beginning of 2008. Indeed, many of the definitions 
and basic regulatory structure envisioned in S. 2017 are derived from 
California's adopted lighting standards. These standards, which we have 
found to be technically-feasible and cost-effective for the state's 
electricity consumers, will lead to significant energy savings in 
California and dramatic changes in general service lighting options 
available to our citizens. While we are pleased that SB 2017 will allow 
us to enforce these standards until the effective dates of any Federal 
standards, we are deeply troubled that the bill would prevent us from 
acting to update these standards.
    Subsequent to our adoption of the current California general 
service lighting standards, the California Legislature enacted and 
Governor Schwarzenegger signed into law Assembly Bill 32, committing 
California to reduce the greenhouse gases the state is responsible for 
to 1990 levels by 2020. This represents approximately a 30% reduction 
in GHG emissions from projected levels, and more than a 40% reduction 
on a per capita basis, in just 13 years. It is clear that meeting these 
targets will require strong and early actions to improve energy 
efficiency in California. We have committed to updating our lighting 
standards to address this challenge, indicating our intention to update 
the lighting standards by January 1, 2010. S. 2017 would cause this 
effort to come to a halt.
    Recognizing California's commitment to climate change goals, the 
Legislature recently passed and sent to the Governor, Assembly Bill 
1109, requiring the California Energy Commission to establish a 
schedule of lighting efficiency standards by December 31, 2008 that 
would lead to a 50% reduction in residential lighting use in the state 
by 2018. While this bill has yet to be signed into law by Governor 
Schwarzenegger, its passage is a clear directive to the Commission to 
move forward on updated lighting standards in an expeditious and 
significant manner. The preemption language in S. 2017 would prevent 
California from pursuing state regulations that reflect the state's 
climate change timetable.
    Reasonable state standards do not present an undue burden to 
industry on a national level. In our three decades of experience, no 
member of the appliance industry has ever approached the Commission 
after a standard has been in effect and made a case that the standard 
is imposing an undue burden. Industries already produce, ship, and 
distribute appliances with different performance characteristics to 
different regions of the country and the globe. In fact, for a decade 
before DOE regulated appliances, California had its own standards for 
refrigerators, heating and cooling equipment, water heaters, and 
plumbing fittings, and industry complied with the separate standards 
without obvious difficulty. In addition, the lighting market is an 
international marketplace, with a variety of standards in progress for 
general service lighting. A national standard that preempts state 
standards does not remove the likelihood that industry will be faced 
with making products to meet a variety of international standards.
    In fact, we believe that more flexibility in allowing states to 
pursue standards at a pace consistent with that state's energy goals 
provides a valuable `phasing' function for the change in lighting 
technology envisioned by the industry. States like California that have 
strong reasons to accelerate the movement to more efficient lighting 
can act as the initial phase for manufacturers, smoothing out the 
transition to new technologies. This also provides for lessons learned 
in earlier states to be brought to bear nationally or in states that 
represent later `phases' of the transition.
    In addition, we are troubled that a sister state, Nevada, will have 
the stronger early standard it has enacted replaced, in only a few 
years, by the weaker federal standard in S. 2017. To our knowledge, in 
the 20 years of federal standards legislation, Congress has never done 
this. In the past, stronger state standards have been grandfathered. We 
recommend that this approach be taken here and that the Nevada standard 
be grandfathered. It is particularly ironic that by the time the Nevada 
market gets used to the reduced efficiency allowed by the Federal 
standard in the 2012 to 2020 timeframe, S. 2017 would enact a 
significantly stricter Federal standard. We believe that it makes sense 
to leave the Nevada standard in place until the stricter Tier 2 
standard in S. 2017 becomes effective.
    We understand that the energy bill recently adopted by the House of 
Representatives includes a section on general service incandescent lamp 
standards authored by Representatives Jane Harman and Fred Upton. While 
this bill also unduly limits states ability to adopt lighting 
standards, it provides more flexibility than S. 2017. Specifically, the 
House bill would allow states to modify their state standards to 
reflect the provisions in federal law with earlier enforcement dates.
    While we believe that any federal preemption of California's 
ability to adopt strong lighting standards is detrimental to the 
state's goals, if federal preemption is to occur, we support as much 
state flexibility as possible. Here, the House bill clearly provides 
more flexibility than S. 2017. If the federal government limits 
California's ability to adopt lighting standards without including such 
flexibility, California will likely fail in its attempt to meet the 
greenhouse gas reduction targets adopted in Assembly Bill 32, and will 
likely fail in its attempt to reduce average residential lighting use 
by 50% by the year 2018, as envisioned by Assembly Bill 1109. We need 
to take early actions in California to meet our goals, and S. 2017 
unduly constrains us from taking such an early action.
    Further, we believe that preemption of general service incandescent 
standards, if enacted, should be subject to the same `preemption 
sunsetting' provisions as S. 2017 contains for metal halides (Section 
206, adding new subparagraph (9) to 42 U.S.C. section 6297(c)). We have 
consistently supported preemption sunsetting if the federal government 
fails to meet deadlines for timely updating of standards.
    In summary, the S. 2017 language goes further in preemption than is 
necessary to protect the legitimate interests of the industry. The bill 
would severely restrict the states in their efforts to protect their 
consumers and their environments. We do not believe that the federal 
government should limit state entrepreneurship in establishing lighting 
standards. Doing so can frustrate the ability of the states to meet 
individual state goals such as California's global climate change 
targets.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Responses of Paul Waide to Questions From Senator Domenici
    Question 1. As more nations look to more efficient CFL lighting, 
will global production be able to meet this increased demand? In other 
words, will we mandate the phase-out of incandescent lights only to be 
faced with CFL shortages?
    Answer. At the moment the situation is not sufficiently clear and 
it is for this reason that the IEA is proposing to do an analysis of 
the combined impact of mooted or pending legislation on the 
international demand for higher efficiency lamps and the capacity of 
the global lamp industry to meet it. The IEA would be happy to send the 
Senate details of this work on request. We believe that it is important 
that this analysis be done quickly to clarify whether or not there may 
be a need to coordinate international regulations.
    Question 2. Are other nations planning to rely solely on CFLs as a 
substitute for general service incandescent lighting or will they allow 
efficient halogen, more efficient incandescent, and LED lighting?
    Answer. All of the pending regulations in OECD economies are 
technology neutral, in other words they set minimum energy performance 
criteria rather than specify compliant technologies; however, in 
practice the regulations as proposed would result in conventional 
screw-based incandescent lamps (GLS) being phased-out. In practice this 
means that they could be satisfied by any mix of:

  <bullet> CFLs, which are already commercialized and are available in 
        numerous forms.
  <bullet> Advanced efficiency halogen lamps, which are just being 
        commercialized and whose costs are not yet very clear but may 
        be above or below those of CFLs once mature.
  <bullet> LEDs, which are developing very rapidly, are commercialized 
        for some applications but have yet to be fully demonstrated as 
        a commercially viable option for screw-based lamps and for 
        which product costs are hard to predict at present.
  <bullet> High efficiency incandescent lamps. GE has been pioneering 
        technology for the latter and put out a press release early in 
        2007 asserting that they expected to have a high efficiency 
        incandescent technology available.
       Responses of Paul Waide to Questions From Senator Salazar
    Question 1. Many of the compact fluorescent light bulbs currently 
used in the United States are manufactured abroad. Can you describe the 
current manufacturing situation in the U.S. for producing the more 
energy efficient light bulbs? Is it realistic to expect greater U.S. 
production of the energy efficient light bulbs?
    Answer. NEMA are better placed to answer this than I; however, it 
is important to consider the following factors. Based on what is known 
about current screw-based lamp technology the standards as currently 
proposed in the Senate and House bills would enable any combination of 
the following technologies to be sold:

  <bullet> advanced halogen lamps
  <bullet> CFLs
  <bullet> light emitting diodes (LEDs)
  <bullet> high efficiency incandescent lamps

    CFLs are the only technology among these that tend to have a 
relatively high manual labor input and hence are relatively sensitive 
to labor cost advantages, which in global market terms has resulted in 
the majority of them being produced in China. Nontheless, TCP, based in 
Aurora, Ohio, is a major supplier of CFLs to the North American market 
and my understanding is that their production is based in North America 
and is highly automated. They report that they have been substantially 
increasing production in response to rising CFL demand in North America 
in recent years.
    GE, the main US-based screw-based lamp producer, is reported to be 
a leader in advanced incandescent lamp technology and put out a press 
release early in the year asserting that they planned to commercialize 
a highly efficient incandescent screw-based lamp; however, to my 
knowledge this is not yet on the market.
    Philips are understood to have begun to commercialize a series of 
advanced halogen lamps that would meet the standards requirements of 
both the Senate and House bills; however, it is not yet fully apparent 
how expensive these lamps will be and thus whether they, or CFLs, would 
be the cheapest regulatory-compliant screw-based lamp in the medium 
term. While having an energy efficiency that is higher than GLS lamps 
the best advanced halogen lamps are about half as energy efficient as 
the best current CFLs.
    To my knowledge at present LEDs have not been able to produce as 
much light as most screw-based lamps at a reasonable cost; however, the 
energy efficiency of this technology has been increasing at a very 
rapid rate, while light output levels are rising and production costs 
are probably falling. It is thus not yet clear how viable LEDs may be 
as GLS alternatives in the medium term albeit they appear to have 
considerable promise. Commercially available LEDs are already more 
efficient than GLS lamps and are getting near to CFL efficacy 
performance levels, albeit with some difficulty in producing the same 
quantity of light.
    Question 2. Can you describe the areas of research you think are 
most needed to help the industry achieve the energy efficiency 
standards mandated by S. 2017? What are the most pressing areas of need 
to ensure the new energy efficient lighting provides consumers the same 
quality of lighting they are accustomed to getting?
    Answer. In terms of research there are two main strands that need 
support:

          a) continuing to provide resources to support the accelerated 
        development of high efficiency, high quality and affordable 
        solid state lighting, such as LED technology (the DOE is 
        already active in this area),
          b) support to develop superior phosphors and lamp electronics 
        used in CFLs and other fluorescent lighting technology. In 
        theory, improved phosphors might be able to significantly 
        increase the efficiency of fluorescent lamp technology.

    Aside from research there is arguably an even more important need 
to strengthen lamp quality control mechanisms to minimize the risk of 
consumer dissatisfaction. Quality control is already an important issue 
for CFLs and may well become one for solid state lighting too. It is 
less likely to be a serious issue for the advanced halogen lamps. Most 
economies have not yet done enough to prevent low quality CFLs from 
being present on the market and in the past this has resulted in 
consumer dissatisfaction with the technology. Accordingly, additional 
resources may be required to set up and administer a robust lamp 
quality control system while it may also be appropriate to set legally-
binding minimum lamp quality requirements.
                                 ______
                                 
      Responses of Steven Nadel to Questions From Senator Domenici
    Question 1. The original agreement between industry and efficiency 
advocates presented to me in June called for a three-year phase out 
instead of the two-year time frame set forth in S. 2017. Why was this 
change made? Would you contain to support the agreement with a three-
year time frame?
    Answer. S. 2017 provides a three-year period for the regulations to 
go into effect, with bulbs currently around 100 W replaced in 2012, 
bulbs currently around 75 W replaced in 2013, and bulbs currently 
around 40 and 60 W replaced in 2014. The June agreement you refer to 
was between NEMA with one efficiency organization (the Alliance to Save 
Energy). This agreement delays the effective date for bulbs currently 
around 40 W to 2015. While we prefer the 2014 date, the difference 
between 2014 and 2015 is low on our list of priorities. We can support 
a 2015 date if our other key priorities are addressed. These 
priorities, as discussed in my testimony, are to retain tier 2, cover 
all screw-in incandescent lamps, and revise the third lumen bin to 
cover lamps from 750-1049 lumens.
    Question 2. S. 2017 establishes a ``back-stop'' standard of 45 
lumens per watt for the year 2020 if DOE fails to complete a timely 
rulemaking. Isn't this ``lumens-per-watt'' approach contrary to the 
legislation's wattage cap approach? Why do you support setting a 
lighting standard 13 years in advance--even before the phase-out is 
initiated? Do you agree with industry's assessment that this standard, 
if imposed, will result in the use of CFLs only?
    Answer. We support setting a backstop standard for 2020 of 45 or 50 
LPW. While this is 13 years in the future, we believe it is important 
to establish this backstop standard now so manufacturers know many 
years in advance that the standard will be at least 45 LPW and they can 
focus their R&D efforts on products that will at least meet these 
levels. Going from 20-22 LPW (tier 1) to 45 LPW will require many 
product changes and we want to give manufacturers adequate time to 
prepare. We do not want manufacturers arguing in 2017, just before when 
DOE finalizes its standard, that 2020 is too close and they need 
additional time to prepare. Given the large change in efficiency 
between the initial standard and the backstop revised standard, we 
believe that a LPW standard will be adequate but do not oppose setting 
equivalent values in terms of wattage caps. Both LPW and wattage caps 
have advantages and disadvantages. Finally, we strongly disagree that a 
45 LPW standard will result in use of CFLs only. In addition to CFLs, 
in the 2020 timeframe, 45 LPW can be met by LEDs and probably by new 
advanced incandescent lamps. For example, on Feb. 23, 2007, GE 
announced an advanced incandescent lamp and in their press release 
stated that: ``Ultimately, the high efficiency incandescent (HEI) 
technology is expected to be about four times as efficient as current 
incandescent lamps and comparable to CFL bulbs.'' A copy of this press 
release is attached to these responses for inclusion in the hearing 
record. Finally, there are a variety of new technologies in 
development, some of which are likely to be on the market by 2020. 
Footnote 2 on page 4 of my testimony includes references to some of 
these technologies.
    Question 3. You testified that you would like to see the state 
preemption standards modified. Isn't a national approach preferable to 
a patchwork of conflicting state standards?
    Answer. The preemption issue is a complicated one. On the one hand, 
we agree that national standards are much easier for manufacturers to 
implement than a patchwork of state standards. ACEEE and other 
efficiency advocates have supported preemption of state standards once 
national standards take effect, provided standards are regularly 
reviewed and updated and existing state standards stronger than the 
initial national standard are ``grandfathered''. Given the slow pace by 
which DOE has issued updated standards, all of our recent consensus 
agreements with manufacturers include some type of ``backstop'' if DOE 
does not act--either a backstop standard set in the legislation or the 
waiving of preemption after DOE misses a deadline. S. 2017 contains a 
backstop standard and meets this criteria.
    Given DOE's poor history at revising standards, the California 
Energy Commission is now questioning whether uniform national standards 
make sense for California, particularly given several new California 
laws which require substantial energy savings and emissions reductions 
beyond levels achievable with current federal standards. They are 
providing their own comments on this issue for the hearing record.
      Responses of Steven Nadel to Questions From Senator Salazar
    Question 1. Many of the compact fluorescent light bulbs currently 
used in the United States are manufactured abroad. Can you describe the 
current manufacturing situation in the U.S. for producing the more 
energy efficient light bulbs? Is it realistic to expect greater U.S. 
production of the energy efficient light bulbs?
    Answer. I will let the NEMA representative answer this question as 
they have much more information on this issue than I do.
    Question 2. Can you describe the areas of research you think are 
most needed to help the industry achieve the energy efficiency 
standards mandated by S. 2017? What are the most pressing areas of need 
to ensure the new energy efficient lighting provides consumers the same 
quality of lighting they are accustomed to getting?
    Answer. Industry is now bringing to market products that will meet 
the initial standards in S. 2017. While some products on the market now 
meet the 2020 backstop requirements, further research will be useful to 
improve these products and bring additional products to market. Areas 
meriting additional research in my view include the following:

          1. Improved CFLs including further size reductions for the 
        highest lumen output bulbs, decreased time to reach full 
        brightness, and efforts to reduce the cost of dimmable CFLs and 
        to develop CFLs that can operate on a common dimmer switch 
        (current dimmable products require more sophisticated dimming 
        controls).
          2. Continued improvements in LED lighting including improved 
        efficiency, improved color quality and reduced prices.
          3. Continued research on advanced incandescent technologies 
        such as the new GE technology (details not released yet), 
        ceramic filaments, selective emitters, and photonic lattices. 
        References to these technologies are provided in footnote 2 of 
        my testimony.

    There are likely additional productive areas for research, but 
these are the ones I know about.
                                 ______
                                 
   Responses of Alexander Karsner to Questions From Senator Domenici
    Question 1a. S. 2017 contains a ``back-stop'' standard of 45 lumens 
per watt for the year 2020 if DOE fails to complete a rulemaking in 
time. Does it make sense to specify a new standard today that would 
take effect 13 years from now? Also, if we did set a future standard, 
shouldn't we use the wattage cap approach set forth in the legislation 
instead of a lumens-per-watt approach?
    Answer. DOE believes a ``back-stop is unnecessary. First. DOE is 
committed to meeting its rulemaking schedule. Since DOE issued its 
first Report to Congress on the status of the Appliance Standards 
Program in January 2006, the Department has not missed a single 
rulemaking deadline. Second. this is a time of rapid market and 
technological development for lighting products, and there is 
considerable uncertainty around the future price and performance of 
lamp products in 2020. DOE believes the appropriate standard level 
should be determined based on a lull technical and economic impact 
analysis as required by section 325 of EPCA (42 U.S.C. 6295).
    Question 1b. Also, if we did set a future standard. shouldn't we 
use the wattage cap approach set forth in the legislation instead of a 
lumens-per-watt approach?
    Answer. Both a lumen per watt and a wattage cap can be equally 
effective, if the levels are structured to be mindful of consumer and 
market responses to the standard. A wattage-cap approach can be 
effective if the product classes on which the limits are established 
are based around appropriate lumen output levels (or ranges).
    Question 2. The lighting industry maintains that the two-year 
phase-out directed by S. 2017 is too short--particularly to reach the 
new requirements for a standard 40 watt bulb. Instead, the 
manufacturers support a 3-year phase out. What is DOE's position on 
this timing issue?
    Answer. DOE has not conducted a manufacturer impact analysis on the 
phase-out of 40 watt lamps within these time periods. DOE therefore 
cannot comment on whether a two--year phase-out is adequate or would 
impose undue hardship relative to a three-year phase-out.
    Question 3a. There has been concern over the mercury content in 
CFLs and the proper disposal of such lighting. I understand that the 
mercury contained in a CFL is much less than that contained in a 
thermometer. Does the mercury contained in CFLs pose any danger if the 
bulb breaks?
    Answer. Mercury is a common ingredient in compact fluorescent 
lighting sources, and we take this matter very seriously. However, as 
you have correctly observed, there is a great disparity in the amount 
of-mercury present in a compact fluorescent lamp (CFL) versus that 
contained in a mercury thermometer. Typically, about four or five 
milligrams of mercury are present in a CFL, while a ``traditional'' 
thermometer contains anywhere from 500 to 3,000 milligrams.
    While CFLs are in use, the mercury within them presents absolutely 
no health risk. It is only when lamps are broken that tiny amounts of 
mercury may be released into the atmosphere where. if inhaled, it could 
pose a health risk. The possible health risks associated with the 
occasional breakage of CFLs in homes. especially if the area is 
ventilated and the breakage cleaned up and properly disposed of, are 
thought to be insignificant. There may also be health risks associated 
with the disposal of large numbers of CFLs in conventional landfills. 
However, these risks may be offset by the reductions in airborne 
mercury emissions as a result of the lower electricity demand achieved 
through the use of CFLs.
    Question 3b. What is the proper method of disposal?
    Answer. The recommended disposal method is through local recycling 
options for compact fluorescent light bulbs, if available. Consumers 
can identify their recycling options by going to www.epa.gov/
bulbrecycling or contacting their local municipal solid waste agency 
directly.
    If their state permits disposing of CFLs in the garbage, consumers 
should seal the light bulb in two plastic bags and place it in the 
outside trash for the next regular trash collection.\1\
---------------------------------------------------------------------------
    \1\ http://www.energystar.gov/ia/partners/promotions/change--light/
downloads/Fact--Sheet--Mercury.pdf
---------------------------------------------------------------------------
    Question 3c. Does breakage on different surface areas affect 
disposal in any way?
    Answer. The best way to dispose of a broken CFL does vary based on 
whether the surface is hard or carpeted. Regardless of the surface 
type, one should open a window and leave the room for at least 15 
minutes after the bulb breaks. Also, one should not handle the 
fragments with bare hands, instead using disposable rubber gloves if 
they are available.
    For a solid surface, the best cleanup method is to scoop the glass 
fragments and powder into a plastic bag using cardboard or stiff paper 
and placing the contents in two plastic bags. One should then wipe the 
area clean with damp paper towels or we wipes and place them in the bag 
as well. The scaled bags should be placed in the outside trash 
container for the next pickup. Ideally, brooms and vacuum cleaners 
should not be used to clean up bulbs broken on hard surfaces.
    When a CFL breaks on a carpeted surface, one should follow the 
above directions as well as possible and then use sticky tape, such as 
duct tape, to pick up remaining pieces and powder. If vacuuming is 
still needed, one should vacuum the area where the bulb was broken and 
then remove the vacuum bag (or empty and wipe the canister) and place 
the bag or vacuum debris into two sealed plastic bags. The sealed bags 
should be placed outside in the trash container for pickup.
    It is important to note that some states prohibit disposal of 
broken and unbroken lamps in the trash and require that they be taken 
to a recycling center.
    Response of Alexander Karsner to Question From Senator Cantwell
    Question 1. Mr. Karsner, Pacific Northwest Laboratory (PNNL) has 
been the technical lead on a number of DOE lighting projects in recent 
years, including projects intended to improve the technical performance 
and market adoption of compact fluorescent lamps (CFLs), reflector CFLs 
(R-CFLs), and CFL recessed downlight fixtures. In addition, PNNL led a 
DOE-funded project to investigate the effects on human productivity of 
lighting systems that provide both high quality light and superior 
energy efficiency. Currently, PNNL is assisting DOE in developing novel 
organic light emitting diodes (OLEDs), strategies and projects to speed 
commercial sector acceptance of high efficiency lighting equipment and 
systems in commercial buildings, and the technical foundation for 
launching solid state lighting (SSL) into the general illumination 
market.
    I understand DOE has been very active in working with the SSL 
industry to create a technical foundation for the launch of SSL 
products into the general illumination market. In this regard I've 
heard a little about DOE's work on Energy Star SSL specifications, new 
SSL performance test procedures, and a range of technical information 
products. Could you please tell me more about what work DOE is doing in 
this area and why DOE believes it is so important?
    Answer. To complement the ongoing R&D portfolio, DOE has developed 
a suite of programs that are responding to real-time market needs for 
emerging LED technologies and products, including the ENERGY STAR label 
for qualifying LED products, announced September 12, 2007. Working with 
a number of partners (about 150 companies), including the Next 
Generation Lighting Industry Alliance (Alliance), DOE is establishing 
product performance expectations through ENERGY STAR, creating an 
educational and foundational information base, and, through product 
testing and design completions, reducing the risk of poorly performing 
early products which result in lost consumer confidence and lost energy 
savings. Through early market support actions, DOE seeks to encourage 
early and continuing energy savings through consumer confidence. DOE 
has produced a series of ``Fact Sheets'' to educate initial buyers 
about the technology and appropriate applications for early adoption, 
and the code and standards-writing organizations (IES, ANSI, NEMA, and 
others) are teamina up to provide standard definitions, testing 
procedures, and safety guidelines to lay a foundation for an organized 
market. This year. DOE is demonstrating LED lighting in several 
buildings to establish the functionality and performance of these 
lighting systems. To learn more about available products, DOE tests 
white-light LED products, informs manufacturers of results, and makes 
the information available on its web site for educational purposes. The 
``Lighting for Tomorrow'' design contest encourages lighting 
manufacturers to produce new, high performance LED-based products. In 
conjunction with the Alliance, lighting industry, efficiency groups and 
other interested parties, DOE created the performance specification for 
white light LED-based products necessary must meet to receive the 
ENERGY STAR designation. By ``setting the bar high'' in these early 
market years, DOE will show the product quality level possible and, 
through a better informed consumer, encourage manufacturers to provide 
better engineered and designed lighting.
      Response of Alexander Karsner to Question From Senator Smith
    Question 1. With regard to Section 104 of S. 2017, it appears that 
preempting the states abilities to establish their own standards upon 
the date of enactment of the legislation could inhibit progress on 
regional efforts to increase energy efficiency and reduce carbon 
emissions. For example, why should the states of Oregon and Washington 
be preempted from taking action in the near term that would, at a 
minimum, match California's recently established lighting standard 
thereby creating a west-wide market for light bulbs having the same 
level of efficiency?
    Answer. The preemption language in S. 2017 being referred to here 
is consistent with preemption language contained in section 327 of 
Energy Policy and Conservation Act (EPCA) (42 U.S.C. 6297). Consistent 
with EPCA's focus on setting national energy efficiency standards, DOE 
generally believes it is appropriate that individual States be 
preempted from establishing standards in those areas in which national 
standards apply. Futhermore, this is consistent with the preemption 
that applies if DOE were to establish the standard through rulemaking 
under EPCA. While DOE carefully considers existing State standards as 
one source of relevant information in the standard-setting process, 
EPCA directs a preference for a single national standard.
    Responses of Alexander Karsner to Questions From Senator Salazar
    Question 1a. Many of the compact fluorescent light bulbs currently 
used in the United States are manufactured abroad. Can you describe the 
current manufacturing situation in the U.S. for producing the more 
energy efficient light bulbs?
    Answer. While the vast majority of CFLs are manufactured offshore, 
there is some CFL manufacturing capacity in the U.S. Current 
manufacturing methods for CFLs requires substantial labor input, 
making, it unlikely that U.S. manufacturing of CFLs would grow 
substantially in response to higher U.S. demand for CFLs. Finally, 
there may not be adequate global capacity to satisfy the demand for 
CFLs if the market rapidly shifts from incandescent lamps to CFLs. This 
is a topic receiving significant study by several countries, DOE, and 
the International Energy Agency.
    Question 1b. Is it realistic to expect greater U.S. production of 
the energy efficient light bulbs?
    Answer. There is significant opportunity for U.S. industry to 
increase production of efficient lighting technologies, apart from 
CFLs. This is especially true for solid state lighting (SSL) because, 
as directed by Congress. the patents emanating from the DOE Solid State 
Lighting research program are subject to a requirement that substantial 
manufacturing must occur in the U.S. We are working closely with our 
industry partners in the Next Generation Lighting Industry Alliance to 
accelerate this technology to market through R&D and commercialization 
efforts, including the recently announced ENERGY STAR labeling program 
for solid state lighting.
    Question 2a. Can you describe the areas of research you think are 
most needed to help the industry achieve the energy efficiency 
standards mandated by S. 2017?
    Answer. The Department interprets the term ``general service 
lighting'' to include a wide range of traditional lighting. Currently, 
our R&D program addresses the full range of lighting technologies, 
including incandescent. fluorescent. and solid state technologies. The 
goal is a portfolio that maximizes potential energy savings from all 
lighting technologies. For example, among the ``general service 
lamps'', traditional technologies that show better energy savings 
potential are high intensity discharge lamps (HID) and fluorescent 
lamps. Improving HID lamps requires R&D in luminaire efficacy, 
coatings, dimming, and chemical fills. A key area in fluorescent 
technology is improvement in phosphors for better energy conversion 
into visible light.
    Question 2b. What are the most pressing areas of need to ensure the 
new energy efficient lighting provides consumers the same quality of 
lighting they are accustomed to getting?
    Answer. Quality is a paramount concern for the Department's R&D and 
deployment efforts. ENERGY STAR programs for CFLs and SSLs ensure only 
top quality products get the ENERGY STAR label. For solid state 
lighting, key areas of quality include total cost of ownership, color 
rendering, appropriate shade of white light for the application, and 
geometry of lamp. For compact fluorescent lamps. manufacturers are 
addressing delay in start up and dimmability. Also additional attention 
is being paid to mercury content and disposal. Development of fixtures 
and lighting systems appropriate for the new technologies is being 
encouraged through the Lighting for Tomorrow competition co-sponsored 
with the American Lighting Association.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Kyle Pitsor From Senator Domenici
    Question 1. The original agreement between industry and efficiency 
advocates presented to me in June called for a three-year phase out 
instead of the two-year time frame set forth in S. 2017. Why was this 
change made? Do you still support the agreement?
    Question 2. S. 2017 establishes a ``back-stop'' standard of 45 
lumens per watt for the year 2020 if DOE fails to complete a timely 
rulemaking. Isn't this ``lumens-per-watt'' approach contrary to the 
legislation's wattage cap approach? Why do you believe this standard, 
if imposed, will result in the use of CFLs only?




</pre></body></html>
